<html>
<title> - THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 RESEARCH AND DEVELOPMENT BUDGET PROPOSAL</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                  THE ENVIRONMENTAL PROTECTION AGENCY
                       FISCAL YEAR 2008 RESEARCH
                    AND DEVELOPMENT BUDGET PROPOSAL

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 14, 2007

                               __________

                           Serial No. 110-11

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
33-802                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              KEN CALVERT, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
NICK LAMPSON, Texas                  FRANK D. LUCAS, Oklahoma
GABRIELLE GIFFORDS, Arizona          JUDY BIGGERT, Illinois
JERRY MCNERNEY, California           W. TODD AKIN, Missouri
PAUL KANJORSKI, Pennsylvania         JO BONNER, Alabama
DARLENE HOOLEY, Oregon               TOM FEENEY, Florida
STEVEN R. ROTHMAN, New Jersey        RANDY NEUGEBAUER, Texas
MICHAEL M. HONDA, California         BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           VACANCY
CHARLES A. WILSON, Ohio
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
         ELAINE PAULIONIS Democratic Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             March 14, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     9
    Written Statement............................................     9

Statement by Representative Bob Inglis, Ranking Minority Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................    10

                               Witnesses:

Dr. George M. Gray, Assistant Administrator for Research and 
  Development, Environmental Protection Agency
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    16

Dr. M. Granger Morgan, Chair, Environmental Protection Agency 
  Science Advisory Board
    Oral Statement...............................................    16
    Written Statement............................................    18
    Biography....................................................    25

Dr. Jennifer Sass, Senior Scientist, Health and Environment 
  Program, Natural Resource Defense Council
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    36

Dr. Bruce C. Coull, Carolina Distinguished Professor Emericut and 
  Dean Emeritus, School of Environment, University of South 
  Carolina; President, U.S. Council of Environmental Deans and 
  Directors, National Council for Science and the Environment
    Oral Statement...............................................    36
    Written Statement............................................    39
    Biography....................................................    51

Discussion
  The Superfund Innovative Technology Evaluation (SITE) Program..    51
  Laboratory Infrastructure......................................    52
  Employee Morale................................................    67
  Endocrine Disrupter Research...................................    68
  External and Internal Research.................................    69
  Data Sources and Concerns......................................    70
  Program Assessments............................................    70
  Integrated Risk Information Systems (IRIS).....................    73
  Funding Reductions for Great Lakes Research....................    74
  Nanotechnology Research........................................    75
  Near Road Pollutants...........................................    78
  EPA Budget Request.............................................    79

             Appendix 1: Answers to Post-Hearing Questions

Dr. George M. Gray, Assistant Administrator for Research and 
  Development, Environmental Protection Agency...................    82

Dr. M. Granger Morgan, Chair, Environmental Protection Agency 
  Science Advisory Board.........................................   107

Dr. Jennifer Sass, Senior Scientist, Health and Environment 
  Program, Natural Resource Defense Council......................   110

             Appendix 2: Additional Material for the Record

Statement of the American Chemical Society.......................   116


   THE ENVIRONMENTAL PROTECTION AGENCY FISCAL YEAR 2008 RESEARCH AND 
                      DEVELOPMENT BUDGET PROPOSAL

                              ----------                              


                       WEDNESDAY, MARCH 14, 2007

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                  The Environmental Protection Agency

                       Fiscal Year 2008 Research

                    and Development Budget Proposal

                       WEDNESDAY, MARCH 14, 2007

                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

Purpose

    On Wednesday, March 14, 2006 at 2:00 p.m. the House Committee on 
Science and Technology's Subcommittee on Energy and Environment will 
hold a hearing to examine the Environmental Protection Agency's (EPA) 
fiscal year 2008 (FY08) budget request for Science and Technology 
(S&T).

Witnesses

Dr. George Gray, Assistant Administrator for the Office of Research and 
Development and Science Advisor, U.S. Environmental Protection Agency.

Dr. M. Granger Morgan, Chair, EPA's Science Advisory Board (SAB); Lord 
Chair Professor in Engineering and Professor and Department Head, 
Department of Engineering and Public Policy, Carnegie Mellon 
University.

Dr. Jennifer Sass, Senior Scientist, Health and Environment, Natural 
Resources Defense Council.

Dr. Bruce Coull, Dean Emeritus, School of the Environment, University 
of South Carolina and the National Council for Science and the 
Environment.

Background

Overall FY 2008 for EPA
    Environmental Protection Agency's (EPA) overall FY08 budget request 
is $7.2 billion, a reduction of 5.5 percent compared to the FY06 
enacted level of funding for the Agency. EPA is one of two agencies 
that are cut in the President's FY08 request for federal spending.
    The table below shows the eight primary accounts of the Agency's 
budget. The Environmental Program and Management (EPM) account funds 
the Agency's air, water, waste, toxics and pesticides programs. The 
Superfund account supports clean up of hazardous waste sites. The 
Superfund account also includes funds for Superfund enforcement, 
Science and Technology (S&T) to develop and test new methods for clean 
up and set clean-up standards, and funds for the Inspector General's 
office to address Superfund issues. The State and Tribal Assistance 
Grants (STAG) account provides grants to states and local communities 
to support water and sewage treatment infrastructure construction and 
improvements. The largest reduction is in the STAG account.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


FY 2008 Science & Technology Account
    The presentation of the Administration's budget request in the 
Agency's Congressional Justification for S&T is $781 million. This 
includes the S&T account funding the Office of Research and Development 
(ORD) and S&T activities conducted by the program offices (e.g., Office 
of Air, Office of Water), $755 million, as well as funds requested for 
S&T activities associated with the Superfund program, $26 million. In 
the past, the Superfund S&T funds were drawn primarily from the 
Superfund trust that was funded by the dedicated Superfund tax. Since 
the expiration of the tax, this fund no longer exists and all funds 
must be appropriated from the general treasury.
    Nearly $540 million (69 percent) of S&T funding is for EPA's Office 
of Research and Development (ORD), which is the primary research arm of 
the Agency. Typically, most of the remaining S&T funds go to the Office 
of Air and Radiation, and a smaller amount to the Office of Water and 
to the other program offices.
    However, the S&T number presented in the FY08 request is not 
directly comparable to the FY06 enacted level of funding for S&T 
because it includes an accounting change the Administration initiated 
with the presentation of the FY07 budget request. The actual budget 
request for S&T programs is $690 million, a reduction of 5.6 percent 
below FY06 funding.
    In the FY07 budget request, the Administration instituted an 
accounting change that transferred the cost of operations and 
maintenance of all S&T facilities from the Environmental Program and 
Management account to the S&T account. Prior to FY07, the funding for 
S&T facilities was included with all other facilities in the EPM 
account. When this transfer is accounted for, the actual FY08 S&T 
request is reduced by $65 million to $716 million, a $41 million 
reduction below FY06 enacted funding levels.
Office of Research and Development
    ORD conducts and sponsors both fundamental research in 
environmental science and more targeted research that inform EPA's 
regulatory programs. For example, ORD develops the scientific risk 
information for the Agency's Integrated Risk Information System (IRIS), 
a database about human health effects from chemicals in the 
environment. This program is used by EPA, States, and other government 
agencies to determine hazardous waste site clean up levels, drinking 
water, and other health-based standards. In air quality, ORD develops 
the scientific underpinning for EPA's air quality standards in areas 
such as particulate matter and ozone. ORD also investigates emerging 
environmental questions such as the environmental implications and 
applications of nanotechnology.
    To carry out these responsibilities, ORD conducts intramural 
research at EPA's laboratories, awards contracts, and supports 
fellowships and research at colleges and universities through the 
Science to Achieve Results (STAR) grant program. The table below 
provides the breakout of ORD funds among the various research programs 
at ORD.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Budget Highlights

        <bullet>  If enacted, the FY08 request ($539.8 M) for ORD would 
        be its lowest funding level since FY00 and $106.7 million less 
        than its peak funding level of $646.5 million in FY04.

        <bullet>  The FY08 S&T request includes $10.2 million for 
        research on the environmental implications of nanotechnology in 
        the Human Health & Ecosystems program, a 91 percent increase 
        over the FY06 enacted level.

        <bullet>  The FY07 S&T request includes $68.2 million for 
        Ecosystem Research, $6 million (or eight percent) below the 
        FY06 enacted level, and $28 million (26 percent) below the FY04 
        enacted level. Almost all of the FY07 reduction ($5 million) 
        would be taken from the Environmental Monitoring Assessment 
        Program, (EMAP), which supports states' measurements of water 
        quality conditions and ecosystem health.

        <bullet>  The FY08 budget proposes the elimination of the 
        Superfund Innovative Technology Evaluation (SITE) Program ($1.2 
        million) and the elimination of funding for the Environmental 
        Technology Verification (ETV) program ($3.0 million). Both 
        programs support the development and testing of innovative 
        environmental technologies for cleanup of hazardous substances. 
        The SITE program was created in the Superfund statute.

        <bullet>  The FY08 President's Budget merges the Air Toxics and 
        NAAQS programs into a Clean Air program which will focus on 
        multi-pollutant sources and effects rather than sources and 
        effects of individual pollutants.

        <bullet>  The FY08 budget reduces funding for the STAR grant 
        program by nearly $10 million as compared to FY06 enacted 
        funding to $61.9 million.

Key Issues

    The overall spending by EPA's research programs has been declining 
for several years. The Administration argues that the Agency's research 
is adequately funded given overall constraints on the federal budget 
and that EPA S&T funds have been focused on emerging priorities, while 
programs that are not as pressing or effective have been scaled back. 
Critics of the budget, including EPA's Science Advisory Board, have 
argued that EPA's core research programs are being eroded in ways that 
will limit understanding of the environment and hamper the Agency's 
ability to formulate sound policies.
    The information below describes programs that have received some of 
the most significant cuts or increases.
Land
    The land research program is tasked with the objective of reducing 
potential risks to human health and the environment at contaminated 
waste sites by providing the science to accelerate clean-up decisions. 
Research activities focus on contaminated sediments, ground water 
contamination, site characterization, analytical methods, and site-
specific technical support. The President's FY08 budget requests $32.4 
million for the Office of Research and Development's land research 
program, a $3.6 million dollar decrease from FY06 enacted funding. This 
10 percent reduction in funding could undermine future U.S. remediation 
efforts as the Agency will lack the necessary scientific research to 
cost-effectively clean contaminated waste sites.
Human Health
    The human health research program leads the Agency's research 
efforts on cumulative risks to human beings. Research focuses on risk 
intervention and prevention strategies that aim to reduce human risk 
associated with exposures to single and multiple environmental 
stressors.
    In its budget analysis, EPA expresses the importance of funding 
critical research to address the health risks of susceptible sub-
populations, including: children, adolescents, and the elderly. 
However, the President's FY08 Budget request for $56.8 million reflects 
a $4.7 million dollar decrease from the FY06 enacted funding. This 
seven percent cut in funding from $61.5 million stands at odds with the 
important mission of protecting human health, especially vulnerable 
populations. Furthermore, the overall budget request of Human Health 
and Ecosystem receives a $22.7 million decrease compared with FY06 
enacted funding, a 14 percent cut.
Ecological Research
    Within the Environmental Protection Agency, ecological research 
aims to assess ecosystem conditions and trends, diagnose impairments, 
forecast ecosystem vulnerability, and restore degraded ecosystems. The 
proposed FY08 budget request of $68.2 million represents an $18.1 
million (31 percent) decrease from the FY06 enacted level and a $40 
million (37 percent) reduction since FY04. The FY08 cut would be taken 
primarily in the Environmental Monitoring Assessment Program (EMAP), 
which supports data collection in the lower Mississippi River and Gulf 
of Mexico wetlands.
    In the EPA budget analysis, the Agency describes the necessity of 
providing critical research on the restoration of large flood plain 
rivers and to improve scientific understanding of causal links between 
stressors and changes in ecosystem processes. However, the repeated 
cuts in funding for ecological research have drastically reduced the 
Agency's ability to monitor or protect our nation's ecosystems.
Pesticides and Toxics
    The pesticide and toxics research program examines risks resulting 
from exposure to pesticides and toxic chemicals. This research supports 
the Agency's efforts to reduce current and future risk to the 
environment and humans by controlling the production and release of 
potentially hazardous chemicals. The President's FY08 Budget requests 
$24.8 million, which is a decrease of $5.6 million from the $30.4 
million FY06 enacted funding level. This 18 percent reduction will 
negatively impact important research used to develop a screening 
process for potential neuro- and immuno-toxicity of chemicals.
Fellowships
    The Environmental Protection Agency created the Science to Achieve 
Results (STAR) grant program in 1995 and the program was funded at just 
over $100 million per year between the late 1990s and 2002. The program 
was recommended by an outside advisory panel convened in 1992 and 
reaffirmed in National Academy of Sciences reports in 2000 and 2003. 
These reports stated that EPA should increase its funding of students 
and research in academia to draw on a wider range of research. The bulk 
of STAR funds have been allocated to competitive research grants in 
targeted mission-critical areas, with a smaller portion reserved for 
graduate fellowships and for exploratory research on the next 
generation of environmental challenges.
    The STAR program provides both research grants and graduate student 
fellowships. Since its peak funding level of just over $102 million in 
FY02, the grants program has declined every year. The FY08 budget 
proposes reducing the fellowships to a level of $8.4 million or $3.3 
million (28 percent) below the FY06 enacted level of $11.7 million. 
STAR grants would be reduced to $61.9 million.
Technology Programs
    The Superfund Act (Section 311) established the SITE program and 
directed EPA ``to carry out a program of research, evaluation, testing, 
development and demonstration. . .of innovative treatment 
technologies.'' (Sec 311 (b)(1) ). After significantly downsizing the 
program in FY06, EPA proposes eliminating it in FY07 and has again 
proposed its elimination in FY08. By all accounts, including EPA's own, 
the SITE program has conducted high-quality field demonstrations of 
remediation technologies, and there are many SITE evaluated 
technologies now on the market that have saved money and led to more 
effective remediation efforts.
    The budget also proposes to eliminate the Environmental Technology 
Verification program. ETV was created in the mid-1990s to help 
technology developers verify the performance of their products in areas 
other than remediation technologies. It was developed using SITE as a 
model. The FY08 request would eliminate the remaining $3 million in 
funding that the Agency has used to partner with technology vendors to 
test the performance of their products.
Sustainability Research
    EPA's Science and Technology for Sustainability program is designed 
to advance sustainability goals, specifically in the areas of air, 
ecosystems, energy, land, materials, and water. The Office of Research 
and Development's Sustainability Research program (formerly called the 
Pollution Prevention Research program) would receive a $3.6 million or 
14 percent decrease in FY08 ($22.5 million) from the FY06 enacted level 
of $26.1 million.
    Chairman Lampson. I am now happy to call this meeting to 
order. I wish everyone a good afternoon and welcome everyone 
here to today's Subcommittee hearing on the Environmental 
Protection Agency's fiscal year 2008 Science and Technology 
budget request.
    Environmental issues present increasing challenges for our 
country. We all want a robust economy and access to products 
and services that sustain and improve our quality of life. We 
also want a clean, healthy environment. It is through our 
investments in research and development that we have been able 
to strike a balance between environmental protection and 
economic growth.
    A clean, healthy environment is not a luxury. It is a 
necessity. For example, when water pollution problems result in 
beach closures or closure of fisheries, water pollution becomes 
a threat to public health and to the economic health of 
communities dependent upon recreation and fisheries.
    Unfortunately, the Administration has failed for the 4th 
consecutive year to offer a budget that will enable us to 
achieve further successes in environmental protection. Four 
years ago the EPA's research budget sustained a five percent 
cut. In fiscal year 2006, it was reduced again by two percent, 
and this year's proposal further reduces that budget yet again.
    Sustainability cannot be achieved by EPA in our society if 
the Agency cannot find a way to sustain the programs that 
support environmental protection in this country. EPA cannot 
advance environmental research with a retreating budget. 
Targets for cuts include programs studying children's health, 
endocrine disrupters, toxic waste cleanup, pesticides, 
ecosystem research, technology verification programs, and 
global climate change. Cuts to the STAR Grant and Fellowship 
Program not only reduces funding for research, it reduces 
essential funds for training the environmental scientists of 
the future.
    The bottom line is this budget is inadequate to support the 
kind of research and development enterprise we need to find 
creative solutions to environmental problems.
    I believe several of our witnesses today will be in 
agreement with me. First, I want to welcome our entire 
distinguished panel to this afternoon's hearing. I look forward 
to your testimony and to your recommendations for improving 
EPA's scientific enterprise.
    And at this time I will recognize the distinguished Ranking 
Member, Mr. Inglis of South Carolina, for his opening 
statement.
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    Good Afternoon. I want to welcome everyone here to today's 
Subcommittee hearing on the Environmental Protection Agency's FY 2008 
Science and Technology (S&T) budget request.
    Environmental issues present increasing challenges for our country. 
We all want a robust economy and access to products and services that 
sustain and improve our quality of life. We also want a clean, healthy 
environment. It is through our investments in research and development 
that we have been able to strike a balance between environmental 
protection and economic growth.
    A clean, healthy environment is not a luxury. It is a necessity. 
For example, when water pollution problems result in beach closures or 
closure of fisheries, water pollution becomes a threat to public health 
and to the economic health of communities dependent upon recreation and 
fisheries. Unfortunately, the Administration has failed for the fourth 
consecutive year to offer a budget that will enable us to achieve 
further successes in environmental protection.
    Four years ago, the EPA's research budget sustained a five percent 
cut. In FY06, it was reduced again by two percent, and this year's 
proposal further reduces the budget yet again.
    Sustainability cannot be achieved by EPA in our society if the 
Agency cannot find a way to sustain the programs that support 
environmental protection in this country. EPA cannot advance 
environmental research with a retreating budget. Targets for cuts 
include programs studying our children's health, endocrine disruptors, 
toxic waste cleanup, pesticides, ecosystem research, technology 
verification programs, and global climate change. Cuts to the STAR 
grant and fellowship program not only reduces funding for research, it 
reduces essential funds for training the environmental scientists of 
the future.
    The bottom line is, this budget is inadequate to support the kind 
of research and development enterprise we need to find creative 
solutions to environmental problems. I believe several of our witnesses 
today will be in agreement with me.
    I want to welcome our entire distinguished panel to this morning's 
hearing. I look forward to your testimony and to your recommendations 
for improving EPA's scientific enterprise.

    Mr. Inglis. Thank you, Mr. Chairman, and good afternoon. 
Thank you for holding this hearing about the President's fiscal 
year 2008 request for the Environmental Protection Agency's 
Science and Technology Account. Most of the budget requests 
before the Congress relate to the regulatory functions of the 
EPA, and of course, that is to be expected. The EPA also has 
within its request the Office of Science and Technology and the 
Office of Research and Development. Research from those offices 
is used to improve the regulatory framework of the EPA. I trust 
that the objective of that research is to use science to 
continually improve the regulatory framework.
    As we discuss the proposed fiscal year budget request for 
EPA Science and Technology funding, I hope that the panel will 
help establish the priorities of the use of EPA's science 
resources. By investing in EPA scientific research and 
development today we can get better regulations for tomorrow.
    I look forward to hearing from our witnesses today, and I 
am especially pleased to welcome Dr. Bruce Coull of the 
University of South Carolina here. So thank you, Mr. Chairman, 
for the hearing.
    Chairman Lampson. You are welcome. Thank you, Mr. Inglis. 
And I ask unanimous consent that all additional opening 
statements submitted by Subcommittee Members be included in the 
record. Without objection, so ordered.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good afternoon. I want to thank the witnesses for appearing before 
this subcommittee to examine the Environmental Protection Agency's 
(EPA) fiscal year 2008 (FY08) budget request for Science and Technology 
(S&T).
    First, I am concerned about the Administration's FY08 budget 
proposal cuts to EPA programs because it represents the lowest funding 
request in this century. Consequently, this reduction will have a 
devastating impact on partnerships with academia and State and local 
governments to protect and safeguard human health and the environment, 
as well as curtailing on-going efforts to advance research in human 
health, ecosystems, the environment, and energy sustainability.
    Further, I am concerned that the budget cuts to EPA's programs 
collection and data assessment programs will leave the Federal 
Government with inadequate information upon which to base policies and 
regulations. In particular, there are gaps in policy-relevant research 
needs that will not be filled by other agencies, industry, or academia. 
I am hopeful our subcommittee can work in a bipartisan fashion to 
ensure adequate funding is provided for the EPA to ensure its programs 
are not eroded in ways that could limit our understanding of the 
environment and hamper the Agency's ability to formulate sound 
policies.
    Finally, I am opposed to the continuing trend within EPA of not 
providing full public access and proper oversight on the Agency's 
regulatory decision-making process. I believe the Science and 
Technology Committee must continue to monitor EPA's progress to ensure 
our nation's highest environmental research priorities are not 
undermined.
    I welcome our panel of witnesses and look forward to their 
testimony.

    Chairman Lampson. And it is my pleasure to introduce the 
excellent panel of witnesses that we have with us this 
afternoon. Dr. George Gray is the Assistant Administrator for 
the Office of Research and Development and Science Advisor with 
the U.S. Environmental Protection Agency. Dr. M. Granger Morgan 
is the Chair of EPA's Science Advisory Board. In addition, Dr. 
Morgan is a Lord Chaired Professor in Engineering and 
Department head with the Department of Engineering and Public 
Policy at Carnegie Mellon University. Dr. Jennifer Sass is a 
Senior Scientist with the Health and Environment Division of 
the Natural Resources Defense Council in DC.
    And at this time I will recognize Representative Inglis for 
an introduction of Dr. Coull.
    Mr. Inglis. And we are particularly pleased, I mention, to 
welcome Dr. Bruce Coull, the Dean Emeritus of the University of 
South Carolina School of the Environment and a member of the 
National Council on Science and the Environment. We are 
particularly pleased to have you here today, sir.
    Chairman Lampson. Thank you, Mr. Inglis, and welcome to all 
of you. You will each have five minutes for your spoken 
testimony. Your written testimony will be included in the 
record for the hearing. When all four of you have completed 
your testimony, we will begin with questions, and each Member 
will have five minutes to question the panel.
    Dr. Gray, please begin.

 STATEMENT OF DR. GEORGE M. GRAY, ASSISTANT ADMINISTRATOR FOR 
   RESEARCH AND DEVELOPMENT, ENVIRONMENTAL PROTECTION AGENCY

    Dr. Gray. Thank you, Mr. Chairman, Members of the 
Committee. I am pleased to be here today to discuss the fiscal 
year 2008 budget request from the Environmental Protection 
Agency.
    In keeping with the President's charge to EPA to accelerate 
the pace of environmental protection while maintaining our 
nation's economic competitiveness, the 2008, budget request 
includes $7.2 billion to support the work of EPA and our 
partners.
    Included in that request is $754.5 million for science and 
technology. That request reflects the President's strong 
commitment to ensure that environmental regulations to protect 
human health and the environment are based on the best 
available science.
    The request demonstrates the President's continued 
commitment to provide the resources needed to address our 
nation's highest environmental research priorities, enabling us 
to protect our environment while sustaining our environmental 
growth.
    The request includes $539.8 million for the Office of 
Research and Development to continue the work of providing the 
sound science that informs the Agency's decision. Ninety-five 
percent of those resources are in the S&T budget.
    We are always looking forward in ORD for ways to become 
more efficient and effective at both producing and assessing 
the best available scientific information to inform 
environmental decision-making, and that is reflected in our 
proposed budget. For example, in fiscal year 2008, at the 
advice of the Science Advisory Board, our Board of Scientific 
Counselors, the National Academy of Sciences and others, we are 
combining our $12.3 million Air Toxics Program with our $66.5 
million National Ambient Air Quality Standards Research Program 
into an integrated Air Research Program. With increased 
resources and that reflects a shift to a more holistic view, 
more holistic approach of the science that poses, that 
addresses the challenges of air pollution.
    We are also requesting increased funding for high priority 
work, including clean air, human health risk assessment, and 
research to study the fate, transport, and other issues that 
might be associated with nanomaterials.
    Now, at EPA we are good stewards of our environment, but we 
are also good stewards of our nation's tax dollars. 
Importantly, this budget request will enable ORD to continue to 
fund critical research on the restoration of large flood plain 
rivers, develop decision support tools that enable managers to 
balance ecosystem requirements with human needs, and emphasize 
the development of methods to characterize the services that 
are provided by ecosystems.
    The point is that this budget will enable ORD to continue 
to fund research and meet our critical performance commitments.
    In addition to those areas of increased emphasis, I would 
like to highlight some work that EPA and ORD have done over the 
last year, contributions we have made and continue to make in 
the number of other key areas, including clean air, risk 
assessment, nanotechnology, homeland security, and global 
change.
    The President's fiscal year 2008 budget includes a major 
commitment to strengthening the science that supports the 
Agency's efforts to ensure clean air for all Americans. The 
President is requesting $81.1 million for air quality research, 
which is a $3.4 million increase over the fiscal year 2007, 
request.
    A major focus of this increase will be improving our 
understanding of air pollution near roads. This is an area of 
special concern for children especially because of the location 
of many schools and playgrounds for example. Using both ORD's 
in-house expertise and the unique capabilities of America's 
universities and research institutions, we plan to improve 
measurement and characterization of emissions near roads, study 
the extent of human exposure and health effects from these 
emissions, and examine the effectiveness of potential controls 
such as barriers or changes in building or roadway design.
    Our fiscal year 2008 request also includes $42.8 million 
for human health risk assessment, an increase of $4.5 million 
over the 2007 request. This increase will primarily support two 
areas; an enhanced process for science reviews to support 
National Ambient Air Quality Standards, and enhanced 
characterization of risk in our IRIS system and other risk 
assessments.
    Nanotechnology is another important area. It has the 
potential to improve the environment through direct 
applications to detect and remove pollutants, to reduce 
pollution from manufacturing processes and products, or to 
serve as sensors of pollution in the land, air, or water. 
However, some of the novel beneficial properties, such as 
greater reactivity that make nanomaterials especially useful, 
also raise questions about potential risks of nanomaterials for 
both humans and the environment.
    This year ORD began an in-house research program focusing 
on the human health and environmental implications of 
engineered nanomaterials to complement our existing Extramural 
Grants Program. In fiscal year 2008, we plan a modest expansion 
of our efforts by $1.6 million to study the fate and transport 
of engineered nanomaterials in the environment.
    The Office of Research and Development also has 
responsibilities in the area of homeland security. Our Homeland 
Security Research Program continues to develop, enhance, and 
disseminate information on the decontamination of buildings, 
the protection of water systems, and rapid risk assessment. For 
example, this past year ORD revised its Standard Analytical 
Methods Manual that helps ensure consistency in sample analysis 
during emergencies.
    Finally, with global change, I am sure many of you closely 
watched the release from the Intergovernmental Panel on Climate 
Change, their fourth assessment for policy-makers. Global 
change is an issue that EPA is very active in, and the 
President's fiscal year 2008 budget includes $16.9 million for 
global change research in ORD. EPA is a member of the U.S. 
Climate Change Science Program, and ORD's highest priorities 
for fiscal year 2008, will be working with our partners to 
support completion of the two CCSP assessments for which EPA is 
responsible; a preliminary review of adaptation options for 
climate-sensitive ecosystems and resources, and an analysis of 
the effects of global change on human health, welfare, and 
human systems.
    So by uniquely combining human health and ecological 
research in one federal agency, employing world-class 
scientists, ORD continues to develop a better understanding of 
environmental risks to both human health and ecosystems. The 
results of this research consistently and effectively inform 
EPA's environment decision-making, as well as that of others, 
leading to environmental policies that are based on sound 
science at the federal, State, tribal, and local levels.
    Well, thanks for the opportunity to tell you about some of 
the exciting work that we conduct in ORD, and I would be happy 
to answer any questions that you have.
    [The prepared statement of Dr. Gray follows:]

                  Prepared Statement of George M. Gray

    Mr. Chairman and Members of the Committee, I am pleased to be here 
today to discuss the Fiscal Year (FY) 2008 budget request for the 
Environmental Protection Agency (EPA). In keeping with the President's 
charge to EPA to accelerate the pace of environmental protection while 
maintaining our nation's economic competitiveness, the 2008 budget 
request includes $7.2 billion to support the work of EPA and our 
partners.
    Included in this request is $754.5 million for science and 
technology (S&T), a significant increase over the 2007 Enacted. The 
request reflects the President's strong commitment to ensure that 
environmental regulations to protect human health and the natural 
environment are based on the best science available. The request 
demonstrates the President's continued commitment to provide the 
resources needed to address our nation's highest environmental research 
priorities, enabling us to protect our environment while sustaining our 
economic growth.
    This request includes $539.8 million for the Office of Research and 
Development (ORD) to continue the work of providing the sound science 
that informs the Agency's decisions. Ninety-five percent of these 
resources are requested in the S&T account.
    We are always looking for ways to become more efficient and 
effective at both producing and assessing the best available science to 
inform environmental decision-making and this is reflected in our 
proposed budget. For example, in FY 2008 we are combining our $12.3 
million Air Toxics and $65.5 million NAAQS research into an integrated 
air research program, with increased resources, that reflects a shift 
to a more holistic approach for addressing the science challenges air 
pollution poses. We are requesting increased funding for high priority 
work including clean air, human health risk assessment and research to 
study fate, transport and other issues associated with nanomaterials.
    At EPA, we are good stewards of our environment AND good stewards 
of our nation's tax dollars. Importantly, the budget request will 
enable ORD to continue to fund critical research on the restoration of 
large flood plain rivers, develop decision-support tools that enable 
managers to balance ecosystem requirements with human needs, and 
emphasize the development of methods to optimize the services provided 
by ecosystems. The budget will also enable ORD to continue to fund 
research and meet our critical performance commitments. The human 
health research funding will allow us to conduct research regarding the 
health risks of susceptible populations. Additionally, the President's 
budget request will provide funding for two additional Children's 
Environmental Health Centers, increasing the number from seven to nine.
    In addition to these areas of increased emphasis, I would now like 
to highlight progress ORD has made, and continues to make, in a number 
of other key areas, including homeland security, global change, and 
computational toxicology.

FY 2008 President's Budget

Integrating and Enhancing Air Research

    The President's FY 2008 budget includes a major commitment to 
strengthening the science that supports the Agency's efforts to ensure 
clean air for all Americans. The President is requesting $81.1 million 
for air quality research, which is a $3.4 million increase over the FY 
2007 request. A major focus of this increase will be improving our 
understanding of air pollution near roads. This is an area of special 
concern for children, due to the location of many schools and 
playgrounds. Using both ORD's in-house expertise and the unique 
capabilities of America's universities and research institutions, we 
plan to improve measurement and characterization of emissions near 
roads, study the extent of human exposure to and health effects from 
these emissions, and examine the effectiveness of potential controls 
such as barriers or changes in building and roadway design.
    This ``source-to-health-outcome'' approach--from vehicle emissions 
in the near-road micro-environment, to health effects, and ultimately 
to control strategies--is emblematic of a larger shift in ORD's air 
quality research. In FY 2008, in response to recommendations from 
external scientific reviews, the President's request reflects an 
integration of the National Ambient Air Quality Standards (NAAQS) and 
air toxics research programs into a single ``one atmosphere'' research 
program. This integration will facilitate a multi-pollutant approach 
that better tracks emissions from sources to outcomes.

Enhancing Health Risk Assessments

    Our FY 2008 request also includes $42.8 million for human health 
risk assessment, an increase of $4.5 million over the FY 2007 request. 
This increase will primarily support two areas: an enhanced process for 
science reviews to support National Ambient Air Quality Standards, and 
enhanced characterization of risk in our IRIS system and other risk 
assessments.
    As part of the new NAAQS process developed by the Agency, we are 
committed to meeting the Clean Air Act mandate that EPA assess the 
science of six ``criteria'' air pollutants every five years (we have 
never met this goal) and this funding increase will help us develop the 
Scientific Assessments (formerly known as Criteria Documents) to 
support this process.
    One of my goals is to both to enhance the transparency of EPA's 
process for developing health values for the Integrated Risk 
Information System (IRIS) chemical profiles and the scientific 
characterization they contain. IRIS is a database containing 
information on human health effects that may result from exposure to 
various chemicals in the environment. It has grown into a premier 
national and international source for chemical hazard and effects. 
These increased resources will make IRIS stronger through an enhanced 
development process and by supporting the development of quantitative 
risk assessment methods to allow improved analysis and characterization 
of uncertainty.

Expanding Nanotechnology Research

    Nanotechnology has the potential to improve the environment through 
direct applications to detect and remove pollutants, to reduce 
pollution from manufacturing processes and products or to serve as 
sensors of pollution in land, water or air. However, the novel 
beneficial properties, such as greater reactivity, also raise questions 
about the potential risks of nanomaterials for both humans and the 
environment. EPA, under its various authorizing statutes, has a 
responsibility to ensure that any potential environmental risks are 
adequately understood and managed.
    This year ORD began an in-house research program focusing on the 
human health and environmental implications of engineered nanomaterials 
to complement our existing extramural grants program. In FY 2008, we 
plan a modest expansion of our effort by $1.6 million to study the fate 
and transport of engineered nanomaterials in soils and aquatic 
ecosystems.

Homeland Security

    ORD's homeland security research program continues to develop, 
enhance and disseminate information on the decontamination of 
buildings, the protection of water systems, and rapid risk assessment. 
For example, this past year ORD revised its Standard Analytical Methods 
Manual (SAM) that helps ensure consistency in sample analysis during 
emergencies. The SAM was used recently during a water security threat 
in Blackstone, Massachusetts, and has since been incorporated into the 
emergency response plans for each of the 10 EPA regions. We also 
developed more than 80 oral and inhalation draft Provisionary Advisory 
Levels for different levels of exposure to agents of potential homeland 
security concern. To aid responders in detection and sampling, ORD, in 
conjunction with the Department of Defense, built a prototype of a 
portable, real-time anthrax and ricin detector, which is currently 
undergoing testing and modification for ruggedness.

Global Change

    I am sure many of you closely watched the release from the 
Intergovernmental Panel on Climate Change's fourth assessment. Global 
change is an issue that EPA is very active in, and the President's FY 
2008 budget includes $16.9 million for global change research in ORD. 
We are focusing our efforts on assessing how climate change will affect 
air and water quality, human health, and the condition of ecosystems 
and on providing natural resource managers with the information needed 
to respond effectively to climate change. For example, climate change 
and variability are expected to produce more frequent and more intense 
rainstorms in certain areas, and the results of our research are 
providing local officials with the information they need to make 
informed decisions on water infrastructure investments.
    EPA is a member of the U.S. Climate Change Science Program (CCSP), 
and ORD's highest priority in FY 2008 will be working with our partners 
to support completion of the two CCSP assessments for which EPA is 
responsible--``Preliminary review of adaptation options for climate-
sensitive ecosystems and resources'' and ``Analyses of the effects of 
global change on human health and welfare and human systems.'' \1\
---------------------------------------------------------------------------
    \1\ OAR is leading the CCSP assessment titled ``Coastal elevation 
and sensitivity to sea level rise.''
---------------------------------------------------------------------------

Computational Toxicology

    ORD will continue its important work in computational toxicology, 
applying molecular biology, information management and mathematical and 
computer models to assess the risks chemicals may pose to human health 
and the environment. The resulting tools could build upon and replace 
traditional ways to screen and test chemicals, increasing the 
efficiency and effectiveness of risk assessment processes while 
reducing the use of animals. In FY 2008, ORD's computational toxicology 
research program will focus on information-mining technology, chemical 
prioritization and categorization tools, systems biology models, and 
cumulative risk assessment.

Water Infrastructure

    Our nation's extensive water infrastructure has the capacity to 
treat, store, and transport trillions of gallons of water and waste 
water per day through millions of miles of pipelines. However, as our 
infrastructure deteriorates, there are increasing concerns about the 
ability of this infrastructure to keep up with our future needs.
    As part of our effort to address these concerns, in FY 2007 ORD 
initiated a new water infrastructure research program. This program 
will generate the science and engineering needed to evaluate promising, 
innovative technologies to repair existing and provide new water 
infrastructure that improve effectiveness at reduced cost.

Conclusion

    By uniquely combining human health and ecological research in one 
federal agency employing world-class research scientists, ORD continues 
to develop a better understanding of environmental risks to both human 
health and ecosystems. The results of this research consistently and 
effectively inform EPA's environmental decision-making, as well as that 
of others, leading to environmental policies based on sound science at 
the federal, State, tribal and local levels.
    As our nation shifts to a green culture, Americans are realizing 
that environmental responsibility is everyone's responsibility. Today, 
EPA has 300 million citizen-partners. President Bush's budget request 
will fund EPA's role as our country enters this next phase of 
environmental progress.
    Thank you for this opportunity to tell you about the exciting work 
we conduct in ORD. I would be happy to answer any questions you have.

                      Biography for George M. Gray

    On November 1, 2005, Dr. Gray was sworn in to serve as the 
Assistant Administrator for the Office of Research and Development, 
which is the 1,900-person, $600 million science and technology arm of 
the Environmental Protection Agency. Dr. Gray was appointed to this 
position by President George W. Bush and confirmed by unanimous consent 
by the U.S. Senate.
    Prior to joining EPA, George was Executive Director of the Harvard 
Center for Risk Analysis and a Lecturer in Risk Analysis at the Harvard 
School of Public Health. In 16 years at HSPH, his researched focused on 
scientific bases of human health risk assessment and its application to 
risk policy with a focus on risk/risk tradeoffs in risk management. 
George taught toxicology and risk assessment to both graduate students 
and participants in the School's Continuing Professional Education 
program.
    George holds a B.S. degree in biology from the University of 
Michigan, and M.S. and Ph.D. degrees in toxicology from the University 
of Rochester. He and his wife, Ann, and their two children make their 
home in McLean, Virginia.

    Chairman Lampson. Thank you, Dr. Gray, and Dr. Morgan, 
please proceed.

   STATEMENT OF DR. M. GRANGER MORGAN, CHAIR, ENVIRONMENTAL 
            PROTECTION AGENCY SCIENCE ADVISORY BOARD

    Dr. Morgan. Thanks very much. I appreciate the opportunity 
to appear here this afternoon.
    The mission of EPA is to protect human health and the 
environment. While the challenge and the complexity of 
environmental problems continues to grow, between 2004 and the 
proposed 2008 budget, support for R&D at EPA has declined by 25 
percent in inflation-adjusted terms. This year the Science 
Advisory Board adopted a strategic approach in its annual 
budget review. They asked EPA to give us a cross-cutting look 
at all the research they are doing to better address four big 
environmental challenges: climate change; sensitive human and 
ecological populations; environmental and ecological 
consequences of urban sprawl, and natural and terrorist-caused 
environmental disasters. Our written testimony details some of 
the specifics of what we learned, from which we drew the 
following, more general insights.
    Because the EPA's research programs have long been 
overstretched, the planning process in many programs has fallen 
into a reactive mode, too often playing catch-up. Too many R&D 
funding decisions are incremental rather than strategic.
    On the positive side the introduction of a new system of 
national program directors holds the promise to improve 
strategic design and balance within existing program areas. 
However, the Agency urgently needs to develop a higher-level 
research planning effort that: considers and adjusts the 
balance and focus among major program areas; breaking down the 
stovepipes within which they operate; better coordinates with 
the research programs of other federal agencies; benchmarks the 
quality and content of programs; and restores our National 
leadership in environmental science and engineering so as to 
assure that our international competitiveness is sustained and 
provide the knowledge and technology that Americans will need 
for a clean and healthy environment in the 21st century.
    I turn now to a few comments on the proposed 2008 budget. 
The decline in funding for ecosystem research has continued, 
down roughly 40 percent in inflation-adjusted terms between 
2004, and the proposed 2008 budget. The agency is abandoning 
past efforts to monitor key ecosystems. For example, 
terminating a long-term program to track the impacts and 
benefits of reduced acid rain.
    The agency has expressed a commitment to estimate the 
economic value of ecosystem services. However, the proposed 
budget eliminates many of the financial and human resources 
needed to do that. Economics and decision science resources at 
the Agency have always been small. The proposed budget will 
reduce them by more than half, and an associated reorganization 
will essentially eliminate behavioral social science 
disciplines that are key to effective risk management and risk 
communication.
    An equally-disturbing trend is the continuing decline in 
support for extramural research through the STAR Program, down 
32 percent in inflation-adjusted terms between 2004 and the 
proposed 2008 budget.
    There are a few bright spots. These include growth in 
support for the program in nanotechnology and the small new 
effort in sustainability research and the remarkable continued 
effort by staff to make the best of an ever-worsening financial 
environment. But that said, we are deeply concerned about staff 
morale as budgets shrink. There is also a growing risk that as 
ORD struggles to maintain staff size, an ever-higher proportion 
of funds will have to go to salaries with less to cover all the 
other costs of doing research.
    As you on the House Committee on Science and Technology 
confer with your colleagues on the Appropriations Committee, we 
particularly urge four actions. One, reverse the downward trend 
in support for ecosystem research so that that program can 
continue its essential monitoring of the health of vital 
ecosystems, develop and implement new measures of the value of 
environmental services, and create the basic understanding that 
will be needed to respond to the challenges of climate and new 
technology, such as biomass fuel and nanotechnology.
    Two, reverse the downward trend in support for the STAR 
extramural and Fellowship Programs so that the Agency can 
continue to benefit from fresh ideas from the outside and 
continue a robust program of educating the next generation of 
environmental scientists and engineers.
    Three, reinstate the program in economics and decision 
sciences within ORD and add support for sustainability increase 
or for substantially increasing its capabilities in behavioral 
social science. Even the best science and engineering is 
useless if it is not combined with a sufficient understanding 
of human risk perception and behavior.
    And finally, four, provide a significant increase in 
support for the programs in sustainability and global change, 
because these topics are both inherently important, and they 
provide effective vehicles for moving the Agency in the 
direction of the innovative, cross-cutting research needed to 
address the critical environmental problems of the 21st 
century.
    Thanks very much.
    [The prepared statement of Dr. Morgan follows:]

                Prepared Statement of M. Granger Morgan

    Good morning, Mr. Chairman and Members of the Subcommittee on 
Energy and Environment. My name is Granger Morgan. I chair EPA's 
Science Advisory Board (SAB or Board). I am a faculty member at 
Carnegie Mellon University where I am a University Professor, hold the 
Lord Chaired Professorship in Engineering, and am Head of the 
Department of Engineering and Public Policy, a department in the 
Engineering College.
    Thank you for this opportunity to present the SAB's views about the 
Agency's 2008 Research and Development budget request.
    The mission of the Environmental Protection Agency is to protect 
human health and the environment. To do that in an effective and 
efficient way requires a deep understanding of environmental science 
and technology. However, between 2004 and the proposed 2008 budget, the 
overall support for Research and Development at EPA has declined by 25 
percent in inflation adjusted terms.\1\
---------------------------------------------------------------------------
    \1\ As reported by the AAAS R&D Budget and Policy Program at http:/
/www.aaas.org/spp/rd/cht9508b.pdf.
---------------------------------------------------------------------------
    For many years the EPA Science Advisory Board (SAB) has performed 
detailed reviews of the Agency's Research and Development (R&D) budget. 
However, we have seen little noticeable effect from our annual plea to 
redress what we have seen as the continuing erosion of the ability to 
grow the knowledge base at EPA. This year, therefore, the SAB decided 
to take a different approach. I have submitted our final report from 
this review to this subcommittee for today's hearing record.
    While we again offer some commentary about some specifics of the 
Agency's research budget, we have focused much of our attention on a 
longer-term more strategic look, attempting to assess how well the 
EPA's current research program is likely to prepare the Agency to 
address four key environmental challenges over the coming decades.
    While the Agency will face many challenges, the four we chose to 
focus on, and asked EPA to address, are:

        a)  Climate change, including both impacts (for example on: 
        natural ecosystems; water, coastal regions through sea level 
        rise; air quality) as well as key issues such as terrestrial 
        and deep geological sequestration that may arise as a result of 
        future efforts in abatement.

        b)  Sensitive populations, both human and ecological.

        c)  Urban sprawl and the associated consequences for land use, 
        stresses on ecosystems, stresses on sensitive populations, 
        water contamination, air quality, loss of open space, and 
        related issues.

        d)  Environmental disasters, both those that may arise as a 
        result of natural causes (such as hurricanes, ice storms, 
        drought, earthquakes and volcanism) as well as terrorist 
        induced events.

    The full text of our request to Dr. George Gray, Assistant 
Administrator for Research and Development, is attached.
    Agency staff made a serious attempt to respond to this request, 
revealing a mixed picture. While the Agency can identify a variety of 
lines of research relevant to each problem, it is very clear that there 
has been far too little cross-EPA or interagency research planning on 
these topics. Specifically:

        a)  Research related to climate change was identified to us as 
        the most coherently planned. While there is clear coherence 
        within the domains of climate change impacts on air and water, 
        there are large and important issues not being addressed. For 
        example, while the Department of Energy is performing research 
        on deep geological sequestration of CO<INF>2</INF>, the EPA is 
        not looking carefully at whether this research will provide the 
        necessary basis for future science-based regulation. Similarly, 
        land use, soil and water issues that may arise in connection 
        with biomass energy production are not being seriously studied, 
        nor, to our knowledge, are these and several similar issues 
        being addressed elsewhere across the federal system.

        b)  The Agency has ongoing, though shrinking, programs to study 
        certain human populations that are sensitive to some important 
        environmental stressors. However, studies of sensitive 
        ecosystems are very limited, as are studies of human 
        populations which are dependent upon those ecosystems.

        c)  While there is considerable research directed at cleaning 
        up legacy problems in land contamination (some of which remain 
        very important), there is not yet a coherent program to 
        systematically understand and redress the environmental 
        problems arising from such land-use issues as shifting 
        population distributions, urban sprawl, and development 
        pressures on already vulnerable low-lying coastal areas which 
        will become even more stressed in the future as a result of sea 
        level rise and other impacts of climate change.

        d)  While there is limited work drawing lessons from Hurricane 
        Katrina, we found no systematic research program to anticipate 
        and mitigate possible future environmental disasters. Indeed 
        the proposed budget would totally eliminate Central Basin 
        (Mississippi-Missouri River) monitoring, and cut EPA's already 
        under-funded wetlands program. While the EPA has only partial 
        regulatory and management responsibility for dealing with 
        natural or terrorist-induced environmental disasters, this is 
        no justification for devoting so little attention to this 
        critical topic.

    From this look at a sample of four important environmental 
problems, we draw the following general conclusions:

        <bullet>  The Agency's research programs have long faced 
        greater demands than they have had money, time, or attention to 
        address; the planning process has fallen into a reactive mode 
        that is too often playing catch up.

        <bullet>  With a few important exceptions, the Agency's funding 
        decisions in R&D appear to be incremental rather than 
        strategic, leaving allocations within and across major program 
        areas rather stable. In many cases there is an overemphasis on 
        yesterday's problems and insufficient attention to new and 
        emerging problems.

        <bullet>  On the positive side, the introduction of a new 
        system of National Program Directors, with wide-ranging 
        responsibility to set priorities within specific program areas 
        (such as air, water, or human health), and across Centers and 
        Laboratories, holds the promise of improved balance and a more 
        strategic design of research plans within existing program 
        areas.

        <bullet>  The Agency urgently needs to develop a higher level 
        research planning effort that can:

                  consider and adjust the balance and focus among 
                major program areas and increase coordination and 
                collaborations across program areas (i.e., begin to 
                break down the ``stovepipes'' within which many of 
                these program have been operating);

                  be better coordinated with, and build upon, the 
                research programs of other federal agencies;

                  benchmark EPA's research with other cutting edge 
                programs in environmental research around the world; 
                and

                  restore our national leadership in environmental 
                science and engineering so as to assure our 
                international competitiveness and provide the knowledge 
                and technology that Americans will needs in the 21st 
                Century.

    However, effective high level research planning is unlikely to 
occur in the face of a continually eroding research budget, when so 
much attention must be directed at simply holding things together.
    In addition to this general assessment, the SAB also reviewed the 
Agency's existing program structure, in each case asking:

        1.  Is the balance within the program appropriate? Are the most 
        critical scientific questions receiving a high priority? Have 
        adequate financial resources been allocated to address them? 
        Are there important questions that have been left out?

        2.  Is the Agency, and particularly the Office of Research and 
        Development (ORD), being sufficiently proactive in designing 
        research programs that will adequately meet the Agency's likely 
        future needs?

    The Agency scientific and technical staff and managers are doing a 
remarkable job of sustaining high quality research in the face of a 
continuing erosion of financial support. However, in our examination of 
existing research program areas, we found three developments to be 
especially troubling.
    The decline in funding for ecosystem research has continued (see 
Figure 1). One consequence of these cuts is that the Agency is largely 
abandoning past efforts to monitor the status of key ecosystems (e.g., 
terminating a long-term program tracking the impacts and benefits of 
reduced acid deposition on streams and lakes in the mid-Atlantic and 
North East). The Agency has expressed a commitment to estimate the 
economic value of ``ecosystem services.'' However, as explained below, 
many of the financial and human resources needed to do this well, have 
been eliminated.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In order to assess ecosystem services it is essential to collect 
the data needed to assess the health of ecosystems over time and to 
develop a basic scientific understanding of the complex interactions 
within ecosystems. For example, as climate changes, not all species 
will be able to respond in the same way so entire coherent ecosystems 
will not be able to gradually move north (or up mountains). Instead, 
separate species will, or will not, be able to move, new pests will 
emerge, etc. The current EPA ecosystem research program will not 
provide the science needed to understand, predict, and plan for these 
changes, their consequences or how they might be mitigated. As a 
result, EPA will fail the country in this vital mission.
    One argument that has been used to justify the ongoing cuts in 
support for ecosystem research has been that this program has not been 
able to quantify the benefits that it is producing. At the same time 
there is a proposal to eliminate the ORD program in Economics and 
Decision Sciences Research. It appears seriously misguided to raise the 
bar for comprehensive cost-effective or benefit-cost justification for 
environmental science research, while simultaneously shrinking the 
resources devoted to the types of research needed to assess the net 
social benefits of the outcomes of environmental science research.
    Economics and Decision Science resources at the Agency were small 
to start with (about $2.5 million). This budget has been reduced to 
about $1 million as staff from the program in ORD are relocated to the 
National Center for Environmental Economics (NCEE) within the Office of 
Policy, Economics and Innovation (OPEI). In jeopardy are the already 
very limited resources for extramural research. Also threatened will be 
Agency's tradition of partnering with other institutions to co-sponsor 
(at roughly $10-20,000 each) its series of recurring research workshops 
and conferences. These events have long been a key forum in which to 
identify and explore the frontiers of environmental economics research. 
The transition to the NCEE also appears to almost completely eliminate 
other social sciences disciplines, so that the representation of 
essential human behavior disciplines (such as psychology, sociology, 
and anthropology) is decreased to near zero.
    An equally disturbing trend is the continuing decline in financial 
support for extramural research through the STAR program. Figure 2 
shows this trend. A number of EPA research programs that could greatly 
benefit from contributions from extramural research conducted through 
the STAR program, are not participating.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    An especially troubling part of this downward trend is the erosion 
of the STAR Graduate Fellowship program, down from $9.7 million in FY 
2003 to a proposed $5.9 million in 2008. This program has been 
critically important in educating the next generation of environmental 
scientists and engineers who will be needed by EPA, the States and the 
private sector. It has played a vital role in supporting 
interdisciplinary study of environmental problems. There are several 
changes that we found to be very positive. The current focus and modest 
growth in support for the program in nanotechnology are both good 
developments, because understanding the fate and transport of 
nanomaterials is likely to be increasingly important to the Agency in 
the future. It is also time to begin a modest program of research to 
identify possible strategies for regulation, because the classic 
``toxicological testing'' approach is unlikely to be viable if it is 
applied unchanged to nanotechnology evaluations.
    Although very small, the new Sustainability Research Strategy and 
associated Multi-year Plan could provide a valuable integrating 
framework for EPA core and problem-driven research. These efforts 
support the transition from the traditional single media approach of 
environmental protection to a more systems-based and fully integrative 
process based on life cycle principles. ORD's sustainability research 
program should be developed in a way that enables the Agency to address 
the most challenging and multi-faceted environmental issues, such as 
urban sprawl, climate change, the environmental consequences of 
biofuels production, and ecosystem degradation in interdisciplinary 
ways that can provide cost-effective options for reducing a range of 
environmental impacts. In addition to the modest progress in 
nanotechnology and sustainability, there are other fine research 
programs and activities within ORD.
    The SAB is concerned that, as the overall level of financial 
support for research in the Agency continues to decline, despite the 
growing number of difficult and complex environmental challenges, two 
dynamics will further erode the EPA's research capabilities:

        <bullet>  Staff morale will suffer, resulting in an accelerated 
        loss of outstanding people, and it will be increasingly 
        difficult to recruit new young scientists and engineers, who 
        will see options for more rewarding careers elsewhere.

        <bullet>  As budgets shrink, and the Agency struggles to keep 
        staffing size reasonably stable, a higher proportion of funds 
        will go to salaries, and less to the other costs of research 
        (laboratories, field studies, computers, research travel for 
        collaboration and discussion of findings at professional 
        conferences, etc.).

    Agency staff are doing an outstanding job of nurturing and 
sustaining a high quality program of research in the face of very 
serious constraints. They must be provided far better budgetary support 
if they are to lead and catalyze our efforts to develop the knowledge 
and approaches necessary to protect the Nation's human health and the 
environment in the face of hazards that increasingly exhibit integrated 
characteristics resulting from man-made behavior and natural processes.
    As the House Committee on Science and Technology confers on these 
matters with its colleagues on the Appropriations Committee, we urge 
particular attention to the following needs to:

        <bullet>  Reverse the downward trend in support for ecosystem 
        research so that this research program can continue its 
        essential monitoring of the health of vital ecosystems, develop 
        and implement new measures of the value of environmental 
        services, and create the basic understanding that will be 
        needed to respond to the challenges facing our ecosystems from 
        climate change and from the ``externalities'' of new 
        technologies such as biomass fuel and nanotechnology.

        <bullet>  Reverse the downward trend in support for the STAR 
        extramural and Fellowship programs so that the Agency can 
        continue to benefit from fresh ideas and flexibility provided 
        by institutions from outside EPA and continue a robust program 
        of educating the next generation of environmental scientists 
        and engineers.

        <bullet>  Reinstate the program in economics and decision 
        sciences within ORD and add support to substantially increase 
        its capabilities in behavioral social science. Even the best 
        science and engineering results are useless if they are not 
        combined with a sufficient understanding of human risk 
        perception and behavior.

        <bullet>  Provide a significant increase in support for the 
        programs in sustainability and global change, because these 
        topics are both inherently important and provide effective 
        vehicles for moving the Agency in the direction of the 
        innovative, cross-cutting research needed to address the 
        critical environmental problems of the 21st century.

    Thank you again for the opportunity to testify about EPA's research 
and development strategy and budget request for 2008. I would be 
pleased to answer your questions.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for M. Granger Morgan

U.S. EPA Science Advisory Board
    Dr. M. Granger Morgan is University Professor and Head of the 
Department of Engineering and Public Policy at Carnegie Mellon 
University where he is also Lord Chair Professor in Engineering, and is 
a professor in the Department of Electrical and Computer Engineering 
and in the H. John Heinz III School of Public Policy and Management. He 
holds a B.A. from Harvard College (1963) where he concentrated in 
physics, an M.S. in astronomy and space science from Cornell (1965), 
and a Ph.D. from the department of applied physics and information 
sciences at the University of California at San Diego (1969).
    Dr. Morgan's research addresses problems in science, technology, 
and public policy. Much of it has involved the development and 
demonstration of methods to characterize and treat uncertainty in 
quantitative policy analysis. He works on risk analysis, management and 
communication; on problems in the integrated assessment of global 
change; on energy systems, focused particularly on electric power; on 
problems in technology and domestic security; on improving health, 
safety, and environmental regulation; and on several other topics in 
technology and public policy.

    Chairman Lampson. Thank you very much. And now Dr. Sass.

 STATEMENT OF DR. JENNIFER SASS, SENIOR SCIENTIST, HEALTH AND 
     ENVIRONMENT PROGRAM, NATURAL RESOURCE DEFENSE COUNCIL

    Dr. Sass. Thank you. My name is Jennifer Sass. I am a 
senior scientist with the Natural Resources Defense Council, 
which is an environmental advocacy group, and I am based here 
in DC. I am a toxicologist and developmental neurobiologist by 
training, and I will be focusing primarily on health impacts of 
this budget.
    EPA is finding itself spiraling into an increasingly weaker 
scientific state. It is faced with the impossible task of 
balancing a decreasing budget with an increasing need for 
robust data in order to design and inform human health and 
environmental regulations that are protective. To deal with 
this, the Agency often turns to the regulated industries or 
paid contractors who often have clients or members from the 
regulated industries to supply it with data, data that is often 
suspect and selectively biased. The lack of resources in staff 
within EPA leaves it unable to provide adequate oversight of 
these data or the scientific products, which are often shielded 
from public scrutiny by confidential business information 
claims. The result is that EPA is increasingly under pressure 
to make regulatory and policy decisions with inadequate data or 
sometimes even no data at all.
    We strongly recommend that EPA reverse its trend of 
reducing its own in-house scientific and technical experts. 
These civil servants represent the Nation's brain trust. 
Lacking these experts, EPA decisions, relying on confidential 
data, lack transparency, oversight, and clear lines of 
accountability. For example, the Agency's relationship with the 
International Life Sciences Institute, ILSI, demonstrates how 
scientific quality may be compromised when transparency and 
oversight are lacking. ILSI represents several hundred 
corporations, including DuPont, and reportedly received at 
least $2.1 million in EPA grants in 2005, the last date for 
which I can get publicly-available information. In 2003, EPA 
paid an ILSI subgroup to draft an EPA policy document assessing 
a large class of toxic chemicals that included some of the 
Teflon chemicals manufactured by DuPont, one of ISLI's members. 
The ILSI draft was rejected by an expert review panel, but it 
did recommend that those chemicals should be deemed safe. Two 
years later, more recently, DuPont was fined by EPA, the 
largest fine in EPA's history, for withholding data on the 
hazards of these chemicals while releasing them as waste 
products into the surrounding water. Just today a local 
newspaper reported on a Government study that showed elevated 
cancer rates in the people that live around the DuPont 
Manufacturing Plant that makes these chemicals.
    The fiscal year 2008 budget cuts funding to core priorities 
such as susceptible populations, ecological research, and human 
health diminish EPA's ability to make informed and effective 
regulatory decisions and to allocate its resources wisely and 
to evaluate the efficacy of its programs. These cuts impair the 
ability of regional and state regulators to assess real world 
problems as well. For example, the budget reduces funding for 
the National Children's Study, a landmark study that would 
enhance global understanding of childhood afflictions such as 
obesity, autism, early onset diabetes, learning disorders, and 
asthma and could potentially lead to healthcare savings of 
between 3.3 and $5.5 billion annually.
    These kinds of budget reductions or cuts to these programs 
are also being seen in the area of publicly available 
information, such as the Integrated Risk Information System, 
the IRIS database, and also EPA libraries. The IRIS database 
contains publicly-available EPA scientific consensus positions 
on potential human health effects from environmental 
contaminants. State and federal and even international 
regulators routinely rely on this information to support an 
array of critical environmental health measures such as setting 
clean-up standards at waste sites. The IRIS database is likely 
to slow its pace because the fiscal year 2008 budget diverts 
resources to redundant layers of review by the Office of 
Management and Budget and others that serve no purpose other 
than to delay final action because of additional review time. 
For decades EPA's network of scientific libraries has served as 
a goldmine of resources for EPA and the public, but over the 
past months EPA has closed five of these libraries and reduced 
access to four others, despite EPA's own cost benefit analysis 
showing that the libraries actually save approximately $7.5 
million annually in staff time and cost only $2.5 million to 
operate.
    Finally, the fiscal year 2008 budget increases funding to 
support research in new technology areas such as 
nanotechnologies but fails to develop a clear research agenda 
that is actually strategically designed to support policy and 
regulatory needs. We know that EPA has already reviewed 15 of 
these new nano-scale chemicals, but because of confidential 
business information protection claims, we can't learn the 
names of these chemicals, their uses, or even their 
manufacturers. EPA is considering a voluntary pilot program now 
where industry could submit data on nanomaterials to fill the 
regulatory breach, but EPA still appears unwilling to commit to 
comprehensive, enforceable regulations.
    Congress should direct the Agency to allocate adequate 
resources to examine toxicity and to develop a robust 
regulatory framework to insure that nanomaterials in the 
marketplace are safe and that unsafe materials are 
appropriately managed from cradle to grave. We recommend that 
Congress increase the research budget for EPA, specifically 
favoring programs that provide publicly available, policy-
relevant data for priority issues such as children's health, 
environmental justice, and susceptible populations. And 
Congress should insure that EPA's funds are used in a manner 
that preserves scientific integrity, insures adequate 
transparency, and encourages public accountability. And most 
importantly, EPA must expand and support its technical in-house 
experts, its most valuable asset.
    Thank you.
    [The prepared statement of Dr. Sass follows:]

                  Prepared Statement of Jennifer Sass

SUMMARY

    EPA is finding itself spiraling into an increasingly weaker 
scientific state. It has been dealt a decreasing budget for providing 
scientific infrastructure and resources, despite an increasing need for 
robust data to support human health and environmental protective 
policies and regulations. Unable to provide for all the data needs of 
the Agency, it is increasingly reliant on data supplied by the very 
industries that it regulates and by paid contractors who often have 
clients or members from the regulated industries. In all cases, the 
data are suspect, and in some cases, the data are selectively biased. 
To make matters worse, EPA is increasingly unable to provide adequate 
oversight of industry data submissions or contractor-generated 
scientific products due to lack of staff and resources. Moreover, 
industry data are often shielded from public scrutiny by claims of 
confidential business protections on matters that would have to be more 
transparent if the work was done by civil servants. The result is that 
EPA is increasingly under pressure to make regulatory and policy 
decisions with no data, inadequate data, or poor-quality data. These 
increasing scientific uncertainties leave EPA programs vulnerable to a 
poor grade by the Office of Management and Budget.
    The Administration's fiscal year (FY) 2008 budget proposal cuts 
programs in the Environmental Protection Agency by $400 million from 
the Continuing Resolution for FY 2007 to $7.2 billion. This proposal 
represents the lowest funding request in this century in real dollars, 
FY 2004 being the high at $8.4 billion. In fact, this request cuts 
almost $2.5 billion from the Agency high when accounting for inflation. 
The FY08 EPA funding dedicated to Research and Development (R&D) would 
be cut by 3.5 percent from the FY07 level, to $547 million.
    Many of the cuts to EPA scientific research will not be compensated 
by related research spending in other agencies. Although overall 
federal investment in R&D would increase by 1.4 percent (to $143 
billion) from FY07, an analysis by the American Association for the 
Advancement of Science indicates that the increase is all in 
development rather than research, and that generally, this budget, like 
last year's, increases spending for weapons, defense, and homeland 
security, while decreasing health, environment, and discretionary 
spending across the federal agencies.\1\
---------------------------------------------------------------------------
    \1\ American Association for the Advancement of Science. AAAS 
Analysts See Mixed Prospects for Federal R&D Investment in 2007 and 
2008. Edward W. Lempinen. February 12, 2007. www.aaas.org/news/
releases/2007/0212budget.shtml
---------------------------------------------------------------------------
    The mission of EPA is to protect and safeguard human health and 
environment; yet, this budget continues down the path of deep cuts and 
out-sourcing in the face of overwhelming evidence of need.
    We recommend that Congress increase the research budget for EPA 
specifically favoring programs that provide publicly available policy-
relevant data for priority issues such as children's health, 
environmental justice, and susceptible populations.

QUESTION ONE: Is the overall level of Science and Technology (S&T) 
funding in the FY 2008 budget request for EPA appropriate and does the 
budget request allocate funds in a way to best achieve the Agency's 
mission?

    EPA's Office of Research and Development has identified the 
following high priority research goals in its FY08 multi-year plan, 
with a total level of appropriations of $539.8M:

        <bullet>  Goal 1 ($81.1M): Clean Air (Toxics; Particulates)

        <bullet>  Goal 2 ($105M): Clean Water (Drinking Water; Water 
        Quality)

        <bullet>  Goal 3 ($32.4M): Land Preservation and Restoration 
        (Contaminated Sites; Hazardous Waste)

        <bullet>  Goal 4 ($298.9M): Healthy Communities and Ecosystems 
        (Ecological Research; Human Health; Human Health Risk 
        Assessment; Global Change; Mercury; Endocrine Disruptors; Safe 
        Pesticides/Safe Products)

        <bullet>  Goal 5 ($22.4M): Compliance and Environmental 
        Stewardship (Economics and Decision Science; Science and 
        Technology for Sustainability)

    While these are laudable goals, sadly, the budget cuts to critical 
data collection and data assessment programs that support these 
priorities will leave the Federal Government with inadequate 
information upon which to base policies and regulations. In particular, 
there are gaps in policy-relevant research needs that will not be 
filled by other agencies, industry, or academia. Bluntly put, no, this 
budget allocation will not achieve the Agency's mission. Moreover, 
decreasing data and the consequent increasing scientific uncertainties 
leave EPA programs at a disadvantage during review by the Office of 
Management and Budget (OMB) Program Assessment Rating Tool (PART), 
which favors measurable program impacts and demonstrable efficiency and 
efficacy.\2\
---------------------------------------------------------------------------
    \2\ http://www.whitehouse.gov/omb/part/
---------------------------------------------------------------------------
    My detailed response follows.

I.  The FY08 budget cuts funding to programs that gather reliable real-
world data that would reduce scientific uncertainty, often leaving EPA 
increasingly reliant on either no data or data provided by the 
regulated industries.

    EPA recognizes the need to reduce uncertainty in the science that 
supports risk assessment, risk management, and regulatory decisions in 
all of its programs. Sadly, budget cuts to key monitoring and data 
collection programs will result in less data, and therefore greater 
scientific uncertainty. In many cases, ``free'' or ``cheap'' data are 
volunteered by the regulated industries. The increased reliance on data 
from the regulated industries calls into question the quality and 
credibility of the data. This problem is exacerbated by the decreasing 
ability of EPA to provide adequate oversight due to budget cuts for 
staffing, resulting in reduced technical expertise within EPA, and by 
frequent Confidential Business Information (CBI) protections that 
prevent public scrutiny to the data.
    For example, the Clean Air Mercury Rule (CAMR, May, 2005) requires 
EPA to reduce and permanently cap mercury emissions from coal-fired 
power plants. Coal-fired power plants are the largest source of human-
derived mercury emissions in the U.S., with much of it ending up in 
fish that people eat.\3\ Although implementing this rule requires data 
to evaluate the effectiveness of reduction and control measures (S&T-
8), EPA abandoned its promise to fund a mercury hot-spot monitoring 
study focused on mercury power plant emissions. The Scientific Advisory 
Board (SAB) noted that ``the support for research on global sources, 
transport, and fates'' of mercury is ``seriously deficient,'' and that 
the 2007 budget levels ``cannot even begin to address the issue.'' \4\ 
The reality of these budget slashes has left EPA reliant on the 
regulated industry to provide monitoring capacity (S&T-8), calling into 
question the ability of EPA to deliver credible, reliable data to 
inform and implement the CAMR adequately.
---------------------------------------------------------------------------
    \3\ Once in the human body, mercury acts as a neurotoxin, 
interfering with the brain and nervous system. Exposure to mercury is 
particularly hazardous for developing fetuses and small children. More 
than 13 million lake-acres and 750 thousand river-miles in the United 
States are subject to fish consumption advisories due to mercury 
contamination. In addition to mercury, coal plants also emit soot and 
soot-forming pollutants, which can cause attacks, heart disease and 
other health problems, shortening the lives of nearly 24,000 Americans 
each year. Children and the elderly are especially vulnerable.
    \4\ Report of the U.S. EPA Scientific Advisory Board (SAB), 2007 
Budget Review, March 2-3, 2006.
---------------------------------------------------------------------------
    The Air Toxics Program presents another example of the impact of 
these budget cuts on acquiring reliable scientific data. The program 
identified the need to, ``reduce uncertainty in both national- and 
community-scale assessments as well as residual risk'' (S&T-65). It 
also noted that OMB rated its program more favorably when improvements 
were made to ``reducing uncertainty in the science that supports 
standard-setting and air quality management decisions'' (S&T-68). The 
budget report notes that the Air Toxics Program is reviewing other 
federal research programs with the goal of measuring progress ``toward 
reduction in scientific uncertainty'' (S&T-68). In fact, the FY08 
budget provides additional funding to develop ``quantitative risk 
assessment methods to allow improved analysis and characterization of 
uncertainty in human health risk assessment.'' \5\ Despite the 
expressed need to reduce scientific uncertainty, air monitoring 
activities that would have provided EPA with real-world data to reduce 
uncertainty are significantly reduced. Although the SAB praised the Air 
Toxics Program for its efforts to evaluate the current air monitoring 
systems, SAB was highly critical of EPA's failure to support air 
monitoring resources overall, noting that this ``diminishes the ability 
of EPA to make informed decisions on the effective and efficient 
management of air quality.'' \6\ A robust, reliable empirical database 
is essential for reliable human health risk assessment.
---------------------------------------------------------------------------
    \5\ Teichman, K. Acting Deputy Assistant Administrator for Science, 
ORD. Power Point presentation to the EPA Science Advisory Board 
Executive Committee, February 22, 2007.
    \6\ Report of the U.S. EPA Scientific Advisory Board (SAB), 2007 
Budget Review, March 2-3, 2006.

II.  FY08 budget continues the trend of reducing funding for agency 
growth of scientific expertise, despite spending significant funds to 
---------------------------------------------------------------------------
out-source these tasks.

    One of the most significant changes at EPA in recent years has been 
the degree to which the Agency has out-sourced responsibility for some 
of its important functions in a manner that undermines scientific 
credibility and public accountability.
    EPA is accountable to the people of the United States, the 
Congress, and the Executive Branch to fulfill its mission in a manner 
that meets both the letter and intent of the law and that appropriately 
identifies protecting human health and the environment as the primary 
objective of the Agency's activities. Both public trust and EPA's 
ability to meet its obligations to the public are seriously undermined 
when the Agency farms out critical task without any transparency, 
oversight or accountability, in many cases to the very industries that 
it is charged with regulating.
    In fact, EPA is spending millions of dollars to fund entities that 
are specifically beholden to the industries that EPA regulates. 
Moreover, in many cases, this funding is directed toward activities 
that are central to the Agency's regulatory decision-making process. 
EPA does this without ensuring transparency, without adequate 
oversight, and without demanding public accountability. In particular, 
these arrangements are not subject to important ``sunshine'' laws 
intended to provide the public with access to the regulatory process 
and to prevent undue industry influence over Agency decisions. These 
laws, including the Federal Advisory Committee Act and the Freedom of 
Information Act, play a critical role in ensuring government 
accountability.
    Originally the practice of encouraging these cooperative 
partnerships was intended to bring all stakeholders together for 
constructive dialogue regarding regulatory policy; however, in recent 
years it has transformed into something quite different, and many 
stakeholders (such as NRDC and other environmental and public health 
groups) have been shut out of the process. In many cases these 
partnerships have developed into little more than opportunities for the 
regulated industry to take over direct responsibility for key 
activities that provide the foundation for EPA's regulatory functions--
in particular scientific analysis and risk assessment. This trend has 
had significant implications for the quality of the science upon which 
EPA relies for its regulatory activities.\7\
---------------------------------------------------------------------------
    \7\ A very similar issue was recently raised with regard to the 
National Institute of Health (NIH). In January of this year, Members of 
Congress, 44 prominent physicians, and 16 health organizations agreed 
that, in order to preserve scientific integrity, when appointing 
committees for drafting guidelines the NIH ``must strive to ensure that 
all members are free from conflicts of interest.'' This letter was 
prompted in part by specific concerns regarding the fact that many 
recent committees have been dominated by Members with conflicts of 
interest. These same problems exist, perhaps to an even greater degree, 
at EPA.
---------------------------------------------------------------------------
    One example of a relationship that has demonstrably compromised the 
quality of EPA's scientific inquiry is the Agency's relationship with 
the International Life Sciences Institute (ILSI). ILSI represents 
several hundred corporations in the chemical, processed food, agro-
chemical and pharmaceutical industries and received at least $2.1 
million in EPA grants in 2005.\8\ Members of ILSI include companies 
such as DuPont, 3M, Syngenta, Eli Lilly, ExxonMobil Biomedical 
Sciences, and Dow Chemical.\9\ ILSI routinely hosts workshops (often 
co-funded by EPA) where industry specialists, academics and agency 
officials come together to discuss science and policy. There often is 
little or no effort made to inform the public or the public interest 
community about these meetings, and as a result the public health and 
environmental voice is frequently entirely absent, marginalized, or 
ignored when final decisions are made. As a result, EPA policy 
decisions that emerge from this kind of process are flawed, and those 
decisions are being overturned.
---------------------------------------------------------------------------
    \8\ The ILSI IRS Form 990 for 2005 lists $2.5 million in government 
contributions. The EPA Grants Awards Database reports over $2 million 
in awards to the ILSI Risk Science Institute. In a January, 2007 
response to a FOIA request from NRDC, the EPA provided a list of the 
ILSI projects that EPA participates in. FOIA Request HQ-RIN-0029-07 to 
Jennifer Sass, NRDC.
    \9\ See the ILSI website for a full list of its membership: http://
www.ilsi.org/AboutILSI/.
---------------------------------------------------------------------------
    For example, in 2003, EPA issued a proposed a guidance (based on a 
proposed policy that was drafted by a sub-group of ILSI) on how to 
assess a class of chemicals that includes perfluorochemicals used by 
DuPont to make Teflon. The ILSI-EPA proposed policy claimed that while 
these chemicals caused cancer in laboratory animals, they were not 
carcinogenic to humans. An independent scientific panel rejected the 
ILSI-EPA draft policy because it was not supported by data.\10\ In 
fact, laboratory studies reported that these chemicals are associated 
with liver and testicular cancer, developmental impairment, and immune 
system suppression. Later, in December of 2005, DuPont paid more than 
$16 million to settle charges that it hid information for more than two 
decades showing that its Teflon chemicals are a significant threat to 
human health.\11\
---------------------------------------------------------------------------
    \10\ See EPA Advisors Split Over Use of Animal Studies In Human 
Risk Reviews, Inside EPA (Dec. 10, 2003).
    \11\ See DuPont fined more than $10M over Teflon, Randall Chase, 
Associated Press (December 14th, 2005); Consent Agreement, December 14, 
2005. (available at: www.epa.gov/compliance/resources/cases/civil/tsca/
eabmemodupontpfoasettlement121405.pdf).
---------------------------------------------------------------------------
    In response to a request under FOIA, we have received a list of 
projects that EPA has undertaken with ILSI. Below we list selected 
current and recent-past projects between EPA and ILSI:\12\
---------------------------------------------------------------------------
    \12\ Freedom of Information Request HQ-RIN-0606-07 to Jennifer 
Sass, NRDC.

        <bullet>  The Office of Pesticides (OPP) reports that they have 
        numerous ILSI agreements that incurred the following costs: 
        $58,000 in FY06, $60,500 in FY05, $245,000 in FY04, $150,000 in 
        FY03, and $287,500 in FY02, for a cost to the program over five 
---------------------------------------------------------------------------
        years of $801,000.

        <bullet>  Project title: cross-study analyses of children's 
        biomonitoring cohort studies. Description: ILSI Health and 
        Environmental Sciences Institute (ILSI-HESI) \13\ will identify 
        relevant cohorts and data sets, recruit participation from 
        researchers, work with researchers to develop a data analysis 
        and quality assurance plan, compile the data, coordinate the 
        cross-study analyses, and compile results for reporting to EPA. 
        Timeline: EPA received a proposal from ILSI-HESI in December, 
        2006. Funding: Anticipated level of funding is $100,000 from 
        EPA ORD under Goal 4 (Healthy Communities and Ecosystems).
---------------------------------------------------------------------------
    \13\ The ILSI Health and Environmental Sciences Institute (HESI) 
reports to the ILSI Assembly of Members. Although HESI is structured 
and claims to operate as a ``public, non-profit scientific foundation'' 
(www.hesiglobal.org/AboutUs/), they state in their recent job 
advertisement for an Executive Director of ILSI-HESI that this person 
should ``ensure that the scientific issues important to [ILSI] member 
companies are raised and appropriately addressed by the organization.'' 
(E-mail to: <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3a525f49537a525f49535d5655585b561455485d14">[email&#160;protected]</a> Subject: Executive Director of HESI 
Job Description. Tuesday, 10 Oct. 2006).

        <bullet>  Project title: International biomonitoring workshop. 
        Description: EPA co-sponsored a workshop on September, 2004 
        with ILSI-HESI and the American Chemistry Council, a trade 
        organization for the chemical industry. Key questions relate to 
        the use of biomonitoring data for environmental public health 
        protection. Funding: $50,000 from EPA ORD under Goal 4 (Healthy 
---------------------------------------------------------------------------
        Communities and Ecosystems).

        <bullet>  Project title: Cooperative agreement for working 
        groups, workshops, and other events on topics in risk 
        assessment. Time: 1999-2002. Funding: $333,330 over several 
        years from ORD.

        <bullet>  Project title: Mode of action in assessing human 
        relevance of animal tumors. Description: A systematic 
        evaluation of comparability, or lack of comparability, between 
        the postulated animal mode of toxicity and related information 
        from human data sources. Time: 2000-2003. Funding: amount not 
        disclosed. Cooperative agreement with the EPA Office of 
        Pollution Prevention and Toxics (OPPTS) and Office of Pesticide 
        Programs (OPP). Additional support was provided by Health 
        Canada. http://rsi.ilsi.org/Projects/
        Human<INF>-</INF>Relevance.htm

        <bullet>  Project title: Using mode of action (MOA) and life 
        stage information to evaluate the human relevance of animal 
        toxicity data. Description: The purpose of this project was to 
        draw on the ILSI-Risk Sciences Institute (ILSI-RSI) project for 
        MOA analysis of animal tumors and to expand this into a 
        harmonize framework for all endpoints including reproductive, 
        neurological and developmental effects. Time: 2004-2005. 
        Funding: amount not disclosed. ILSI-RSI project was funded by 
        EPA's Office of Pollution Prevention and Toxics (OPPT) via 
        their cooperative agreement and Health Canada. http://
        rsi.ilsi.org/Projects/Human<INF>-</INF>Relevance.htm

        <bullet>  Project title: Training course on use of mode of 
        action in assessing human relevance. Description: The purpose 
        of this project is to train the scientific community on how to 
        conduct mode of action analyses for evaluating the human 
        relevance of animal responses. Participants consisted of 
        experts from various government agencies, including the EPA and 
        Health Canada. Time: 2006, ongoing. Funding: amount not 
        disclosed. http://rsi.ilsi.org/HumanRelevance.htm

        <bullet>  Project title: ILSI Risk Science Institute 
        Developmental Neurotoxicity (DNT) Project. Description: The 
        goal of this project was to assess the lessons learned from the 
        implementation of standardized tests for developmental 
        neurotoxicity in experimental animals, such as the U.S. EPA 
        OPPTS Health Effects Test Guideline 870.6300 (Developmental 
        Neurotoxicity Study) and similar protocols, and the subsequent 
        application of test results to human health risk assessment. 
        Time: 2004-2007. Funding: OPP funded this ILSI-RSI project via 
        a Cooperative Agreement.

    EPA's continued use of agency funds to support closed-door, 
industry-driven science that feeds directly or indirectly into the 
regulatory process raises tremendous concerns from a public health and 
sound science perspective.

III.  FY08 budget is cutting funding to core priorities such as 
susceptible populations, ecological research, and human health.

    Research on human health and ecosystems has seen a steadily 
declining budget over the last three years, from $242.9M (2006), to 
$228.2M (2007), to $217.5M (2008) (S&T-3). However, from the FY08 
budget it is impossible to identify exactly what programs will be 
impacted, because the document fails to clearly link funding amounts 
with projects, and fails to clearly identify projects that will be 
reduced or eliminated. A short list of specific programs that are 
slated to be reduced or eliminated was identified in a Power Point 
presentation by ORD Acting Deputy Assistant Administrator for 
Science.\14\ This list included:
---------------------------------------------------------------------------
    \14\ Teichman, K. Acting Deputy Assistant Administrator for 
Science, ORD. Power Point presentation to the EPA Science Advisory 
Board Executive Committee, February 22, 2007.

        <bullet>  The loss of data collection in the lower Mississippi 
        River and Gulf of Mexico wetlands, despite the increased 
        awareness that these precious areas are critical to mitigating 
---------------------------------------------------------------------------
        severe flooding in the Katrina and Rita hurricane hit areas.

        <bullet>  The loss of funding for ECOTOX, a critical 
        searchable, publicly-available web-based database of ecological 
        effects of toxic chemicals.

        <bullet>  Reduce assistance to states for development of their 
        watershed management plans and establishment of Total Maximum 
        Daily Load values, which are the maximum allowable level of a 
        pollutant that a waterbody can receive without exceeding water 
        quality standards. These standards are set to protect the 
        drinking water supply, swimming areas, and aquatic life.

        <bullet>  Reduced efforts to collect data on the exposure and 
        effects of toxic chemicals in children, adolescents, older 
        adults, and other identifiable susceptible populations.

        <bullet>  Reduce support for the National Children's Study.

    These cuts will eliminate significant research and public access to 
important data. They will also diminish the ability of EPA to make 
informed and effective regulatory decisions, to allocate its resources 
wisely, and to evaluate the efficacy of its programs. In particular, 
much of the results of the ecological research identified above is 
particularly valuable to regional, state, and local communities and 
regulators who are tasked with assessing real-world problems in 
regional ecological systems such as watersheds. The SAB identified that 
the need for these data are of great importance to EPA, and that the 
data are not likely to be supplied by other sources such as industry 
and academia.\15\
---------------------------------------------------------------------------
    \15\ Report of the U.S. EPA Scientific Advisory Board (SAB), 2007 
Budget Review, March 2-3, 2006.
---------------------------------------------------------------------------
    The reduced support for the National Children's Study highlights 
the extent to which vulnerable sub-populations will suffer under the 
proposed budget. As noted in a 2006 letter from pediatricians, public 
health specialists, and patient advocacy groups to the Senate Committee 
on Appropriations, the National Children's Study would provide 
substantial information for regulators to allocate resources directed 
towards improvements in the health of children and adults.\16\ The 
research results of this important study are estimated to provide 
potential health care savings in the range of $3.3-$5.5 billion 
annually based on an economic analysis by the National Institute of 
Child Health and Human Development (NICHHD). Information from the 
National Children's Study will enhance global understanding of 
childhood afflictions such as obesity, autism, early-onset diabetes, 
developmental delay, mental illness, learning disorders, lead 
poisoning, asthma, auto-immune disease, and chemical intolerance/
sensitivity. The data from these and similar initiatives will be of 
particular help to economically-disadvantaged communities whose members 
often must play, work, and learn in polluted outdoor and indoor 
environments. Compared with adults, prenatal and later periods of 
development are uniquely vulnerable to many pollutants in both the 
outdoor and indoor environments, due in part to rapid growth and 
development, behaviors and activities, eating patterns, and physiology. 
Understanding and reducing the severity and/or incidence of diseases 
and disabilities will require sustained public investment in research 
on childhood exposures to environmental toxicants.
---------------------------------------------------------------------------
    \16\ Letter to Honorable Thad Cochran, Chairman, and Honorable 
Robert C. Byrd, Ranking Member. Senate Committee on Appropriations. 
From E. Miller, R. Zdenek, D. Croser, J. Greenwood, C. Gavigan, F. 
Perera, P. Shah, J. Balbus, P.J. Wood, N. Gendel, C. Barnett, D. 
Wallinga, S. Gilbert, T. Hill, K. Lawson, J. Behm, H. Loukmas, L. 
Redwood, T. Schettler, V. Garry. February 14, 2006.

IV.  FY08 budget eliminates or diminishes support for publicly 
available information on toxics: the IRIS chemical evaluation program, 
---------------------------------------------------------------------------
EPA libraries.

Inadequate resources and OMB interference have prevented EPA from 
        keeping the IRIS chemical database as up-to-date as would be 
        expected for a source of information so important to U.S. 
        policy decisions.

    Many of the EPA assessments of regulated chemicals are publicly 
available on its database, the Integrated Risk Information System 
(IRIS), which contains EPA scientific consensus positions on potential 
human health effects from environmental contaminants. While not a legal 
regulatory standard per se, such information is used by regulators at 
the State and federal level and by the international community in 
combination with exposure data to set cleanup standards and various 
exposure standards for air, water, soil, and food. The database 
receives over a half-million visits monthly, from over fifty countries, 
underscoring its widespread use. At this time, there are over 540 
chemicals listed on IRIS. While a substantial number of these chemicals 
are economically significant (i.e., they are produced or imported at a 
rate greater than 10,000 pounds per site annually), these chemicals 
make up a small percentage of the over 8,000 economically significant 
chemicals found in the U.S. and 15,000 chemicals in commerce 
altogether.\17\ Even when compared to a smaller subset of chemicals 
that should have assessments available, IRIS is obviously insufficient. 
For instance, the EPA is responsible for regulating the emissions of 
188 hazardous air pollutants (HAPs) under the Clean Air Act. Of these 
188 HAPs, only 129 do appear in the IRIS database--meaning that in 
almost 20 years since IRIS, the EPA has been unable to complete 
assessments of the toxicity and carcinogenicity of nearly one-third of 
these dangerous pollutants. Even when important chemicals are on the 
IRIS database, the risk assessments available for these chemicals are 
often quite old. The average assessment on IRIS is over 13 years old.
---------------------------------------------------------------------------
    \17\ American Chemistry Council: Federal Regulations That Help 
Ensure Chemical Safety, available at http://www.accnewsmedia.com/docs/
1200/1156.pdf (last updated April 1, 2003).
---------------------------------------------------------------------------
    According to its website on ``what's new'' (www.epa.gov/iris/
whatsnewarch.htm), in addition to performing a literature screen and 
confirming about a dozen existing IRIS assessments annually, EPA 
finalized the following number of new chemical assessments:

        <bullet>  In 2006, IRIS finalized two new assessments.

        <bullet>  In 2005, IRIS finalized five new assessments (n-
        hexane, toluene, zinc and compounds, barium and compounds, 
        perchlorate and perchlorate salts).

        <bullet>  In 2004, IRIS finalized three new assessments (boron 
        and compounds, dibromomethane, lead and inorganic compounds).

    With so few assessments finalized each year, it is evident that EPA 
needs more resources, both money and personnel, to develop robust 
timely IRIS assessments. The FY08 budget promises that IRIS will 
complete 16 health hazard assessments of high priority chemicals and 
post eight finalized assessments on the Internet (S&T-89). Its hard to 
see how IRIS is going to finalize eight assessments, given its recent 
trend of finalizing two to five each year. In fact, the IRIS program 
should be finalizing as many as 16 assessments each year. 
Unfortunately, the reality is that IRIS is likely to slow its pace 
further because of FY08 initiatives to ``expand opportunities for 
interagency review and public comment'' and expand ``consulting with 
the National Academies of Sciences'' on risk assessment methods and 
approaches (S&T-89), as required by the OMB PART review (S&T-90). These 
costly and time-consuming delays will significantly slow an already 
delayed process. Moreover, OMB interference has also weakened the 
utility of IRIS assessments:

        <bullet>  OMB has blocked IRIS from posting acute (less than 24 
        hrs.) risk values.\18\ Acute risk values are relevant to 
        communities that are exposed by burst releases of toxics 
        (smokestacks, etc.) that may not exceed short-term (days-weeks) 
        or long-term (months-years) regulatory standards, but may still 
        pose a hazard to acutely exposed individuals.
---------------------------------------------------------------------------
    \18\ EPA Eyes Expanded Risk Database Used In Toxic Regulation, 
Cleanups. The managers of an EPA chemical risk database are considering 
adding short-term and acute exposure categories on several chemicals to 
gauge the resources needed to add the broader risk data to the system. 
January 27, 2003. Inside Washington Publishers.

        <bullet>  OMB is blocking IRIS from posting summaries of its 
        assessments, arguing that the summaries give a naive public and 
        regulators inaccurate impressions, contribute to 
        misunderstandings, and are misused. EP staff should be able to 
---------------------------------------------------------------------------
        post summaries of IRIS data on chemicals to the public.

        <bullet>  OMB has blocked the implementation of the 
        supplemental cancer guidelines on children's exposure.\19\ 
        Ethylene oxide is the first example where IRIS staff 
        recommended applying a 10-fold safety factor to site-specific 
        assessments where children may be exposed. OMB blocked this. 
        The next relevant chemical for this process will be acrylamide, 
        for which children's exposures are high.
---------------------------------------------------------------------------
    \19\ OMB Opposes First-Time Child Cancer Factor Use In EPA Risk 
Assessment. The White House Office of Management & Budget (OMB) is 
reportedly objecting to EPA's first-time use of a new children's cancer 
guideline in a draft risk assessment for ethylene oxide (EO) that seeks 
to significantly strengthen the safe exposure level, according to EPA 
sources. . .. The draft risk assessment, released Sept. 22 of last year 
by the Agency's National Center for Environmental Assessment, proposes 
tightening the Agency's 1985 bench point of 3.6 parts per billion to 
0.06 parts per trillion--a significant change that could have a host of 
ramifications for industry. . .. Ethylene oxide is a common chemical 
that is widely manufactured, and is used as a medical sterilant as well 
as to make anti-freeze, detergents and polyester. January 26, 2007. 
Inside Washington Publishers.

    IRIS has come under intense scrutiny from OMB and the regulated 
industries, and that the EPA goal of producing robust scientific 
---------------------------------------------------------------------------
assessments of toxic chemicals in a timely manner is not shared by OMB.

Closing EPA Libraries limits public access to information.

    For decades, EPA's network of 26 scientific libraries has served as 
a gold mine of resources for scientists, community members, and EPA's 
own staff. Expert librarians made themselves available to locate 
information, and the library collections themselves contained unique 
materials, not available elsewhere. Over the past four months EPA has 
closed five libraries and reduced access at four others, including my 
local EPA library.\20\
---------------------------------------------------------------------------
    \20\ Congressional Research Service. Restructuring EPA's Libraries: 
Background and Issues for Congress. RS22533. January 3, 2007.
---------------------------------------------------------------------------
    According to press reports, the EPA libraries fielded about 134,000 
information requests in fiscal year 2005.\21\ Of these, the now-closed 
EPA regional libraries in Chicago, Kansas City, and Dallas handled more 
than 32,000 requests for information.\22\ Representatives of 10,000 EPA 
scientists, engineers, environmental protection specialists and support 
staff protested the closure of the technical libraries in a letter to 
the Chair and Ranking Member of the Senate Appropriations Committee, 
Interior and Related Agencies Subcommittee in June of 2006.\23\ This 
letter noted that EPA's own cost-benefit analysis\24\ estimated that 
the library networks saved Agency staff time, resulting in annual cost 
savings of approximately $7.5 million, far more than the library budget 
of $2.5 million. Thus, the Public Employees for Environmental 
Responsibility suggest that, ``while cloaked as a budgetary measure, 
the actual motives appear to be rooted more in controlling access by 
both EPA staff and the public to information.'' \25\
---------------------------------------------------------------------------
    \21\ Joal A. Mintz and Rebecca Bratspies. Closing Agency Libraries 
Deals Serious Blow. South Florida Sun-Sentinel. December 11, 2006.
    \22\  Robert McClure. EPA gets an earful on library closures. 
Seattle Post-Intelligencer. January 22, 2007.
    \23\ Letter from Dwight A. Welch et al. Presidents of 16 Local 
Unions to Conrad Burns and Byron Dorgan, United States Senate. June 29, 
2006. www.peer.org/docs/epa/
06<INF>-</INF>29<INF>-</INF>6<INF>-</INF>union<INF>-</INF>library<INF>-</INF>
ltr.pdf
    \24\ EPA Office of Environmental Information. Business Case for 
Information Services: EPA's Regional Libraries and Centers. EPA 260-R-
04-001. January 2004.
    \25\ http://www.peer.org/campaigns/publichealth/
epa<INF>-</INF>library/index.php
---------------------------------------------------------------------------
    Linda Travers, acting Assistant Administrator for the EPA Office of 
Environmental Information said in December 2006 that ``all EPA-
generated documents from the closed libraries would be online by 
January and the rest of the Agency's 51,000 reports would be digitized 
within two years.'' \26\ Not surprisingly, this has not been done. 
Digitizing between 50,000 and 80,000 reports is a monumental task and 
there does not appear to be any budget for carrying this out. Rather 
than saving the Agency money, these closures will cost the Agency in 
staff productivity, and in money and time for digitization. The cost to 
local communities is hard to calculate, since information--when you 
really need it--is priceless.
---------------------------------------------------------------------------
    \26\ Tim Reiterman. Closure of six federal libraries angers 
scientists: Cost-cutting moves at the EPA and elsewhere deny 
researchers and the public access to vital data, critics say. Los 
Angeles Times, December 8, 2006.

IV.  The FY08 budget increased funding to support research on new 
technology areas such as nanotechnologies, but has failed to develop a 
---------------------------------------------------------------------------
clear research agenda that would support policy and regulatory needs.

    Nanotechnology (the convergence of biology, chemistry, and 
engineering at the nanoscale) has emerged as one of the most rapidly 
developing, dynamic, and exciting fields of scientific research and 
commercial development. Nanoscale materials approximately 100 
nanometers (nm) or less in any dimension offer potentially tremendous 
advances in fields ranging from medical technologies to power 
generation and storage to environmental remediation strategies. 
However, the rapid emergence of new nanomaterials and their increasing 
use in products and processes raises serious concerns regarding the 
potential for adverse impacts on human health and the environment. 
Already, EPA has reviewed 15 new chemical uses that were small enough 
to be considered nanoscale; all are protected by Confidential Business 
Information (CBI) provisions under the Toxic Substances Control Act; 
the public is unable to learn the names of these chemicals, their uses, 
or even their manufacturers.
    Current EPA research activities include assessing potential 
ecological and human health exposures and effects from nanomaterials 
likely to be released into the environment (S&T-108, -109). However, 
this research is poorly coordinated, inadequately funded, and poorly 
tailored to EPA's authority to regulate nanomaterials.\27\ In fact, in 
September, 2006, the House Science Committee Chairman Sherwood Boehlert 
(R-NY), Ranking Minority Member Bart Gordon (D-TN) and non-government 
witnesses identified the need for EPA to develop a better-funded 
research strategy to address health and environmental risks, noting 
that the current research agenda lacked coordination.\28\
---------------------------------------------------------------------------
    \27\ Summary Report of the Peer Review Workshop on the 
Nanotechnology White Paper: External Review Draft. Washington, DC, 
April 19-20, 2006. Prepared by the US EPA Office of the Science 
Advisor, by Versar, Inc. www.epa.gov/OSA/pdfs/nanotech/nanotechnology-
peer-review-workshop-summary-report-final-070706.pdf
    \28\ U.S. House of Representatives (www.house.gov/science) Science 
Committee. Boehlert calls for better coordination and greater funding 
to understand nanotechnology risks: Administration Releases Report on 
``Research Needs.'' September 21, 2006.
---------------------------------------------------------------------------
    A voluntary pilot program now under consideration by the EPA will 
request that industry participants submit data on material 
characterization, toxicity, exposure potential, and risk management 
practices. While this program may act as a stopgap to fill the 
regulatory breech, it would only involve those companies that volunteer 
to participate and would gather data regarding only those products that 
participating companies choose to disclose. Companies with the riskiest 
products, as well as those with poor business ethics--that is, those 
most likely to need government oversight--are least likely to 
participate. A coalition of more than 20 public interest groups 
including NRDC, Friends of the Earth, Greenpeace, and Sierra Club 
insist that a voluntary program without a mandatory regulatory 
component will not be able to address potential risks. The reliance on 
voluntary stewardship initiatives has left a regulatory void that could 
harm both human health and the economic stability of the nanotechnology 
industry. Nonetheless, the EPA appears unwilling to commit to 
comprehensive, enforceable regulations.
    Congress should specifically direct EPA to allocate adequate 
resources not only to examine nanomaterial toxicity (an absolutely 
essential first step), but also simultaneously and aggressively develop 
a robust regulatory framework that will adequately ensure that 
nanomaterials in the marketplace are safe, and that unsafe materials 
are appropriately managed from cradle to grave. Any such framework 
should be based on a precautionary approach to managing toxic chemicals 
and should:

        <bullet>  Prohibit the untested or unsafe use of nanomaterials. 
        Because preliminary data demonstrates the potential for 
        toxicity, unsafe or untested nanomaterials should not be used 
        in a manner that may result in human exposures or environmental 
        releases over the life cycle of the material.

        <bullet>  Conduct full life cycle environment, health, and 
        safety impact assessments as a prerequisite to 
        commercialization. Robust testing is urgently needed to 
        identify potential risks early in development, across the life 
        cycle of the material. The results of testing should made 
        available to the public.

        <bullet>  Facilitate full and meaningful participation by the 
        public and workers in nanotechnologies development and control; 
        consider the social and ethical impacts of nanotechnologies. 
        The potential of nanotechnologies to transform the global 
        social, economic, and political landscape means we must move 
        the decision-making out of corporate boardrooms and into the 
        public realm.

        <bullet>  Implement precautionary regulatory requirements for 
        nanomaterials. We urgently need regulations to ensure that 
        risks are adequately addressed and that communities and workers 
        are protected.

    Nanomaterials represent a large, but not a new, challenge for the 
regulatory agencies. The need to regulate a commercial material about 
which little is known of its safety is reminiscent of our introduction 
of asbestos into global markets. By the 1930s, asbestos was being 
linked to deaths; as of 2004, the cumulative financial liabilities from 
the substance were projected at more than $200 billion. In the U.S., we 
still have more than one death per hour--approximately 10,000 per 
year--as a legacy from past and continuing exposure to asbestos; the 
global death rate is estimated at 10 times higher. Insurer Lloyds of 
London and Swiss Re have already noted that asbestos serves as a 
warning to the nanotech industry. To use another analogy, with 
nanotechnologies we are right now at the point of deciding whether to 
put lead into gasoline.

QUESTION TWO: What roles should research partnerships, extramural 
grants, contracts, and in-house research play in helping the Agency to 
obtain the scientific information needed to serve their mission of 
environmental and public health protection?

    Congress adopted strong sunshine laws in part to prevent 
clandestine manipulation of the regulatory process, and that objective 
is in serious jeopardy if EPA is permitted to out-source critical 
responsibilities. Congress should ensure that the money going to EPA is 
used in a manner that preserves the scientific integrity of the 
regulatory process and that any important science activities funded by 
EPA are conducted with adequate transparency and direct lines of public 
accountability. In particular, EPA should not be funding or relying on 
regulated industries or their representatives to develop EPA guidance 
or policy documents, or to develop scientific assessments of their own 
chemicals for EPA. Rather, industry-funded or industry-supported 
assessments and recommendations should be submitted to EPA as a public 
comment, publicly available, and subjected to the same consideration 
and review as all public comments.
    EPA should support and expand its use of in-house scientific and 
technical experts. These people represent the Nation's brain-trust, and 
their work products should be publicly available. The Agency's own 
technical experts have to be enabled to investigate and disclose what 
dangers we truly face from environmental pollutants, despite myriad 
influences of business interests. Grievous and irreversible damage is 
being done to this Agency's capacity to protect human health and the 
environment.

                      Biography for Jennifer Sass

    Jennifer Sass is a Senior Scientist at the Natural Resources 
Defense Council (NRDC) based in Washington, DC. She works in the Health 
and Environment Program, which reviews the federal regulation of 
industrial chemicals and pesticides. Over her five-plus years with 
NRDC, Dr. Sass has published over two dozen articles in scientific 
journals, provided written and oral testimony to the Environmental 
Protection Agency and National Academies of Science, as well as served 
on federal scientific and stakeholder committees. Dr. Sass completed 
postdoctoral studies at the University of Maryland in toxicology, 
doctoral studies at the University of Saskatchewan in developmental 
biology, and a Master's thesis in neurobiology.
    Jennifer also directs NRDC's work on nanotechnologies, and has 
served on several U.S. federal scientific and stakeholder committees 
related to nanotechnology, including the National Toxicology Program 
Nanotechnology Working Group, NIEHS. Jennifer has published articles on 
the risks of nanotechnologies, and need for regulations, including: 
Nanotechnologies: The promise and the perils. Sustainable Development 
Law & Policy journal (Spring, 2006).

    Chairman Lampson. Thank you, Dr. Sass. Please now proceed, 
Dr. Coull.

    STATEMENT OF DR. BRUCE C. COULL, CAROLINA DISTINGUISHED 
 PROFESSOR EMERITUS AND DEAN EMERITUS, SCHOOL OF ENVIRONMENT, 
   UNIVERSITY OF SOUTH CAROLINA; PRESIDENT, U.S. COUNCIL OF 
ENVIRONMENTAL DEANS AND DIRECTORS, NATIONAL COUNCIL FOR SCIENCE 
                      AND THE ENVIRONMENT

    Dr. Coull. I am here actually, well, I am from the 
University of South Carolina. I am proud to be a South 
Carolinian, Bob, okay. I am actually here representing the 
National Council of Environmental Deans and Directors of the 
United States, of which there are 134 colleges and universities 
who are members of the Dean's Council.
    The Dean's Council is part of that National Council for 
Science and Environment, whose mantra is we need good science 
to make informed decisions. And the tenet of our major 
discussion today is that we don't think that EPA has had the 
resources to generate the science that is needed for good 
decisions across the board in various aspects of the 
environment.
    As you have heard from Dr. Sass and Dr. Morgan, the EPA 
research budget has been declining over the last several years, 
and my written testimony and their work lays out the details 
for you. The EPA budget has essentially been flat for a quarter 
of a century, which the environmental challenges have become 
much more complex, and there are needs for new approaches. We 
didn't know 25 years ago about endocrine disrupters. We didn't 
know 25 years ago about nanoparticles. We didn't know about a 
lot of things then. It is time to ratchet up the EPA research 
budget for these new modern looks at the environment, and the 
tables in the handout give you the details of the declines that 
we have seen, and you have seen the data from the others.
    It is almost across the board that we look at this. One of 
the things that I think we need to consider is what don't we 
know that we should have known, and I want to specifically give 
you an example from South Carolina. I have colleagues at the 
university, at Clemson University, and I do talk to people at 
Clemson, and at the National Ocean Science Laboratory in 
Charleston, who have been funded by EPA through the STAR 
Program to look at endocrine disrupters in coastal ecosystems. 
This is particularly relevant to your statement, Mr. Lampson, 
about economic health of communities dependent upon 
recreational and fisheries. This work was done primarily in the 
Hilton Head region, very close to your birthplace, Congressman, 
and the results are that crustaceans, which are an important 
part of the industry in South Carolina, shrimp, particularly, 
and crabs, are inhibited in their reproduction by several of 
the endocrine disrupters sprayed on golf courses at Hilton 
Head.
    Two kinds. One, a particular pesticide called Fipronil, 
which the EPA has indeed identified as a potential endocrine 
disrupter, which is sprayed on golf courses so we can keep the 
bugs down, and we don't have too many bugs on your green while 
you are trying to punt, excuse me, trying to putt. All right. 
And secondly, it may be trying to punt, and secondly, the town 
of Hilton Head actually used sewage effluent from the city to 
spray on the golf courses. This is all within regulation. 
Bacteria are killed, the water is clean per se, but it hasn't 
cleaned the water of those birth control products that are 
still in the water, Viagra has been measured in the water. I 
guess that is to keep the shrimp going. I don't know. And 
various antibiotics in the particular system. My colleagues at 
the three institutions had been funded significantly by the EPA 
STAR Program. They are now receiving 25 percent of the funding. 
They do not know, they cannot tell us now how this, these 
endocrine disrupters are passed up food chains. Am I eating 
endocrine messed up shrimp? That doesn't do anything to me. I 
am well past the reproductive age. Okay. But it may for others 
in the environment.
    Secondly, we also have a problem with mercury, and that 
budget has been zeroed out in the proposed budget. The 
endocrine disrupter budget has been zeroed out in the proposed 
budget. Mercury is a goal of EPA's from last year, and the goal 
is to find out where it is and how it affects the population. 
There is no way that the Agency, either through its labs or 
through its extramural programs, can attempt to look at those 
things. Promising approaches mentioned by Dr. Morgan in 
sustainability, socio-economic aspects, and ecosystems are also 
being greatly reduced across, and we can't go into the details 
of all of those.
    It is nice to see the influence and the money coming in to 
the Nano Program. Nanoparticles are an important part of our 
life. They are going to either be the PCBs of the next 
generation, or they are going to be the world savers, or they 
are going to be something in-between.
    Our point is you cannot make science-based decisions 
without the science. The role of extramural research, academic 
research, which is, as a former administrator, and I must tell 
you that one of the best names to have in a university setting 
attached to your name is emeritus. That means you are retired, 
and you don't have to deal with lots of other things. All 
right. But our schools, our 134 said schools, all right, are 
producing 40 to 50 percent of the students, the grants, and the 
publications of all ORD research. So the said schools represent 
a good portion of the extramural research going on in the 
United States through the Office of Research and Development. 
We bring the expertise of the entire scientific community to 
bearing problems. We provide the training for the next 
generation. We are the people who do that. Of the STAR Fellows 
Program 88 of our 134 institutions have educations STAR 
Fellows, that is the fellows that are declining so rapidly as 
we saw in Dr. Morgan's presentation.
    And the thing that is so interesting here is that 
extramural research, both grants and fellowships, can be ramped 
up very quickly with additional funding. We don't need new 
infrastructure. We have it. We don't need new people to run 
this personnel. This is out there, and there are very hungry, 
bright, young faculty, not emeritus ones, but bright, young 
ones out there who are very capable at all institutions ready 
to do these kinds of things.
    Just knowing that this is not within your purview, I also 
want to reiterate the statement of Dr. Sass on environmental 
libraries, and I also want to reiterate the statement we have 
heard before related to environmental education. We in 
universities, of course, are educators primarily, and the 
Environmental Education Program and the Library Programs have 
been significantly cut from the general EPA budget. And we 
would hope that your Committee could work with the Education 
Committee to try to make that something we need. Environmental 
education now as our Earth becomes more and more under siege is 
critical if we don't educate the public and our students how 
they are doing.
    It is time for the Science Committee to provide leadership, 
send a strong message to the appropriators and other 
authorizing committees, as well as the Agency itself. We need a 
strong investment in environmental research, education, and 
information. EPA needs to be the Agency that takes the lead in 
this and needs to be consistent with the rederick about 
science-based decision-making.
    [The prepared statement of Dr. Coull follows:]

                  Prepared Statement of Bruce C. Coull

Summary

    The U.S. Environmental Protection Agency research budget situation 
is chronically bad and getting worse. In order to fulfill its mission, 
EPA needs increased investments in both its intramural and extramural 
science programs as well as associated services such as environmental 
education and libraries. The proposed cuts in research areas are 
devastating exactly the areas EPA ought to be investing in 
socioeconomic, sustainability, ecological, and exploratory research as 
well as partnerships with academia and State and local government. 
These areas are essential to move environmental protection from a 
command-and-control regulatory system to a more rational, compliance-
based approach.
    The National Council for Science and the Environment (NCSE) urges 
Congress to appropriate a minimum of $700 million for EPA's Office of 
Research and Development (bringing it back to FY 2004 levels), 
including at least $150 million for EPA's Science to Achieve Results 
(STAR) research grants program and $20 million for EPA's STAR graduate 
fellowship program. We recommend a total of $900 million for EPA's 
Science and Technology account. NCSE also urges Congress to restore 
full funding for the Office of Environmental Education at a level of at 
least $10 million. Finally, we urge Congress to stop the ill-conceived 
and poorly-executed closure of EPA's libraries.
    The National Council for Science and the Environment is dedicated 
to improving the scientific basis for environmental decision-making. We 
are supported by over 500 organizations, including universities, 
scientific societies, government associations, businesses and chambers 
of commerce, and environmental and other civic organizations. NCSE 
promotes science and its essential role in decision-making but does not 
take positions on environmental issues themselves.
    NCSE's Council of Environmental Deans and Directors (CEDD) includes 
the leaders of environment programs at more than 130 colleges and 
universities in the U.S. These institutions produce the bulk of the 
Nation's environmental scientists and environmental professional 
workforce. CEDD meets the critical national needs to ensure continued 
excellence in academic environmental programs and to provide a high 
quality environmental workforce and an informed public.

Introduction

    Mr. Chairman, thank you for the opportunity to testify at this 
important hearing on science and technology at the Environmental 
Protection Agency (EPA). My name is Bruce Coull. I am testifying in my 
capacity as 2006-2008 President of the U.S. Council of Environmental 
Deans and Directors (CEDD) a program of the National Council for 
Science and the Environment (NCSE). I am also Carolina Distinguished 
Professor Emeritus and Dean Emeritus, School of the Environment, 
University of South Carolina in Columbia, South Carolina.
    Previously, as Dean of the School of the Environment, I led the 
University of South Carolina (USC) to approach environmental issues 
through multi-disciplinary research, education and community outreach. 
I headed the South Carolina Sustainable Universities Initiative (http:/
/www.sc.edu/sustainableu), a multi-university project educating about 
frugal use of Earth's resources and was the architect of the greening 
of the University of South Carolina. I also led USC's environmental 
efforts in the Ukraine related to the Chernobyl nuclear accident of 
1986. Currently, I direct the South Carolina Lowcountry Initiative of 
the Chicago and New York-based Center for Humans and Nature (http://
www.humansandnature.org). This initiative aims to assist local 
decision-makers in making sensible use of resources in the South 
Carolina coastal region.
    I am a marine biologist by training. I am here today to discuss the 
importance of greater investments in environmental research, education, 
and information and the consequences of chronic under-investment on 
environmental decision-making.

Environmental Science and Decision-making

    The call for decisions, environmental and otherwise, to be made on 
the basis of science is almost a mantra used across the political 
spectrum. Yet, behind the rhetoric, a simple truth remains. Without 
investment in science and in scientists, there can be no science-based 
decision-making.
    Despite this statement of the obvious, many federal departments and 
agencies and those in Congress who fund them try to get environmental 
decision-making on the cheap. This has been the case with the 
Environmental Protection Agency for a very long time and the proposed 
budget only worsens this sorry situation. The EPA R&D portfolio of $540 
million in the FY 2008 budget request would be a 3.3 percent cut from 
the likely 2007 funding level with increases for homeland security-
related research somewhat masking cuts to most research areas. This 
would leave EPA's Office of Research and Development with its lowest 
budget since 2000 in nominal dollars and its lowest budget in constant 
dollars since at least 1990 (AAAS data).
    In real dollar terms, EPA's funding of science is nearly unchanged 
since at least 1990, and has been steadily declining since FY 2004 
(Figure 1). In fact, the flat budget extends back at least as far back 
as the early 1980s. During these decades, the magnitude and complexity 
of our nation's environmental challenges has increased many-fold. 
Science, including that conducted by EPA, has helped us to make great 
advances with the local issues of point-source pollution. But the 
problems faced by EPA, our nation and our planet today encompass local, 
regional, national and even global scales. They will not be addressed 
by science-funding as usual. As then-Chairman Representative Vernon 
Ehlers said last year, ``just as we can't afford to spend too much, we 
can't afford to spend too little.''
    A research budget of less than $600 million for an agency dealing 
with these challenges is simply unacceptable. In contrast, the National 
Institutes of Health (NIH) has an R&D budget of over $28 billion (50 
times more than EPA research). NASA's budget of $12 billion is almost 
20 times larger than EPA's research budget.
    In order to focus on the highest priority issues and provide 
coordination for achieving its research goals, EPA's Office of Research 
and Development has produced multi-year plans (http://www.epa.gov:80/
osp/myp.htm) for the following high priority research areas that are 
linked to EPA's five major strategic goals:

Goal 1: Air

        <bullet>  Air Toxics

           Particulate Matter

Goal 2: Water

        <bullet>  Drinking Water

           Water Quality

Goal 3: Land

        <bullet>  Contaminated Sites

           Hazardous Waste

Goal 4: Communities & Ecosystems

        <bullet>  Ecological Research

           Human Health

           Human Health Risk Assessment

           Global Change

           Mercury

           Endocrine Disruptors

           Safe Pesticides/Safe Products

Goal 5: Compliance and Environmental Stewardship

        <bullet>  Economics and Decision Science

           Science and Technology for Sustainability

    Nearly half of these issues were largely unknown 25 years ago, yet 
the amount of available funding is actually less. In fact, even the 
meager amount of money for most of these issues continues to decline.
    We increasingly understand the connection between environmental 
quality and human health. Last month, ``Integrating Environment and 
Human Health'' was the theme of NCSE's 7th National Conference on 
Science, Policy and the Environment, which involved more than 800 
scientists and decision-makers. Numerous examples were presented to 
demonstrate the dependence of human health on the quality of the 
environment, including emerging diseases such as avian influenza, 
episodic diseases such as cholera, toxicants such as arsenic and 
mercury, and illnesses that result from our lifestyle such as the 
relationship between suburban sprawl, urban blight, other aspects of 
the built environment and a host of health problems including 
cardiovascular diseases and obesity.
    Additionally, climate change is already having impacts on health, 
including more than 30,000 Europeans who died in the heat wave of the 
summer of 2003, Arctic peoples who are unable to continue subsistence 
hunting due to the rapidly melting polar ice caps, and the residents of 
the Gulf Coast and Atlantic coast killed, sickened or made homeless by 
intensified hurricanes such as Katrina. Scientists and professionals 
are once again realizing that we can't have healthy people in unhealthy 
environments. EPA, with its mission to protect human health and the 
environment is the ideal place for integrated research to happen and be 
funded, but funding levels are not sufficient to be effective. An 
editorial from this week's issue of Science magazine, by Richard 
Jackson, former Director of the CDC National Center for Environment and 
Health, who was one of the speakers at our recent conference, that 
shows the tight connection between environment and health is attached 
to this testimony.
    EPA's strategic plan calls for science-based decision-making, but 
it's not possible to achieve this goal if the Agency's capacity to 
conduct science is continually reduced. EPA's strategic plan for 2003-
2008 says, ``EPA has identified reliance on sound science and credible 
data among the guiding principles we will follow to fulfill our mission 
to protect human health and the environment.'' EPA needs to reverse the 
decline in its capacity to conduct science in order to fulfill its 
mission.

EPA's proposed science budget

    Compared to FY 2006, EPA's overall budget would fall $400 million 
or 5.5 percent to $7.2 billion under the President's FY 2008 budget, 
after a similar cut in 2006. EPA's shrinking R&D portfolio would 
decline to $540 million in FY 2008, after declining to $595 million in 
FY 2006 from $621 million in FY 2005 and a high water mark of $647 in 
FY 2004. Funding for most EPA research areas would decline. EPA's R&D 
funding would fall to its lowest level in almost two decades in real 
terms (Figure 1). If EPA's FY 2008 budget proposal is enacted, the 
Agency's Science and Technology (S&T) funding would decline by $71 
million or 12 percent since FY 2004 and the Office of Research and 
Development budget would decline by $107 million or 16.5 percent during 
the same period.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    A healthy research program depends on having sufficient resources 
to:

        a.  keep up with and use the newest scientific methods,

        b.  provide the most up-to-date scientific information for the 
        Agency's regulatory decisions and core research programs, and

        c.  build and maintain strong ties with the external research 
        community and foster graduate student work in the environmental 
        sciences.

    Unfortunately EPA's research program is in a chronically unhealthy 
state. Despite major successful reforms (including a new extramural 
research and fellowship program) in response to criticisms leveled in 
the 1980s and early 1990s, EPA's ability to garner the best science for 
its decision-making has been constrained severely by a lack of 
resources. This is particularly vexing given the desire of many policy-
makers to move away from a ``command and control model'' to a more 
rational market-based approach to environmental performance. A market-
based approach will succeed only if all participants have access to 
high quality science-based information on which to make their 
decisions. Additional science is needed to develop metrics of success 
and to monitor progress toward desired outcomes.
    According to the President's budget demand, funding for EPA's S&T 
account is projected to fall in 2008, 2009, and 2010 before rebounding 
slightly in 2011. After adjusting for inflation, EPA R&D could fall a 
further 16 percent over the next five years. Even if Congress adds to 
the administration's request during the appropriations process, 
congressional add-ons may end up going to earmarked projects rather 
than to boost core EPA research programs, leaving most EPA research on 
a downward path with further cuts to come. This situation is 
unsustainable and should be unacceptable to this committee.

EPA's Extramural Science and Education Programs

    EPA created the extramural Science to Achieve Results (STAR) 
program as part of a set of reforms to EPA science proposed by the 
National Academy of Sciences in the 1990s. STAR provides EPA an 
opportunity to better take advantage of the intellectual and scientific 
resources of the academic community and apply these resources to the 
challenges faced by EPA. It is EPA's principal means of getting the 
best environmental researchers in our colleges and universities to 
direct their attention to the most critical environmental problems of 
the Nation. STAR grants complement EPA's own scientific staff by 
bringing an additional independent voice and excellence in additional 
fields of science. STAR also provides funds for preparing the next 
generation of environmental scientists and engineers, both through 
graduate fellowships and as research assistants on grants to faculty 
members. We note as of January 2006, Project Investigators (PIs) from 
colleges and universities included in CEDD have published more than 
3463 journal articles (representing 43 percent of all journal articles 
published by NCER funded PI's). 36 Project Investigators have been 
listed as highly cited (publications influential for other researchers) 
authors. (CEDD accounts for 41 percent of all NCER funded PI's listed 
as highly cited.)
    As we will show, this area has born the brunt of the recent cuts in 
EPA's research leading to critical problems not being understood and 
new environmentally beneficial technologies not being produced.
    The STAR program has been widely praised. The National Academies 
issued a laudatory report, The Measure of STAR, which concluded that 
the program supports excellent science that is directly relevant to the 
Agency's mission. According to the report, the STAR program has 
``yielded significant new findings and knowledge critical for 
regulatory decision-making.'' The report says, ``The program has 
established and maintains a high degree of scientific excellence.'' It 
also concludes, ``The STAR program funds important research that is not 
conducted or funded by other agencies. The STAR program has also made 
commendable efforts to leverage funds through establishment of research 
partnerships with other agencies and organizations.''
    The EPA STAR research program compares favorably with programs at 
other science agencies. According to the National Academies report, 
``The STAR program has developed a grant-award process that compares 
favorably with and in some ways exceeds that in place at other agencies 
that have extramural research programs, such as the National Science 
Foundation and the National Institute of Environmental Health 
Sciences.''
    The STAR research grants program expands the scientific expertise 
available to EPA by awarding competitive grants to universities and 
independent institutions, to investigate scientific questions of 
particular relevance to the Agency's mission. The National Academies 
report says, ``The STAR program should continue to be an important part 
of EPA's research program.''
    From the standpoint of a university administrator, our ability to 
set priorities is greatly influenced by patterns of federal funding. 
Where resources are made available, academic research will flourish and 
new discoveries will be made. This is happening in the biomedical 
sciences and society is reaping the benefits of increased funding for 
biomedical research. In areas such as environmental science, even 
though there is great interest among student and faculty, it is hard 
for us to establish new programs and hire new faculty and take on 
additional students if we know that funding is not likely to be 
available. STAR grants that support research centers and individual 
scientists allow universities to make their own investments with some 
assurance of concurrent federal support.
    Research centers funded by the STAR program at universities 
affiliated with NCSE are making scientific breakthroughs on topics 
including:

        <bullet>  remediation of mine waste sites

        <bullet>  microbial risk assessment

        <bullet>  remediation of volatile organic compounds in 
        groundwater and soil

        <bullet>  air quality--reducing the health effects of 
        particulate matter and aerosols

        <bullet>  assessment of aquatic resources

        <bullet>  children's environmental health and disease 
        prevention (several centers).

    Funding for the STAR program has been cut repeatedly over the past 
several years. The FY 2008 request for the STAR programs (including 
fellowships) is $61.9 million, which is approximately 45 percent below 
the FY 2002 level of $110 million. If the proposal is enacted, STAR 
will have been cut by more than $21 million or 25 percent since FY 
2004. NCSE proposes that the STAR research budget be increased to $150 
million, which would allow expansion of areas and scientists supported 
and would send a signal that Congress is serious about merit-based 
science for environmental decision-making.
    We do commend EPA for boosting grants to $5 million for exploratory 
research on the environmental effects of nanotechnology, an emerging 
issue which was the subject of Science Committee hearings last year. 
However, even in this case, the research is trying to catch up to a 
genie that is already out of the bottle. NCSE co-sponsored a conference 
with EPA's Office of Research and Development in fall 2005 on the 
possible benefits of nanotechnology for cleanup of hazardous wastes, 
such as contaminated ground water. Although, small scale field trials 
show considerable promise, the risks, large or small, are largely 
unknown. We also note with disappointment that absolutely no money is 
budgeted for exploratory research grants on any other subject. The 
nanotechnology research, as well as endocrine disruption research, 
originally came from the exploratory research area. The current budget 
leaves no money to study any new issues that emerge during the upcoming 
year or that have been identified but not studied.
    Table 1 shows a breakdown of EPA extramural research by program 
area and fellowships over the past five years. It also shows a breaking 
down of the extramural program itself. Prior to the period shown on 
Table 1, the STAR program provided approximately $100 million annually 
in research grants from FY 2000 to 2002. The proposed budget for FY 
2008 would reduce that total to $56 million--a stunning cut of 44 
percent during the current Administration.
    This table shows continued attrition and termination of research 
programs. Research grant areas terminated since 2004 include:

        <bullet>  Water quality

        <bullet>  Land protection and restoration

        <bullet>  Endocrine disruptors

        <bullet>  Ecosystems (formerly more than an $18 million annual 
        investment)

        <bullet>  Mercury

        <bullet>  Pollution Prevention

        <bullet>  Sustainability

        <bullet>  Economics and Decision-making

        <bullet>  General exploratory research

    Each of these shutdowns has real world negative consequences. I 
provide a few examples, but there are many more. In addition, most of 
the research areas presently still addressed by EPA are done so in a 
paltry fashion with the expenditures for research very small relative 
to the scale of the problem.

Consequences: Research Funding Cuts Lead to Health and Environmental 
                    Problems

    Endocrine Disruption. EPA's grants for research on endocrine 
disruption (ED), which totaled $4.6 million in FY 2003, were terminated 
in the FY 2007 budget request. EPA's $10 million request in this field 
is down nearly 20 percent since FY 2003.
    Examination of the phenomenon of endocrine disruptors (chemicals 
that mimic naturally occurring hormones, many of which are passed from 
the mother to the developing fetus and affect sexual and other types of 
development) provides examples of the consequences of these 
terminations. Headlines are raising questions about bisexual fish in 
rivers across the U.S. and are reporting the loss of more and more 
natural commercial fisheries around the world. International biomedical 
experts are agreeing that the growing incidence of human male 
reproductive organ disorders including testicular cancer, are the 
result of prenatal exposure to environmental chemicals. In the U.S., 
there has been an age-independent decline in testosterone levels in men 
over the past twenty years. Epidemiologists have linked unusual 
external genitalia development in newborn boys with plastic components 
in their mothers' urine during pregnancy. The Centers for Disease 
Control and Prevention report that one in 150 children born today has 
an autism spectrum disorder. The latest evidence concerning the role of 
environmental contaminants and reproductive health from the gene and 
early stages of development to the gray-haired population is extremely 
worrisome. Yet, despite the all evidence of growing numbers of trans-
generational disorders that were rare only two generations ago, ED 
research at in the Office of Research and Development is declining.
    In South Carolina, endocrine disruptive chemicals are used on golf 
courses at several locales, including Hilton Head Island, both as 
pesticides (e.g., Fipronil), and via treated sewage effluent that is 
used for irrigation (such effluent contains estradiols, birth control 
remnants, antibiotics, etc.), which run-off into the very productive 
estuarine salt marsh systems. Colleagues at the University of South 
Carolina and the NOAA National Ocean Science Laboratory in Charleston 
were funded by EPA via the endocrine disruption program to determine 
the effects on commercially important estuarine species. They have 
discovered that crustaceans (shrimp, crabs, copepods) have their 
reproduction shut down when exposed to these chemicals and that some 
fish are unable to reproduce and have both male and female 
characteristics when exposed. The question now is how are these 
chemicals passed up food chains, what is the impact on coastal 
fisheries yields, can humans bioaccumulate these endocrine mimics, and 
what are the effects? Despite these findings, present funding is now 25 
percent of what was originally funded by EPA. Clearly, eliminating the 
endocrine disruption research grants program will not provide the data 
for informed decision-making related to environmental and human health.
    Mercury. EPA research on mercury has been reduced to $4.3 million 
in FY 2008 (slightly up from 2006) from $7 million in FY 2004. Grants 
for mercury research were terminated in FY 2005. According to ORD's 
Multi-year plan (MYP): ``A 1997 EPA Mercury Study Report to Congress 
discussed the magnitude of mercury emissions in the United States, and 
concluded that a plausible link exists between human activities that 
release mercury from industrial and combustion sources in the United 
States and methyl mercury concentrations in humans and wildlife. 
Regulatory mandates require EPA to address these risks. The Agency is 
developing risk management research for managing emissions from coal-
fired utilities (critical information for rule-making) and non-
combustion sources of mercury; risk management research for fate and 
transport of mercury to fish; regionally-based ecological assessments 
of the effects of methyl mercury on birds; assessment of methyl mercury 
in human populations; and risk communication methods and tools. EPA has 
established two long-term goals for mercury research. The long-term 
goals established in this MYP are:

        1.  To reduce and prevent release of mercury into the 
        environment.

        2.  To understand the transport and fate of mercury from 
        release to the receptor and its effects on the receptor.

    However, as a result of the cuts to the already small budget, EPA 
is not presently studying the cycling of mercury in the environment. 
Thus it is hard to imagine how EPA will accomplish these goals.
    Ecosystems. As recently as FY 2004, EPA was spending $108 million 
on ecosystem research. In FY 2005, what had been an $18 million program 
of grants for ecosystem research was completely eliminated from STAR. 
The FY 2008 budget request would further reduce funding for ecosystem 
research to $68 million. At this level, essentially all external 
participation--grants, cooperative agreements and contracts--would be 
eliminated. The remaining EPA researchers who were able to produce a 
major product every year or two would only be able to produce a major 
product every four to six years. Additionally, the most recent cuts 
will limit the participation of State and local government in the 
Environmental Monitoring and Assessment Program (EMAP).
    The ecosystem research program is combined with human health in ORD 
Goal 4, so it is sometimes difficult to determine what constitutes 
ecosystem research. Additionally, there is some confusion about the 
relationship between the water quality research program and ecosystem 
research, although there is actually little overlap. We hope that with 
a new emphasis on valuation and ecosystem services, this research 
program will grow again.
    Sustainability, pollution prevention, economics and decision-
making. The suite of research efforts in pollution prevention, 
sustainability, and economics and decision-making are EPA's pro-active 
agenda to get ahead of environmental problems through prevention, 
development of new technology, and partnerships with State and local 
government and other stakeholders. The Office of Research and 
Development should be commended for developing a sustainability 
strategy that was recently approved by EPA's Science Advisory Board.
    As documented at our recent national conference, the field of 
``green chemistry''--using products designed from nature without 
harmful side effects--offers great promise to reduce the need for 
regulation and contamination. Everything from natural, short-lived 
biodegradable pesticides to new energy sources can be made safer and 
will provide great economic opportunities as well as environmental and 
health benefits. Sustainability provides new partnerships as well as 
new technologies. Communities and other stakeholders are brought into 
the research program from the beginning.
    Unfortunately, ORD's efforts to be pro-active and implement a new 
sustainability approach, as is being done in the business community is 
being undermined by debilitating cuts to a budget that is too small 
already. The very small but effective grants program in Cooperative 
Science and Technology is to be terminated in the FY 2008 budget. This 
program provided grants to states, counties and others from New York 
City to Puerto Rico that need science to help resolve or prevent 
problems.
    The remaining sustainability research is largely what had been 
called pollution prevention. This intramural program includes key tools 
to support decision-making such as life cycle analysis, metrics of 
sustainability and flows of materials, technological assistance, 
including using SBIR incentive funding to develop and commercialize 
innovative environmental technologies needed by EPA regions and states 
and agency regulatory and compliance programs to protect human health 
and the environment. Sustainability research is planned to be cut to $ 
22.5 million, a little more than half of the $42 million provided as 
recently as FY 2004.
    Initiated in 1994 and modified in 1999, the STAR grant Economics 
and Decision Sciences (EDS) program supports innovative economics and 
decision science research. It is the only significant research effort 
at the EPA that addresses behavioral science research issues. EDS 
results have led to decreased pollution control costs, and improvements 
the efficiency and effectiveness of environmental policies. These 
practical and usable results improve understanding of polluter 
motivations as well as the incentive structures of policies and how 
people value human and ecosystem health.
    According to a 2005 presentation by Kohler and Clark for the 
Association of Public Policy Analysis and Management, the EDS program 
``has established an incredible track record that has generated 
practical results now being used by environmental policy-makers 
throughout Federal, State, local and international governments.'' STAR 
EDS research is influencing the design of international and federal 
multi-pollutant legislative initiatives. EDS research on cost-benefit 
analysis ``contributed to the Office of Management and Budget's 
recommendation that EPA not use an age-adjustment factor in its cost-
benefit analyses of air quality regulations.'' Another important 
beneficial outcome of EDS research has been information that enables 
states to efficiently prioritize habitat protection programs. EDS 
research is providing local governments tools to preserve their most 
important local lakes, streams, and wetland. They also provide numerous 
examples of how this research has been used by various EPA offices and 
the private sector as well.
    Kohler and Clark conclude, ``Since its inception, funding for EDS 
research has amounted to $20 million over approximately 10 years, 
averaging two million per year. Potential savings from widespread 
application of economic incentives to solving environmental problems 
could reach $45 billion annually (Anderson and Lohof 2001). On a 
practical level, acid rain trading savings are at least $700 million 
annually. Research on the private benefits of R&D shows that the market 
value of private spending on R&D is capitalized at a rate of 2.5 to 
eight (with most estimates centered at five and six) (Hall 2000). By 
comparison the social benefit of EDS R&D can range up to 22,500 times 
the investment of public money in research, assuming that all average 
annual funding for EDS research to date can account for these potential 
$45 billion annual savings. However, this back-of-the-envelope 
calculation does not include the investment in time of policy-makers 
and legislators necessary for new legislative initiatives. Assuming 
that only one percent of the potential savings accrued to the U.S. 
society are associated with EDS research would yield an annual benefits 
rate of 225. More specifically, funding for the Burtraw study amounted 
to $251,000 over two years, and can be associated with up to $700 
million savings per year from trading programs--a rate of 56 times 
(assuming a one percent association between EDS research and public 
benefits), which is well above the market value of private sector 
R&D.''
    Despite these successes, this high impact, low cost $2 million 
grant program is scheduled for elimination in FY 2008.
    Without these innovative approaches that underlie a preventative, 
flexible and market-based approach, environmental protection will be 
left with the same old command and control system to ineffectively 
minimize the number of poisons that industrialized society feeds 
ourselves, our children, and our fellow living beings.

Graduate Fellowship Programs

    To ensure a strong supply of future environmental scientists and 
engineers, EPA created the STAR Fellowship program. There is 
considerable concern about the retirements of the baby boom generation 
and the need to replace the scientific and technical skills of the 
federal, state and private workforce. The STAR fellowship program is 
the only federal program aimed specifically at students pursuing 
advanced degrees in environmental sciences. According to the National 
Academies report, ``The STAR fellowship program is a valuable mechanism 
for enabling a continuing supply of graduate students in environmental 
sciences and engineering to help build a stronger scientific foundation 
for the Nation's environmental research and management efforts.'' A 
majority of the STAR Fellows conduct ecological research, where the 
funding sources are very scarce compared with environmental health. We 
note that a large percentage of the STAR fellowships have been awarded 
to graduate students in CEDD member universities and colleges. As of 
January 2006, 88 of 134 CEDD institutions have been awarded NCER grants 
or fellowships. A total of 581 grants (including 26 centers), and 595 
fellowships have been awarded to CEDD institutions for a total more 
than $389 million dollars.
    As academic administrators of most of the Nation's environmental 
programs, the CEDD membership recognizes increasing student interest to 
``do something for (or about) the environment.'' There are many, many 
bright deserving students who want to work to make the Earth a better 
and safer place to live. There is also a cadre of young faculty truly 
dedicated to working across disciplines to affect good decision-making 
based on science. Increases in the STAR program are important to 
produce the scientists and engineers needed for the future.
    The STAR Fellowship program has also been repeatedly proposed for 
budget cuts by this Administration, only to be restored each year by 
Congress. Ironically, because Congress has restored funds after this 
program was zeroed out by the Administration in the FY 2003 request, 
the EPA regards the STAR fellowship to be ``an earmark.'' The budget 
for the fellowship program has been slightly under $10 million for most 
of its 10 year history. However, because of the unusual appropriations 
process for FY 2006, EPA is only adding $1.8 million to the FY 2006 
request of $5.9 million for a total of $7.7 million in the soon-to-be-
released EPA operating plan. Thus the program and the number of 
graduate students it can support is being reduced by some 20 percent 
this year.
    The President's budget request has again has proposed cuts in the 
STAR graduate fellowship program to $5.9 million (an additional cut of 
some 20 percent). As noted in the Science Committee's Views and 
Estimates on the FY 2007 budget, this is ``one of the most troubling 
decreases.'' The Committee stated that ``the fellowship program should 
be funded at $10 million, the level restored by Congress in each year 
beginning with FY03.'' We thank this subcommittee under former Chairman 
Ehlers for its leadership and strong support to keep the STAR 
fellowship program alive although it is now wounded. We hope that under 
the leadership of Chairman Lampson and Ranking Member Inglis, you can 
help this program and the number of environmental scientists and 
professionals it produces to grow.
    The STAR fellowship program is highly competitive, with only seven 
percent of applicants being awarded fellowships. The current level of 
funding is insufficient to allow all students whose applications are 
rated as excellent to receive fellowships and it is insufficient to 
meet national needs for a scientifically trained workforce. Based on 
the experience of NCSE staff as reviewers of the STAR fellowship 
applications and CEDD members as advisors for students who have applied 
for and have not received fellowships, we recommend doubling the 
funding for STAR fellowships to $20 million, which can be accomplished 
without any decrease in the quality of the awardees.
    The lack of diversity in the environmental field, which is one of 
the least diverse fields of science, is also a key issue, as the 
demographics of America are rapidly changing. EPA has begun to address 
this challenge by creating the Graduate Research Opportunities (GRO) 
Fellowship. This program was intended to be specifically for students 
from ethnic minorities, but it now needs authorization to allow a focus 
on diversity as well as dedicated and sufficient funding. We recommend 
that the Science Committee authorization of EPA research in FY 2008 
include specific language restoring the purpose of the GRO Fellowship 
to bring more minorities into the environmental field.

Office of Environmental Education

    The FY 2008 budget request once again proposes no funding for the 
EPA Office of Environmental Education. Since 2003, the Administration 
has tried to zero out this office, which support the programs mandated 
by the National Environmental Education and Training Act, programs 
administered by this office. The Congress has seen fit to appropriate 
about $7-$9 million each year over the past decade. However, as with 
the STAR fellowship program, EPA regards it as an earmark, so its 
future is uncertain. NCSE strongly encourages Congress to restore 
funding of at least $10 million. The programs of the Office of 
Environmental Education provide national leadership for environmental 
education at the local, State, national and international levels, 
encourage careers related to the environment, and leverage non-federal 
investment in environmental education and training programs. We also 
request that the Science Committee encourage the Education Committee to 
re-authorize and strengthen the National Environmental Education Act of 
1990 (P.L. 101-619), as the funding authorization under this law 
expired in 1996.

EPA Libraries

    Every scientist needs access to a library in order to keep current 
on developments in the field and to support their professional 
activities. EPA had an exemplary library system, where as a network, 
every library at EPA helped their colleagues every day in many ways to 
keep EPA's information services viable. The EPA Headquarters libraries 
and the 27 regional and laboratory libraries, staffed with experienced, 
professional librarians who facilitate access to information, fielded 
134,000 research requests from EPA scientists and enforcement staff and 
others in the last year. The EPA Libraries house and catalog unique 
collections, including approximately 50,000 primary source documents 
not available elsewhere in any format, on vital environmental issues. 
They also serve as institutional repositories for internal 
documentation as well as commercially published literature about the 
topics agencies regulate, investigate, and research; operate public 
reading rooms, providing access to collections that are specifically 
tailored to meet the needs of constituents in their geographic region, 
at times specifically offering that access to comply with federal law.
    Despite this, EPA is in the process of dismantling this network, 
with no coordination budget and at least seven locations closed, 
ostensibly to move to online information systems. The proposed FY 2007 
budget for EPA Libraries contained a $2.5 million cut, which, according 
to the American Library Association has already resulted in the closure 
and imminent closure of some headquarters, regional and laboratory 
libraries and the reduction of staff at other EPA Libraries; will put 
the collections and services of the EPA Libraries at risk, causing 
essential information about the environment to be lost; would 
compromise the public's health and safety by making it difficult, even 
impossible, for the EPA staff and scientists, other scientists and 
researchers, the public, contractors and regulated industries, and 
federal, State, and local policy-makers to find accurate and high-
quality information upon which to base decisions about health and 
safety concerns. Foremost among the critics of the EPA plans to close 
or reduce services and access to collections and otherwise remove 
information resources critical to the EPA's mission, are the EPA 
employees. Within weeks of implementing plans to close regional 
libraries and libraries and special library collections in the EPA Head 
Quarters in Washington, DC, the presidents of 17 union locals 
representing more than 10,000 EPA researchers, scientists, and support 
personnel, lodged formal protests against these EPA actions. (http://
www.peer.org/docs/epa/
06<INF>-</INF>29<INF>-</INF>6<INF>-</INF>union<INF>-</INF>library<INF>-</INF>
ltr.pdf)
    The EPA could have made a very cogent statement about their need to 
reconfigure the entire EPA Library Network. They could have easily 
justified closing some of the individual libraries. However, the 
complete lack of a management plan and an 80 percent cut in the budget 
to see such a transition through to completion leads us to question 
both the intent and effectiveness of the closures. With a $2.5 million 
increase in its budget to see that such a reconfiguration was done 
properly with great care given to seeing that the transition was done 
effectively, efficiently, and with equity, the EPA Library Network and 
its managers could have designed one of the largest scientific 
libraries (or information centers) of the 21st century. We recommend 
that Congress direct EPA to cease the closures and prepare a management 
plan and a budget of sufficient magnitude to allow transition to a 
state-of-the-art environmental information system.

Conclusion

    In order to fulfill its mission, EPA needs increased investments in 
both its intramural and extramural science programs, as well as such 
associated services as environmental education and information. The 
National Council for Science and the Environment and our Council of 
Environmental Deans and Directors urges Congress to appropriate a 
minimum of $700 million for EPA's Office of Research and Development 
(bringing it back to FY 2004 levels), including at least $150 million 
for EPA's Science to Achieve Results (STAR) research grants program and 
$20 million for EPA's STAR graduate fellowship program. We recommend a 
total of $900 million for EPA's Science and Technology account. NCSE 
also urges Congress to restore full funding for the Office of 
Environmental Education at a level of at least $10 million and to 
terminate the effort to eliminate EPA libraries absent a sufficiently 
funded modernization and management plan. Even these levels of funding 
would, for the most part, bring EPA science back to its level in FY 
2004. We hope that in future years, EPA's science budget will grow to 
better match the Nation's needs.
    In the case of EPA, there is a strong relationship between input to 
environmental research and education and output in terms of 
environmental protection. If the Nation wants more effective and 
efficient environmental protection, we need to make the upfront 
investment in science. It really is the ounce of prevention that is 
worth many pounds of the cure.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                      Biography for Bruce C. Coull

    Dr. Bruce Coull is the 2006-2008 President of the U.S. Council of 
Environmental Deans and Directors (CEDD) a program of the National 
Council for Science and the Environment (http://www.ncseonline.org/
CEDD). He leads this professional organization of deans, institute 
directors and environmental program administrators at more than 130 
colleges and universities across the U.S. CEDD is carrying out projects 
to improve environmental curriculum, better prepare alumni for 
environmental careers, increase diversity in the field and to advance 
interdisciplinary education. CEDD works with partner organizations in 
Canada and the UK.
    Dr. Coull recently became emeritus at the University of South 
Carolina, where as a Carolina Distinguished Professor and Dean of USC's 
School of the Environment, Coull led USC to approach environmental 
issues through multi-disciplinary research, education and community 
outreach. He headed the South Carolina Sustainable Universities 
Initiative (http://www.sc.edu/sustainableu), a multi-university project 
educating about frugal use of Earth's resources and was the architect 
of the greening of the University of South Carolina. He also led USC's 
environmental efforts in the Ukraine related to the Chernobyl nuclear 
accident of 1986. In his emeritus status he directs the South Carolina 
Lowcountry Initiative of the Chicago and New York based Center for 
Humans and Nature (http://www.humansandnature.org). This initiative 
aims to effect sensible use of resources in the South Carolina coastal 
region. Local decisions-makers are the target of this project.
    Coull was educated at Moravian College and Lehigh University--both 
of which are located in Bethlehem, Pennsylvania. He was a postdoctoral 
fellow at the Duke University Marine Laboratory in North Carolina and 
an Assistant Professor at Clark University, Massachusetts before 
joining the University of South Carolina (USC) faculty in 1973. While 
at USC he taught over 10,000 students in Marine and Environmental 
Sciences and held research grants from the Environmental Protection 
Agency (EPA), the National Science Foundation (NSF), the National 
Oceanic and Atmospheric Association (NOAA) and multiple private 
foundations. He has directed over 60 theses and Ph.D. dissertations at 
USC.
    He was a senior Fulbright Research Fellow at Victoria University of 
Wellington, New Zealand in 1981 and a Visiting Professor in Marine 
Sciences at the University of Queensland, Brisbane, Australia in 1994. 
He was President of the American Society of Zoologists, the American 
Microscopical Society, and the International Association of 
Meiobenthologists as well as advisor to the European Community on 
Marine Pollution. He is the author of 130 scientific papers in Ecology, 
Ecotoxicology and Sustainability in Higher Education and the editor of 
four Marine Ecology books.
    He is married to Judith, a graduate of Wheaton College, 
Massachusetts. They have two children, Brent (Associate Professor of 
Biostatistics, Harvard University) and Robin (Social Worker, Brooklyn, 
NY) and one grandchild. Hobbies include fishing, walking, canoeing, and 
nature-based tourism.

                               Discussion

     The Superfund Innovative Technology Evaluation (SITE) Program

    Chairman Lampson. Thank you very much. So let us begin our 
questions. Dr. Gray, in EPA's fiscal year budget, the Agency 
indicated that it would clean up 40 Superfund sites. In the 
Energy and Commerce Committee hearing last week Administrator 
Johnson indicated that the Agency would not be able to clean up 
40 sites this year and that the new estimate to clean up would 
be 24 sites. Is that correct?
    Dr. Gray. That Superfund is handled within a different 
office, but it is my understanding, I was at that hearing, and 
that is what the Administrator said.
    Chairman Lampson. Okay. The Administrator indicated to the 
Energy and Commerce Committee that the reduction in the 
projected number of site cleanups this year is due to the fact 
that the sites remaining to be cleaned up present greater 
challenges, have more complex problems, and take more time and 
effort to clean up. Is that your understanding?
    Dr. Gray. Yes, it is.
    Chairman Lampson. And can you explain to the Subcommittee 
why if we still have complex cleanups that require more time 
and money to complete than the average site, the administration 
has chosen to eliminate funding for the Technology Development 
and Verification Program Congress mandated in the Superfund 
Law. The Superfund Innovative Technology Evaluation or SITE 
Program?
    Dr. Gray. Certainly. The SITE Program is a mature program 
that has been around for very many years. It has demonstrated a 
wide range of technologies and approached that have the 
opportunity to improve the efficiency of cleanups at Superfund 
sites. However, at this point this is something that is more 
appropriately handled in the private sector, and the SITE 
Program now is being closed down, and the private sector is 
picking up many of those technologies that were identified and 
verified through the SITE Program and making them available.
    It is important to recognize that the Office of Research 
and Development continues to support the Superfund Program. We 
have seven technical support centers across the country in 
which we provide direct, both scientific and engineering 
support, to the program managers out there in the field, on the 
ground, at Superfund sites, making sure that they have access 
to that science and to that engineering information.
    Chairman Lampson. Dr. Gray, is this an example of the 
President, again, choosing not to follow the law passed by this 
Congress and signed by him?
    Dr. Gray. This is a situation in which we have to make as 
an agency and as an office decisions about scientific 
priorities while making sure that we are meeting our 
environmental commitments. In this case we are--our commitment 
to help the Superfund Program through our technical support 
centers is something that we will continue.

                       Laboratory Infrastructure

    Chairman Lampson. Are there plans to reduce staffing or 
space of EPA's laboratories?
    Dr. Gray. No, there isn't. Actually, I am glad you asked me 
that question, because there is some sort of--there is rumors 
and misinformation running around out there. What has happened 
is we have been asked, and ORD has been asked to take the lead 
on a study of the laboratory infrastructure of the EPA. We have 
been asked to look at the efficiency and the effectiveness of 
our 27, I believe, I am not sure about the number, of all our 
laboratory assets that are spread across this country.
    The last time we did this was back in 1993, and we thought 
it was time to do something like this again. What we are doing 
is a short-term effort and a long-term effort. The short-term 
effort is looking for place-specific efficiencies, best 
practices that are happening in one laboratory that we can 
transfer to another. The longer-term will bring in an outside 
group to help us look at our laboratory infrastructure to 
understand that work that is being done there and understand 
options we have for making it efficient and effective.
    A very important thing to recognize, and this is something 
that the Administrator said at our House Appropriations 
Committee hearing is that he is not intending to shut down any 
laboratories, no laboratories will be shut down, and no 
scientists will be let go.
    Chairman Lampson. Let me continue. I have two copies or I 
have copies of two memos here; one dated June 8, 2006, authored 
by Lyons Gray, Chief Financial Officer, and the other dated 
October 26, 2006, by Lek Kedeli, Deputy Assistant Administrator 
for ORD. They both relate to the preparation of the fiscal year 
2008 budget and to some future budgets, and both discuss the 
development of plans to reduce costs associated with EPA's 
laboratories. I ask first unanimous consent that they be placed 
in the record for this hearing. Without objection, so ordered.
    [The information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Lampson. The June 8 memo instructs ORD to put 
together a work group to develop a laboratory consolidation 
plan. The October 26 memo appears to be a response to this 
direction and invites input from deputy assistant 
administrators and deputy regional administrators to comment on 
the draft charter for the plan and asks for their responses to 
a series of questions. And I have some questions about those 
memos and this plan.
    Does the Agency, agency's inclusion of stakeholders in this 
process include a role for Congress?
    Dr. Gray. We would certainly work with all of our 
stakeholders, not only our scientists but outside groups that 
are interested, including our union partners, and we would be 
happy to keep Congress apprised as we make progress here.
    Chairman Lampson. These labs are located in Members' 
districts across the country. Has the Agency contacted any of 
these Members and informed them of laboratory review?
    Dr. Gray. This is a process that is just getting underway, 
and it, at this point we believe that we have to formulate our 
plans and understand how we are going to approach this. This is 
coming into view, as I said, with the short-term and long-term 
approach, and for that reason we have not widely contacted.
    Chairman Lampson. Have not contacted members. Which EPA 
stakeholders are involved in the preparation and review of this 
plan?
    Dr. Gray. This plan is being reviewed and addressed. At 
this point there is not a plan. You have to recognize we do not 
have a plan. We are putting together an approach to look at our 
laboratory infrastructure. In the short-term we will be looking 
for opportunities like has been demonstrated in Region 1 where 
they have a certified green building, and they found ways to 
reduce their energy use 19 percent. We want to find out how 
they did that and share it. In the long-term we will have an 
open process that will include many of our, all of these 
stakeholders that will help to bring together the data, do the 
analysis for a longer-term look. That, again, is something that 
we envision being a year or two or three down the road.
    Chairman Lampson. Does the Agency intend to or has the 
Agency asked for input from the EPA Science Advisory Board on 
the laboratory consolidation plan?
    Dr. Gray. Again, we don't have a consolidation plan. We 
are--have a plan to look at our laboratory infrastructure, and 
at this point, as I said, there is not a plan that we can yet, 
that we are yet ready to share.
    Chairman Lampson. I had the staff look through the 
Congressional justification for some discussion of the Agency's 
intention to review the laboratory infrastructure and 
development of some kind of a consolidation plan, whether we 
call it a plan or not. They didn't locate any such discussion. 
Did we miss it, and where in the Congressional justification is 
this discussed?
    Dr. Gray. I am afraid I am not as familiar with the, or I 
am not familiar with the Congressional justification at that 
level, but I would be happy to get something back to you for 
the record.
    Chairman Lampson. Okay. If you would, I would appreciate 
that. The memo refers to a target savings of 10 percent in 
2009, and another 10 percent in 2010. Do you have any idea how 
those targets might have been set? And what is the 
justification for those mandated cuts?
    Dr. Gray. I do not know how those targets were set, and the 
idea of our short-term effort is to look for efficiencies that 
might help us find ways to save some, save resources in our 
laboratories.
    Chairman Lampson. Frankly, Dr. Gray, it sounds like a lot 
of this process used to consolidate and streamline EPA's 
libraries, that process was dreadful, and we are still trying 
to sort that out. I sincerely hope that the Agency is not going 
to repeat the, that process with EPA's laboratories. I will be 
following up with a request for more information about this 
plan and the process to develop it. I expect the Committee to 
be provided this information in a timely fashion and well prior 
to the plan being finalized in May as Mr. Kedeli's memo 
suggests.
    And I ask indulgence of the Committee for my having gone 
over, and I recognize the Ranking Member at this time.

                            Employee Morale

    Mr. Inglis. Thank you, Mr. Chairman. Dr. Gray, Dr. Coull 
testified in his written testimony that EPA's ability to garner 
the best science for its decision-making has been hamstrung by 
a severe lack of resources, and I think Dr. Morgan testified 
about the morale. What is your response to that? Is it, do you 
have some rejoinder to that?
    Dr. Gray. Well, I think I have one rejoinder. This is 
simply anecdotal in direct response to the morale issue. The 
Scientist Magazine is something widely read as you might guess 
by scientists. Every year they do a survey of post-doctoral 
researchers across the country, and what is the best place to 
be a post doc? EPA, ORD has made, well, we are in basketball 
season. We made the final four for the last three years. We 
were number one three years ago. We have been three and three. 
That tells me that the morale among our scientists, the folks, 
even the young ones that we are bringing in, the new ideas, the 
new techniques, the new talent that we are bringing into our 
laboratories like working for ORD. I think that we don't have 
at this point any kind of a morale problem. We have got a lot 
of very dedicated people; scientists, engineers, and the 
support staff to help us do what we do, that are very happy 
working in the Office of Research and Development.

                      Endocrine Disrupter Research

    Mr. Inglis. Let me take up a case study Dr. Coull 
mentioned. You got my attention with this endocrine inhibiter 
research and maybe first before I come back to Dr. Gray to ask 
about that, explain, give me some background on what, how that 
works, particularly, you understand my great concern is 
Bluffton oysters and shrimp, because my brother is a hobby 
shrimperman, shrimper. So help me out with that.
    Dr. Coull. I over-spoke on one issue and want to correct 
it. I did not mean to indicate that EPA had eliminated all 
endocrine disrupter and mercury research, only the external 
grants in those particular cases. So there still is that kind 
of research going on internally, but let me explain. Hormones 
that we need to live and do well are also important to other 
creatures in the environment. Hormones are necessary for 
reproduction. Hormones are necessary for nervous function, and 
these chemicals, various chemicals interfere. They are called, 
endocrines are one kind, interfere with these endocrines. And, 
therefore, in studies done on shrimp, crab, and copepods, which 
are another small kind of crustacean, very tiny but very basic 
to the food chain, and essentially the basis of a good part of 
the food chain and all those salt marshes we have in South 
Carolina and in throughout the Gulf Coast, the reproduction is 
shut down when these animals are exposed to these particular 
chemicals.
    Now, this particular research is relevant because it 
relates to ecosystems, which is, how does an ecosystem work? 
That salt marsh ecosystem outside of Bluffton is one of the 
most productive natural ecosystems on earth next to coral reef 
before they all started getting bleached by warming climate. 
That is an aside. And tropical rain forests. So these are 
important aspects of the ecosystems. Those systems are the 
nursery grounds for all of those shrimp that are either being 
caught on the South Carolina coast or the Texas coast or the 
Louisiana coast, all right, up to about Cape Haderous, North 
Carolina, all right, and all the way around to Corpus Christi. 
Those systems are where it happens. Those are the nursery 
grounds. And if we continue to pour nasty chemicals to 
interfere with the reproductive rate and the behavior of those 
particular organisms, we have a problem.
    The Extramural Program in the fiscal year 2008 budget for 
endocrine disrupter research in the data that we have does not 
exist.
    Mr. Inglis. And so, Dr. Gray, what is your response to 
that, the cutoff of external funding?
    Dr. Gray. Well, first, I want you to recognize that 
endocrine disrupting compounds is an important part of the ORD 
research portfolio, and I am glad that Dr. Coull was able to 
let you know that, in fact, it is one, well, he didn't let you 
know, it is one of areas of this budget where we actually ask 
for an increase from the fiscal year 2007 budget. It is an area 
that we take very seriously where we are doing work not only to 
help the program offices to better identify and, to identify 
and prioritize these compounds, including pesticides and other 
compounds, but we are also doing work that is directly relevant 
here. A situation in which we are working on the recent 
discovery of inter-sex fish in the Potomac River. You remember 
seeing questions about fish that appeared to have endocrine 
alterations or some sort of alterations of their secondary 
sexual characteristics, and we are working with our state 
partners, our regions to help work on that particular issue.
    Mr. Inglis. Now, what is, the Chairman is showing me some 
numbers here. He is showing a four percent reduction in 
endocrine inhibiter research.
    Dr. Gray. In the fiscal year 2007 President's budget we 
asked for $9.1 million. In the fiscal year 2008 President's 
budget we are asking for $10.1 million, a $1 million increase 
in EDCs.
    Chairman Lampson. This is the last, or it is a four percent 
decrease from the last enacted budget. According to our numbers 
here, this chart that I have indicates a four percent----
    Dr. Gray. We work from President's budget to President's 
budget, and in that case we actually are asking for $1 million 
more this year than we did last year.

                     External and Internal Research

    Mr. Inglis. Oh, I see. Okay. So that is based on the 
request, the President's request. I got you. Okay. So talk to 
me a little bit about the--I know I am over time but the 
difference between internal and external. Dr. Coull is a 
proponent of external research, and you are apparently 
preferring internal here in this case.
    Dr. Gray. Oh, no. First of all, I will tell you the 
research that we do, ORD is made up of about 1,900 people. At 
least 1,000 of them are scientists and engineers who are doing 
acts of science every day. And they are talented people. They 
are smart people.
    Dr. Coull. And they are very good, many of them, they are 
wonderful people. They do very good work.
    Dr. Gray. And they have a lot to do, and we do a lot of our 
science inside. We also do work with our partners in 
universities, our STAR Program that has been mentioned several 
times, Science to Achieve Results Program, is a very important 
way in which we take advantage of some of the best brains in 
the country to work on science that helps advance EPA's 
mission.
    Even in these fiscally-challenging times, we work hard, for 
example, to leverage that work. We are doing research in 
nanotechnology through our STAR Program, and we have actually, 
in that case we have partnered with other federal agencies, 
with the National Science Foundation, the National Institute of 
Occupational Safety and Health to increase the size of the pot 
that we can have for our STAR Programs. So it is a situation in 
which we have a very rigorous, very competitive system that 
brings in some of the best ideas from the universities around 
the country, and whenever we can, we look to leverage those 
funds to make sure that we have the greatest opportunity we can 
to draw on the kinds of smarts that Dr. Coull and his friends 
and colleagues and students can bring to us.
    Mr. Inglis. Thank you. Thank you, Mr. Chairman.
    Chairman Lampson. The numbers that I was sharing was from 
the document, this document that you all handed us, and in '06, 
the budget for--that was enacted by Congress was 10 million, 
$10.5 million, and the request is $10.1 million. So you, what 
you are basing yours on is what the President requested in '06, 
I guess, but what was actually enacted by Congress indicates 
that those numbers are different. So just for clarification.

                       Data Sources and Concerns

    If you will bear with me just one minute, let me get a 
couple questions in, and then we will go to you. Dr. Sass, in 
your testimony you refer to free or cheap data provided by 
regulated industries, several laws, Pesticide Law, Toxic 
Substances Control Act, are set up to mandate the provision of 
data by a regulated industry. EPA has the authority to require 
the production of data under those statutes. Should these 
systems be changed, or is this a problem of inadequate EPA 
staffing to review the quality of these data and sufficient 
peer review of the data provided?
    Dr. Sass. I mean, that is a good point. What you are saying 
is there are programs, particularly in the pesticide office, 
actually, where the regulated industry is obligated to supply 
data on the toxicity of its products and also under TOSCA the 
industry is obligated to provide any information it has, be it 
its own or not its own.
    No, I mean, I think that is great. I think the regulated 
industry should be contributing both its funds and its 
technical power to develop that kind of data and submit to the 
agencies. Our concerns are what you suggest, which is, A, when 
the Agency can't provide appropriate oversight, either because 
it doesn't have the internal resources, staff or time, or when 
it doesn't have the ability to actually get to the underlying 
data and really do a data quality check on that submitted data. 
Our other concern is that EPA in many cases, and the pesticide 
office is an example of this, relies wholly or predominantly on 
that submitted data, sometimes without really scrutinizing and 
incorporating more publicly-available data often from the peer-
reviewed literature and sometimes from its own sister agencies.
    So, for example, with atrazine, the pesticide office right 
now is relying on data that it has requested and been waiting 
for from the manufacturer, Cingenta, on water monitoring, but 
it isn't incorporating data from USGS on water monitoring of 
pesticides.
    Chairman Lampson. Thank you very much. Mr. Diaz-Balart, you 
are recognized.

                          Program Assessments

    Mr. Diaz-Balart. Thank you, Mr. Chairman. Thank you for 
this very important hearing. Dr. Gray, one of the issues that I 
constantly run into is, you know, government has a tendency to 
judge results by how much money we spent, not on actual 
results. One of the things that always comes to mind in a 
number of hearings that we have had in this Subcommittee and 
elsewhere is, for example, some of the Inspector General 
reports where they will come back, and they will tell us about 
EPA, particularly in some of the outside grants in a bunch of 
different areas where they really frankly don't have, EPA 
doesn't have a good handle as to if we are getting any results 
at all. We are spending the money for good-sounding things, but 
frankly, there is no way of telling, I am sure there are ways 
of telling, but we don't have any good data that tells us that 
we are actually paying for this, the actual studies as opposed 
to just good-sounding studies, and we are not getting the 
results.
    A couple of questions based on that. Is there a way for the 
EPA to get other players, your other partners and do you get 
other partners coming back to you with recommendations of where 
EPA can save money and can be more efficient? Is there a way to 
do that? Do you have a way that you can get that source? Does 
the, I don't know, the Science Advisory Board, come to you and 
tell you, hey, look, these are, there are some areas here that 
we think we can find some efficiencies, or is that something 
that is not accepted by the EPA? It is not solicited, or it is 
just not, you just don't get a lot of that, and that would be 
my first question.
    Dr. Gray. Well, within the Agency we are always looking to 
make sure that we are getting results for the resources that we 
are putting out, and I think that it is a place, especially if 
you look at the Office of Research and Development, one where 
we are pretty confident that the way in which we run our Grant 
Program, the way in which we integrate it into our intramural 
research program so that there is alignment between the work 
that we are doing and the work that we are asking folks in the 
university community to do, actually does come together and 
help us make a difference in the science that is used by the 
Agency.
    A great example of this is looking at National Ambient Air 
Quality Standards. We write what is called a, used to be called 
a criteria document. We now call it a science assessment for 
ambient air quality standards. The last one that was done for 
particulate matter, over 40 percent of the citations, the 
science that was used to support the ultimate decision that was 
made, came from work that was done by us or supported by us. So 
I am quite confident that, in fact, we do a good job.
    On these areas of efficiencies I will tell you that I don't 
know the exact name. The agency, in addition to its Science 
Advisory Board, does have a Financial Advisory Board, and these 
are folks from outside of the Agency who are there to help us 
think about the way in which we run the business of EPA, how 
can we do things well, how can we be more efficient. I could 
get you more information about that if you would like for the 
record.
    Mr. Diaz-Balart. Actually, I would, and if you have, if 
there is something that you have that kind of shows, you know, 
some results in different areas, I would like to have it. If it 
is something that even members of Congress can understand, it 
would be obviously helpful.
    Dr. Sass, you mentioned, for example, the clean air and 
mercury rule in your testimony and your concern over the 
Agency's ability to implement the CAMR adequately to lack of, 
and I don't know if I am misquoting you, you know, credible or 
reliable data. Should we wait to implement that or not because 
we don't have the reliable science or the reliable data? And 
should we work, should we not, should we wait, should we not 
wait?
    Dr. Sass. Well, I mean, my hope is that EPA is going to go 
ahead on the best data that it has. The complication of that is 
that the EPA plan is sort of a Cap and Trade Plan, and Cap and 
Trade makes the assumption that the pollutions are shared or 
distributed evenly. So if you remove it over here, you are 
really helping, you are reducing the whole pot of pollution let 
us say. Without being able to do sampling to look at whether 
there is mercury hotspots, particular areas that are 
particularly vulnerable because they have high exposures, for 
instance, around cold-fired power plants that release mercury, 
EPA is not going to know whether its Cap and Trade Program is 
actually effective. If you are reducing it in one area but on 
population is taking all the risks, then your National risk may 
go down, but your environmental justice issues, your 
populations at higher risk, remain at higher risk.
    So EPA should move ahead with the data it has, but it needs 
to do that hotspot monitoring so that it can measure the 
efficacy of its programs.
    Dr. Morgan. Do you mind if I--the other issue is that 
mercury, I mean, what was just said is absolutely correct. 
There are hotspots. But mercury is also a global pollutant, and 
a significant amount of the mercury that we see in this country 
comes from natural sources around the world and from power 
plants in China and similar sorts of things. And unfortunately, 
while the Agency does have a program to look at local and 
regional mercury issues, it doesn't have resources to try to 
understand the global mass balance of mercury, that is where it 
comes from, how it moves through the environment, where it ends 
up. And without that sort of fundamental scientific 
understanding, there is limits to just how far you can go and 
even to knowing whether the enormous amounts of money that 
power plants are going to be called upon and are being called 
upon to spend will always necessarily get the improvements we 
want. None of this is to say we shouldn't take action. It is to 
say, however, that there are important fundamental science 
issues that one really needs to underpin the development of 
regulation. Because absent that you could do things that were 
inefficient or counterproductive.
    Mr. Diaz-Balart. Mr. Chairman, if I may, thank you, sir. 
Thank you for your indulgence. I am not quite sure, but, I 
mean, am I hearing that we should or should not wait to 
implement? I am not quite sure if with that answer you are 
saying that we should wait to implement or we should not wait 
to implement. I am not quite sure.
    Dr. Sass. We should move forward with the data we have and 
then continue to collect the data we need.
    Mr. Diaz-Balart. And Mr. Morgan, let me just ask you this, 
because you pointed something about other countries. Is the 
United States the first country to require reduction of mercury 
emissions?
    Dr. Morgan. Well, mercury issues are serious all around the 
world, and I can't tell you in detail what the regulatory 
environment across the EU is, but I know there are similar 
concerns. But the other point is that one needs to 
differentiate between a scientific standard, I mean, in science 
you don't publish until you have, I mean, you try to avoid 
false positives, that is to suggest things that aren't there. 
But regulation is essentially a public health issue, and there 
you need to move when there is strong suggestive evidence, even 
if it isn't definitive because the point there is to be 
protective of human health. And so there is a clear difference 
between, you know, whether I should say something definitively 
scientifically, that is whether I can get it published in a 
journal, and whether the Agency should move on something when 
the evidence is sufficient to suggest there is a problem. Then 
it behooves the Agency to be protective.
    Mr. Diaz-Balart. I understand that, Mr. Morgan, but 
obviously, you know, that can sometimes be very, very, very 
controversial because there is always a cost associated with 
that but I understand where you are coming from.
    When I was listening to the Chairman, and I tend to agree 
with him about making sure that, Mr. Chairman, I am not 
paraphrasing what you said, about making sure that, you know, 
that there is input as much as possible, and again, I am not 
going to put words in your mouth, but I tend to agree with 
that, tends to be where you come from in a lot of cases.

               Integrated Risk Information Systems (IRIS)

    Let me ask you in regard to the IRIS process, Dr. Sass, and 
again, I don't want to put your words in your mouth either, but 
you seemed to be, I guess, a little bit frustrated for the lack 
of finalized assessments in the recent past and point to more 
opportunities for public comments as kind of like, I guess, you 
know, further slowing the pace. Could you explain if you are 
not in favor of more opportunity for public comment in that 
context, because I kind of, again, you know, with an open 
caveat there, tend to be a little bit apprehensive about not 
having as much open comment and, again, on a separate issue 
that I think the Chairman mentioned which is totally unrelated, 
but I just want to know what your comments are on that. Did I 
read that right? Did I understand that correctly?
    Dr. Sass. Especially, you might be confused because I am 
the one that is always commenting, too, so why wouldn't I want 
opportunities to comment. The IRIS Program, which is very 
important, I mean, it gets hits every month, it gets thousands 
of hits every month. I think 50,000 hits a month the last time 
I looked from almost 100 counties in the world every month, 
down actually in July and August, I have noticed. So it is 
incredibly important that, and the IRIS database is, does 
provide quantitative estimates of toxicity or hazard, and then 
you use that site specific in places to estimate exposure. And 
then when you know the toxicity and you know the exposure, you 
can do a risk assessment. So it is incredibly valuable all 
around the world. They are considered one of the gold standards 
of the world to be used. In the last few years they have only 
done somewhere between two and five finalized assessments every 
year. They have ongoing reviews and assessments, but they 
finalize only two to five. In the budget they actually promise 
finalizing eight a year. I don't know how they are going to do 
that, but I have talked to EPA staff who tell me they should be 
finalizing about 16 a year. What is the difference between 16 
and two to five? The difference is the delays that happen 
because of interference. I don't think it is oversight. I think 
it is interference. The reason why is there are built-in 
opportunities for public comment and for oversight, and there 
is built-in opportunities for OMB review, early and late, and 
there is built-in opportunities for interagency review already.
    In addition to those, they would now have, I think it is 
about three more rounds of this, and each one of those will add 
on about six months to a year or extend the process by six 
months to a year.
    Mr. Diaz-Balart. Mr. Chairman, will you indulge me in one 
last one? I thank you. You have been very generous.
    Chairman Lampson. Help yourself.
    Mr. Diaz-Balart. Thank you. When you mention, now, again, 
there is obviously a difference between input and interference. 
I understand that, and you are saying now three more 
opportunities or layers of interference, not of input, not of 
comment?
    Dr. Sass. At this point since everybody has had an 
opportunity to comment early, including OMB and the agencies 
and they get an opportunity later, then I would say the 
intervening several opportunities just become delay.
    Mr. Diaz-Balart. I think I would like to get an idea of 
what those are. If I, I don't know if Dr. Gray, if you can kind 
of get back with me or whenever, I mean, whoever can do that, 
it would be nice.
    Dr. Gray. Yeah. We are very proud of the process we use to 
develop our IRIS assessments. It is one of the reasons as Dr. 
Sass said, they are gold standard around the world, and we can 
get something to you.
    Mr. Diaz-Balart. Great. Thank you. And, again, thank you, 
Mr. Chairman, for----
    Chairman Lampson. You are very welcome.
    Mr. Diaz-Balart.--allowing me to go way over. Thank you, 
sir.
    Chairman Lampson. That is okay. Thank you. I did myself 
awhile ago, so I am glad I could pay you back. Mr. Lipinski, 
you are recognized.

              Funding Reductions for Great Lakes Research

    Mr. Lipinski. Thank you, Mr. Chairman. I am very glad that 
you all went over so much so I could get here in time to ask 
these questions.
    I want to start by talking about the Great Lakes and 
certainly the, over the last 20 years the discharge of toxic 
substances in the Great Lakes has been reduced, but we still 
have those high concentrations of contaminants in the bottom of 
the lakes and, you know, surrounding areas. And, of course, 
there are great concerns about this. As you know, there is 
advisories against fish consumption in most locations 
throughout the Great Lakes. Now, in order to address this 
problem, in 2002, Congress passed and the President signed into 
law the Great Lakes Legacy Act. My concern in this budget is 
that the budget request represents a reduction of $14 million 
from last year, from $49.6 million to $35 million for this, and 
I am concerned that the program is going to be significantly 
impacted by this decrease. So what is the reason for this 
significant cut?
    Dr. Gray. I assume that is a question for me.
    Mr. Lipinski. Yes.
    Dr. Gray. What I--and this question that you raise, for 
example, cleaning up sediments, is actually one of the priority 
areas for our, what we call our land research area. It is one 
of those things that were recognize is an ongoing question. It 
is not just in the Great Lakes. It is in a variety of parts of 
the country, both in fresh waters and marine waters. So this is 
something that we take very, very seriously, and we want to be 
part of the solution. The Office of Research and Development is 
about being part of the solution. We not only do the science to 
help identify potential problems as we have heard. We also do 
the science to find the solutions. We have a great group of 
engineers that helps us to get to the place where we can help 
clean up these situations.
    In the case of our budget, we are in a situation in which 
we have to set priorities, and we have before us a budget that 
helps us, that funds the high priority science that the Agency 
needs.
    Mr. Lipinski. So this is not a high priority then?
    Dr. Gray. No. We are funding it. I said this is one, this 
is something that we consider a high priority.
    Mr. Lipinski. You do consider it, and then, but a $14 
million cut is a significant amount from $49.6 million to $35 
million. Is this correct?
    Dr. Gray. I am honestly not sure what numbers you are 
talking about. Not knowing the budget I don't want to get 
numbers wrong, so I would be happy to get back to you.
    Mr. Lipinski. Okay. All right.
    Dr. Gray. For the record.

                        Nanotechnology Research

    Mr. Lipinski. Very good. Well, one thing that I am pleased 
to see is the ninety-one percent increase in the research on 
environmental implications of nanotech. I certainly have seen a 
lot and talked to a number of researchers. I believe that 
nanotech, it could possibly really be the next industrial 
revolution as it is, as the proponents say that it is. And so I 
am happy to see that we are putting more funding into 
researching the environmental implications of nanotech. I, you 
know, I don't know if there is any really negative 
environmental impact here, but it is something that I think we 
need to do more research on to know for sure and also so that 
the public, the public has some concerns over nanotech, and I 
think that also needs to be put to rest, if indeed it should be 
put to rest.
    Now, Dr. Gray or anyone else who wants to elaborate on 
this, talk about the current research agenda that the EPA has 
regarding nanotech.
    Dr. Gray. Well, I would certainly be happy to start there. 
I think this is a situation that is a great example of the way 
in which the Agency identified something kind of out on 
horizon, used our STAR Grant Program to begin research back in 
2001. We were funding research on nanotechnology back in 2001. 
As it has become more clear that this is an issue that we have 
to look at both from an application side, how can we use 
nanotechnology to clean up the environment, to make processes 
cleaner, to reduce waste, but also the implications. That is, 
are there potential health affects. We have increased our 
efforts here, and in fact, the funding that we asked for in 
this present budget is to bring some research in-house, to use 
our in-house scientists to help to address some key issues. And 
here what we have done, the National Nanotech Initiative across 
the Government is spending lots of money on nanotechnology. We 
have worked very hard to identify where it is that there is a 
nitch for EPA where our knowledge and our expertise can make a 
difference and where people aren't doing this research. And 
what you will see here is that our focus is on, for this, for 
the 2008 budget, on the fate and transport of nanomaterials in 
the environment. That is, what happens to them when they get 
out? We know that in some cases in some kinds of media, in 
water, they can glom up and become no longer nanomaterials. And 
then there are different kinds of risks. In other cases they 
may say dispersed, they may be able to travel long distances, 
and we are trying to understand that.
    In our STAR Program we continue to fund work in 
universities around the country looking at potential health 
implications of nanotechnology so that we can understand 
whether there are risks of this technology that we need to 
manage to get some of those benefits that you described.
    Mr. Lipinski. Thank you. Anyone else have any comments on 
that?
    Dr. Morgan. Yes. The SAB, the Science Advisory Board looked 
at this new program and is quite positive about it. It has made 
significant progress since we looked at it last year, and I 
would agree that understanding fate and transport is really 
quite important. At the same time we also expressed a concern, 
which is that if one approached the regulation of nanomaterials 
in the same way that we have approached say the regulation of 
chemicals, that is with extensive toxicological tests for each 
new particle type, we are going to get swamped. I mean, we have 
already been swamped with chemicals, because you can make new 
chemicals faster than you can run the toxicological studies, 
and if you think that is bad, material scientists can make new 
nanoparticles even more rapidly, and you know, if the molecule 
sticks out there or sticks out here, it can have very different 
toxicological properties.
    So the one thing we would hope the Agency starts doing as 
well is trying to figure out some new ways to frame and think 
about the regulatory problem, because the simple notion that 
every time I come forward with a new particle I am going to 
have to run the full set of animal toxicity tests and so on, I 
mean, that isn't going to work. And so while we are very 
positive about the fate and transport issue, it is a critical 
first step. There is an important second step that we have 
urged the Agency to take, and I think they have heard us but so 
far, you know, it is still a nascent program.
    Dr. Coull. The first research as I remember in nanotech in 
the EPA and nano environment came out of a program called 
Exploratory Research. This was an external extramural-funded 
program out to universities and colleges around the country. 
And it was from there as I remember that we saw the first 
implications and studies in this. The entire program in 
Exploratory Research, that is what kind of ideas are out there 
in this academic, intellectual, and or consulting world that 
are looking ahead in the future and seeing issues that are 
going to occur. I think the first, I am trying to remember the 
dates, and I don't have them exactly in my head, but it was in 
the late '90s where we saw nano-research, and then we now have 
an initiative on that, and that is great, and I am really 
supportive of that, and I think that is really important for us 
to do.
    But the whole concept of Exploratory Research, what is the 
problems? What are the problems in 2015, that we are going to 
be looking at, would be a really nice thing to see to let the 
intellectual, bright, young minds of the future have an input 
into these kinds of things. And we don't have that anymore at 
the ORD at EPA per se. It is all sort of prescribed and defined 
within certain categories; endocrine disrupters, nano, et 
cetera, et cetera.
    Mr. Lipinski. Thank you.
    Chairman Lampson. Mr. Inglis.
    Mr. Inglis. I want to follow up on Mr. Lipinski's line of 
questioning there about nanotechnology. In particular, Dr 
Coull, you mentioned earlier it is either the, you said the PCB 
of the future or the world saver. So back up and tell me a 
little bit about that so that I can understand how it could be 
the PCB.
    Dr. Coull. I think others have spoken to that issue. It is 
at what are the environmental consequences of this.
    Mr. Inglis. Right.
    Dr. Coull. And we don't know. Right? But are we going to 
make major breakthroughs and have stints that we can put, made 
out of nanoparticles that are going to save our lives from 
having heart attacks and things? We are starting to know about 
those things, but we don't know a lot about them either. And 
that is why I made that comment, is that those who are 
interested in nanotechnology to make new products to sell on 
the market are telling us that this is the best thing since, 
you know, traditionally sliced bread. But, you know, those of 
us who are concerned with the environment, where are those? You 
know, are they going to wind up in the sediments of the Great 
Lakes like the PCBs have done or in Charleston Harbor of the 
future, and I don't know the answer to that. And that is why I 
think we need research to look at what is the effect of these. 
There are colleagues, again, at USC and at the National 
Fisheries Lab looking at the effects of nano-tubuals on 
attracting contaminants and sediments. That is all I can tell 
you, and I don't know the results of their research, and that 
is funded by the STAR Program also.
    Mr. Inglis. Dr. Morgan, you had----
    Dr. Morgan. Yes. If I could just add something. I mean, we 
all talk about nanomaterials as though they are some uniform 
set of things. In fact, of course, it is an enormous 
heterogeneous bunch of stuff, and if I have put nanoparticles 
in paint on a new car to make it shiny, it is probably not 
going to pose any significant health risk because it is all 
bound up in a paint matrix. On the other hand, if I am 
producing mono-disperse sub-micron material that can penetrate 
the blood brain barrier to take a medication to the brain, then 
I have to worry a bit about whether it might do other things as 
well. And so it is a very complex domain, and you know, we need 
to be careful not to think about all of these topics as though 
they are exactly the same. I mean, I don't worry too much if it 
is embedded in the matrix of a paint, and I worry quite a bit 
if it is mono-dispersed, but as Dr. Gray said, one of the 
things you have to quickly understand is how these things 
behave in the environment. I mean, very fine particles in the 
atmosphere, this room is full of them, quickly adhere to larger 
ones, and so, you know, does the particle then retain its same 
properties when I inhale it? We don't know the answer in many 
cases, and that is why some basic research is important in this 
field as well as some applied research to support regulation.
    Mr. Inglis. Yeah, and Dr. Gray, you mentioned in your 
testimony, I believe, that you are comfortable with the 
research budget for the, I guess precisely what Dr. Morgan was 
just mentioning.
    Dr. Gray. Yeah. This budget gives us the resources we need 
in this case to look at nanotechnology and really to do it in a 
multi-pronged approach. We are still, much of your early 
research focused as several people have mentioned, on some of 
the potential environmental applications of nanotechnology, and 
there are some great examples. There are things being 
demonstrated using, in fact, at Carnegie Mellon, using zero 
valiant nanoparticles of iron to clean up chlorinated solvents 
that are contained in ground water. A great use of it. What we 
have done more and more is to focus on implications. That is, 
how do we understand what might be happening, what might be 
some adverse affects. We have had STAR Grant studies looking at 
the absorption through skin of these nanoparticles to help 
address some of these questions that Dr. Morgan raised, and 
then what we are doing now is bring some of this research in-
house to use our smarts. We have got great engineers who are 
very excited about this area, to understand what it means when 
these materials get out into the environment, how people might 
be exposed.
    So this budget gives us the resources we need to really get 
a great start on that.

                          Near Road Pollutants

    Mr. Inglis. Yeah. One other question, Dr. Gray. You 
mentioned the Air Pollution Near Roads Initiative. Tell me a 
little bit more about that. That is particular significant for 
those of us who have a non-attainment issue.
    Dr. Gray. This is something that, again, came out of some 
of the research that we have supported, primarily in the area 
of particulate air pollution. One of the big areas of focus in 
our clean air effort, one of the big parts of our STAR Program 
are particulate air pollution centers that we fund at 
universities across the country. And one of the things that has 
come out of some of the epidemiology there are hints that there 
may be differential risks around roadways, and so what we are 
doing is making sure that we start focusing our research, both 
the folks that we have got in ORD and the research that we are 
doing in our particle centers, to think about this near roadway 
exposure.
    And also then to think not only about how it happens but 
what the health affects might be and back to one of the things 
I think is important to remember that ORD does, what are some 
solutions that we might have.
    Mr. Inglis. Thanks, Mr. Chairman.

                           EPA Budget Request

    Chairman Lampson. Dr. Morgan, does the SAB find the EPA's 
annual budget presentation to Congress to be straightforward? 
Does the presentation provide a clear picture of what funds the 
Agency is requesting and the programs that are receiving 
increases and decreases?
    Dr. Morgan. We have trouble unscrambling the numbers from 
time to time as I suspect you may also. We got probably one of 
the better briefings this year from the Agency that we have had 
in quite awhile. We asked them to show us, and I think you held 
up the presentation that we got, where the budget had undergone 
significant decreases and increases. But, you know, there are, 
particularly this year with operating under a continuing 
resolution and the fact that it is really hard to know how in 
the current fiscal year the money is going to get allocated 
within or across programs, it has been a bit of a struggle.
    Chairman Lampson. Anyone else want to make a comment? I got 
a couple more questions but----
    Dr. Sass. I actually did my best analysis of the budget by 
looking at the presentation of ORD to the Scientific Advisory 
Board because there is no numbers associated with the different 
programs.
    Chairman Lampson. Dr. Coull.
    Dr. Coull. We had trouble understanding the budget.
    Chairman Lampson. Okay. A number of years, 10 years ago as 
a matter of fact I created the Congressional Caucus on Missing 
and Exploited Children. I have a lot of interest in children 
and child safety and issues, and while this doesn't have to do 
with a child abduction issue, it does have something to do with 
children's health and safety. Protecting the health of our 
children is important. It is an important part of EPA's 
mission.
    In your testimony, Dr. Gray, you state that EPA's ``Human 
health research funding will allow us to conduct research 
regarding the health risks of susceptible populations.'' But, 
in fact, the President is proposing to cut the funding to help 
protect children and the elderly by seven percent. Is that 
correct?
    Dr. Gray. Again, sir, I don't know exactly which line you 
are speaking to, so I don't know. If you have a more precise 
question, I would be happy to get back to you with budget and 
with the exact numbers.
    Chairman Lampson. It appears to me that it goes from $61.5 
million to $56.8 million, which is a decrease of $4.7 million.
    Let me ask Dr. Coull. In Dr. Gray's testimony he argues 
that, ``At EPA we are good stewards of our environment and good 
stewards of our nation's tax dollars.'' However, in your 
testimony you discussed many emerging new environmental threats 
including avian influenza, episodic diseases such as cholera, 
toxicants such as arsenic and mercury. Without additional 
research, could these emerging threats be expensive for the 
U.S. Government to address or contain? If we under invest in 
environmental research, are we being good stewards of our 
taxpayers' dollars, because will it not cost of through the 
nose in the future?
    Dr. Coull. Absolutely. Money spent upfront to know things 
is better than having to spend it after the gates. I mean, 
that, in the environmental world we call this the precautionary 
principle. We would like to have precaution on certain things 
that may be brought about by environmental change. Are we going 
to have palm trees in Maine? You know, that is not the same 
level of issues that you are talking about, but are we going to 
have malaria in Florida? And these are environmental issues 
related to global climate change.
    So certainly EPA cannot afford to do them now under the 
budget that I have seen for the last several years and the 
present budget. So that is, it will cost us more later than now 
to do this.
    Chairman Lampson. That is a huge concern. It should be a 
huge concern to all of us, and I hope it is to you as well, Dr. 
Gray, and I made my comments strongly earlier, and I feel very 
strongly about them. This is an agency that the people of the 
United States of America rely on, and we need to see that same 
kind of care and concern and particularly when our Congress, 
and these budgets have been pushed forth by a Republican 
Congress prior and signed by our Republican President. It is 
not about partisanship. I don't know whether my kids are going 
to grow up to be Democrats or Republicans, but I know that I 
want them to grow up to be healthy. And we do have that 
obligation. We are the stewards of their future. I don't feel 
like we are honoring that. So I would beg you to please go look 
again and do what Congress asks. That is why we have a 
procedure. And then if you don't agree with it, then come back 
and bring realistic information to us. I think it is a 
catastrophe for us to see the kinds of things that are 
happening right now and putting us in huge jeopardy for our 
future.
    And with that I will turn to the Ranking Member again.
    Mr. Inglis. I have no further questions, Mr. Chairman, and 
I thank the witnesses, though, for appearing.
    Chairman Lampson. Likewise. I thank you for your tolerance 
this afternoon, all of you for taking the time and for bringing 
your information up here. Your testimony indeed is helpful, and 
if there is no objection, the record will remain open for 
additional statements from Members and for answers to any 
follow-up questions that the Committee may ask of the witness. 
Without objection, it is so ordered, and we are now adjourned. 
Thank you all very much.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions

Responses by George M. Gray, Assistant Administrator for Research and 
        Development, Environmental Protection Agency

Questions submitted by Chairman Nick Lampson

EPA LABORATORY STUDY

Q1.  With respect to EPA's study of the laboratories infrastructure, 
you indicated in your response that ``. . .no laboratories will be shut 
down, and no scientists will be let go.'' The Congressional 
justification indicates the Administration is proposing to cut Total 
Work-years for Science and Technology from 2,433 in FY 2006 to 2,406 in 
FY 2008. Where are the cuts to the Science and Technology workforce 
coming from? Are there plans to reduce the administrative support staff 
of the laboratories? Is the Administration making plans to offer 
buyouts to any of the senior management, support, or scientific staff 
of the laboratories over the next two years? Please provide the 
section/s and page number/s in the Congressional Justification and/or 
the Strategic Plan that describes and discusses the Agency- wide study 
of EPA's laboratory infrastructure.

A1. The 27 work-year decline between FY 2006 and FY 2008 represents a 
one percent decline in workforce levels overall to the S&T account. A 
portion of the decline has occurred in each of the Agency's five 
strategic goals and in both the programmatic and administrative areas. 
The plan is to achieve all reductions through attrition, and a portion 
of the reductions in the administrative area reflects expected 
efficiency improvements. The study is briefly discussed in the 
Justification on page 82 of the Appendix.

Q2.  You mentioned the Agency is looking for opportunities to increase 
efficiency at the laboratories and used the Region One laboratory as an 
example. You indicated that the Region One laboratory found ways to 
reduce their energy use by 19 percent. Over what time period did the 
Region One laboratory achieve this reduction in energy use? What 
changes did they make to achieve these savings?

A2. The reduction in energy use of 19 percent cited in my testimony 
before the Committee reflected reductions achieved by the EPA Region 
One laboratory between fiscal years 2005 and 2006. If one looks at the 
reductions in energy use over a two year period, from fiscal years 2004 
to 2006, the reduction is an even more impressive 28 percent.
    When opened in 2001, EPA New England's laboratory received a LEED 
Gold Rating for its green design, in recognition of its energy 
efficient design, its active and passive solar power, its use of 
recycled materials in construction, and its environmentally-friendly 
landscaping. However, the laboratory has worked to do even better.
    Over the last two years, the EPA Region One laboratory in 
Chelmsford, Massachusetts reduced its energy consumption from 25,154 
million British thermal units (mmBtu) in fiscal year 2004 to 18,107 
mmBtu in fiscal year 2006, for a total reduction of 28 percent. The 
laboratory reduced its energy consumption by 11.2 percent in fiscal 
year 2005 (compared to 2004 levels) and an additional 18.9 percent in 
fiscal year 2006 (compared to 2005 levels). Using an average mmBtu cost 
of $26.60, the cost savings from these reductions were $187,451 in 
fiscal year 2006 alone.
    The Region One laboratory implemented a variety of building 
modifications and operational changes to achieve these reductions in 
energy use. The largest physical modification to the building was 
installation of 23 fan powered units, which were necessary to correct 
temperature imbalances in the building. This modification was funded 
entirely by the building owner, after pressure from EPA. This 
modification had no direct cost to EPA. The fans enhanced heat 
distribution in the perimeter offices, improving both temperature and 
energy efficiency.
    EPA did pay $41,372 for other modifications to the HVAC system. EPA 
had two goals in modifying the laboratory's HVAC system. The first 
priority was to assure availability of HVAC redundancy for the computer 
room, telephone switch room, and the UPS room. The second priority was 
to increase building efficiency. This was accomplished by connecting 
the primary facilities HVAC system to the previously mentioned rooms 
and using the original less efficient units for redundancy, in an 
emergency, should the house system fail.
    The Region 1 laboratory instituted several other changes in 
operation which did not have significant cost. During a routine 
operations maintenance audit in 2005, the laboratory discovered that 
its gas boilers were wasting energy by operating more pumps and motors 
than required to meet the building heating demands. The lab found that 
defective sensors were the problem and replaced them to increase system 
efficiency. In June 2005 the facilities staff began working with new 
on-site management to monitor HVAC performance on a daily basis and 
make adjustments to system set points according to outdoor air 
temperatures, actions which continue to improve efficiency and save 
energy.
    The facility manager worked closely with the property manager to 
modify the operation of the building in other energy-saving ways, 
including:

        <bullet>  Expanding night/weekend hours when lab and office 
        temperatures and air volumes are moderated in order to save 
        heating and cooling;

        <bullet>  Identifying analytical equipment and processes which 
        can be shut down when not in use and/or batch processed when 
        constant operation is not necessary;

        <bullet>  Manually adjusting chiller/heat supply temperature 
        and humidity controls relative to the demand due to seasonal 
        ambient temperature and humidity loads;

        <bullet>  Reducing illumination levels in common areas by 
        utilizing emergency and natural lighting only in building 
        hallways; and

        <bullet>  Conducting daily ``end of day'' laboratory and office 
        walk-throughs manually closing fume hoods and shutting lights.

    EPA hopes to achieve further energy savings at the Region One 
laboratory. In March 2007, EPA embarked upon a feasibility study to 
site a wind, solar or geothermal generation project at the laboratory.

Q3.  Has the Agency funded any workshops or meetings to solicit input 
to EPA's work in developing guidance or test protocols with the 
academic, public health, or public interest community similar to the 
International Life Sciences Institute sessions described by Dr. Sass in 
her testimony? If so, please provide a list of these meetings funded 
over the past five years and the amounts of funding provided for each 
meeting.

A3. EPA's professional staff takes full responsibility for drafting 
scientific guidelines, risk assessments, and similar documents. They 
draw on their professional training, the experience gained at EPA, 
advice from other professional colleagues, and publicly available 
scientific literature. EPA does not customarily organize meetings with 
external groups to solicit input on the development of its scientific 
guidance documents outside of the accepted Federal Advisory Committee 
Act (FACA) process. However, EPA has occasionally funded outside 
organizations to hold meetings on scientific topics that are related to 
the development of guidelines and risk assessment methodologies used in 
its programs. For example, EPA has supported:
Drinking Water Scientist-to-Scientist Meeting
    EPA invited representatives from other federal agencies, academia, 
industry/trade organizations, and environmental advocacy organizations 
to attend a meeting concerning the effects of drinking water treatment 
on organic pollutants. The meeting afforded participants the 
opportunity to describe current and planned research and models. The 
participants also discussed the direction of future drinking water 
treatment research, as well as how to use study results in the 
pesticide program's drinking water exposure assessments.
AOAC International
    AOAC International is a widely recognized, nonprofit standard 
setting organization. Among other efforts AOAC publishes methods 
related to testing the efficacy of antimicrobial pesticides; EPA 
requires studies using these methods to support applications for 
registration of antimicrobial pesticides with public health uses. The 
pesticides program has provided funding to AOAC to coordinate 
workshops, symposia, and roundtable discussions with interested 
stakeholders on modifications of existing methods and the development 
of new methods. In addition, AOAC has coordinated the recent, ten 
laboratory Three Step Method (TSM) validation to evaluate a new 
quantitative method for determining the efficacy of sporicides (for 
Homeland Security purposes).
International Life Sciences Institute (ILSI)
    ILSI is a nonprofit worldwide foundation whose mission is to 
improve public health through scientific advances. EPA has funded work 
through ILSI to develop science papers on issues related to human 
health. ILSI used the funds to support expert workshops that included 
scientists from federal agencies, international organizations, drug and 
chemical companies, academia, and nongovernmental organizations to 
review public literature and other available information on selected 
scientific topics. ILSI has focused on particular issues related to 
toxicology testing, exposure assessment, and identifying mechanisms of 
action, and on developing new tools and methods for risk assessment. 
The results of these efforts are a series of publications that appear 
in the peer reviewed literature. These projects are not done 
specifically for the benefit of EPA but are done to benefit the area of 
health broadly and are widely used nationally and internationally. ILSI 
does not work on specific chemical risk assessments or on regulatory 
policy papers for OPPTS.
Anthrax Interagency Expert Panel
    The panel comprises technical experts from numerous government 
agencies (DOD, FDA, EPA, etc.) who provide technical insight and advice 
on research goals related to test method development for select 
biological agents (anthrax and others). EPA provided funding to 
Tetratec for logistical meeting support (not technical support), 
including the compilation of meeting minutes, maintaining a webpage, 
etc.
World Health Organization (WHO) Workshop on Setting Acute Reference 
        Doses
    Along with other donors, EPA provided funding to the WHO to support 
the development of guidance concerning the derivation of benchmarks 
reflecting safe acute (one day or shorter) exposure levels for 
pesticides. The WHO formed a Working Group of senior scientists from 
various national pesticide regulatory organizations who met repeatedly 
to develop detailed guidance on the performance of acute risk 
assessments. The Working Group's efforts resulted in a lengthy document 
that eventually appeared as a publication in peer review literature.
Joint Meeting on Pesticide Residues (JMPR) Annual Meeting
    Along with other donors, EPA funds the World Health Organization 
portion of the annual meeting of the JMPR. The JMPR is an international 
expert scientific group jointly administered by the UN Food & 
Agriculture Organization and the World Health Organization. The annual 
JMPR meetings recommend Maximum Residue Levels (MRLs), i.e., the amount 
of a pesticide residue in food to which people may safely be exposed. 
Published information can be accessed through: http://www.who.int/ipcs/
food/jmpr/ Although EPA independently determines safe levels of 
pesticide residues in food and sets tolerances that apply to food and 
feed products in the United States, EPA considers relevant MRLs 
recommended by JMPR in its tolerance-setting process.
The EPA High Production Volume (HPV) Challenge Program Conference
    EPA funded a cooperative agreement with the Northeast Waste 
Management Officials' Association (NEWMOA) to conduct a National 
Conference on Characterizing Chemicals in Commerce: Using Data on High 
Production Volume Chemicals. The purpose of the conference, which took 
place December 12-14, 2006, was to educate a wide variety of 
stakeholders including federal/State agencies, international 
organizations, NGOs, academia, and industry about the EPA High 
Production Volume (HPV) Challenge Program, as well as other sources of 
chemical toxicity and environmental information; to share experiences 
of key stakeholders about the use of data made available by the EPA HPV 
Challenge Program, and to develop ideas on how to make sources of HPV 
chemicals information and other data user friendly, accessible, and 
relevant to a diverse audience. As a result EPA has received many 
comments and suggestions about EPA review of data quality and setting 
priorities for further work, and about making the HPV Information 
System easier to use.
The Perfluorooctanoic Acid (PFOA) Meetings
    In 2003, EPA initiated an enforceable consent agreement (ECA) 
process under section 4 of the Toxic Substances Control Act (TSCA) to 
generate information on the sources of perfluorooctanoic acid (PFOA) in 
the environment and the pathways leading to human and environmental 
exposures (68 FR 18626; April 16, 2003). Fifty-one organizations and/or 
individuals registered as Interested Parties to participate in the 
public negotiation process leading to the development of testing under 
ECAs that EPA signed with individual companies. A series of 16 public 
meetings ranging from one to three days in length were held at EPA 
Headquarters from June 2003 through June 2006 to provide a forum in 
which all the Interested Parties, including industry, environmental 
groups, government agencies, public utilities, public health groups, 
and others could participate in the drafting of two ECAs for 
incineration testing on fluorotelomers (70 FR 39624; July 8, 2005: 
available online in docket number EPA-HQ-OPPT-2001-0001 via ``Advanced 
Search'' on http://www.regulations.gov) and fluoropolymers (70 FR 
39630; July 8, 2005; docket number EPA-HQ-OPPT-2003-0071); provide 
input on the creation of two voluntary Memoranda of Understanding 
(MOUs) between EPA and industry for environmental sampling and 
monitoring at two fluoropolymer manufacturing facilities (EPA-HQ-OPPT-
2004-0112 and EPA-HQ-OPPT-2004-0113); and participate in discussions on 
method development and study design for telomer biodegradation and 
telomer and fluoropolymer aged article testing. The meetings were held 
in EPA Headquarters meeting space. The only cost concerned meeting 
support in the form of an EPA contractor recording the meetings for the 
purpose of preparing meeting summaries, which were entered into the 
PFOA ECA docket, EPA-HQ-OPPT-2003-0012, and distributed via e-mail to 
all meeting attendees, Interested Parties, and others expressing 
interest in following the topic. The initial meeting included the 
preparation of a full meeting transcript. Information on the meetings 
is available on the EPA's PFOA website at http://www.epa.gov/opptintr/
pfoa/meetings/meetings.htm and http://www.epa.gov/opptintr/pfoa/
meetings/pfoarchive.htm, and in the online PFOA ECA docket, EPA-HQ-
OPPT-2003-0012. The information obtained through the PFOA ECA process 
and through voluntary activities initiated as a result of this process 
will contribute to the EPA's ongoing risk assessment work on PFOA. EPA 
will seek SAB review on any final PFOA risk assessment document.
NPPTAC Nanoscale Public Meetings
    On June 23, 2005, EPA held a public meeting to solicit input on the 
potential development of a stewardship program to address various 
issues related to nanoscale materials under TSCA. This meeting was 
funded by the Office of Pollution Prevention and Toxics (OPPT), and 
included an electronic docket for submission of comments.
    As a result of the public meeting, the National Pollution 
Prevention and Toxics Advisory Committee (NPPTAC) was asked to develop 
possible courses of action for OPPT to address the potential issues 
related to nanoscale materials under TSCA. At their June 30, 2005 
meeting, NPPTAC established an Ad Hoc Work Group to take up the 
request. The Work Group held a public meeting September 29, 2005 to 
solicit comments on a potential voluntary program. In addition, the 
full NPPTAC held a public meeting October 13-14, 2005 as well as a 
public teleconference November 17, 2005 to finalize a document 
outlining elements of a voluntary program. This document was officially 
forwarded to EPA on November 22, 2005.
    On October 19-20, 2006, OPPT held a public scientific peer-
consultation to receive input on the risk management practices elements 
of the stewardship program being developed in response to public and 
NPPTAC input. Two more meetings--a public scientific peer-consultation 
on materials characterization and a public meeting on the stewardship 
program as a whole--are being planned for summer, 2007. EPA typically 
seeks public input from all interested stakeholders including FACAs.
Toxicology Excellence for Risk Assessment (TERA)
    This project, under a cooperative agreement with TERA, is the 
backbone of the Voluntary Children's Chemicals Evaluation Program 
(VCCEP): it provides a mechanism for peer consultation on VCCEP 
chemicals in which technical experts representing all stakeholders in 
VCCEP have an opportunity to discuss and comment on proposed risk 
assessments for chemicals of concern to children.

Q4.  Were any of the products of these meetings--guidelines or 
recommended research protocols--subject to review by the Science 
Advisory Board? What is the review process for the materials that 
emerge from these meetings?

A4. EPA works carefully to ensure that our documents and regulations 
are supported by strong, peer reviewed science, and we typically 
solicit input from our stakeholders, the public, and other federal 
agencies as we develop our materials. EPA has institutionalized formal 
mechanisms for reviewing its scientific work and evaluating it against 
the highest professional scientific standards and integrity. For 
example, the most influential scientific products are subject to 
independent, external peer review. These external peer reviews by 
experts like the Science Advisory Board in the various subject areas 
help ensure that EPA's science and research achieve defensible 
scientific results and quality.
    In addition, EPA welcomes any comments that are intended to 
strengthen the scientific underpinnings of the documents we 
disseminate. While EPA often solicits external expert advice on 
scientific issues and draft work products, EPA retains the 
responsibility for final determinations on risk analyses and other 
scientific findings, and their use in Agency decisions.

Q5.  GAO released a report in February 2005 in response to a request by 
Rep. Udall and Rep. Johnson of this committee. The report recommended 
that EPA ``develop formal policies for evaluating and managing 
potential conflicts of interest when entering into research 
arrangements with non-governmental organizations, particularly those 
that represent regulated industry.'' Please provide EPA's formal 
policies for evaluating and managing potential conflicts of interest 
produced in response to the recommendations by GAO in this report.

A5. EPA's formal policies for evaluating and managing potential 
conflicts of interest produced in response to recommendations made by 
GAO in their February 2005 Report are included as Attachment A.

Q6.  In your testimony, you indicated that the President's FY 2008 
request of $754.5 million for science and technology (S&T) is a 
significant increase over the 2007 enacted funding for science and 
technology programs. Does the $754.5 million figure include funding to 
support operations and maintenance for S&T facilities? If so, what is 
the amount of funding from the $754.5 million total that is allocated 
to this category of spending? Does the FY 2006 enacted total for S&T of 
$731 also include the funding to support operation and maintenance for 
S&T facilities? If so, what is the amount of funding from the $731 
million that was allocated to this spending category in FY 2006?

A6. Yes, the $754.5 million FY 2008 President's Budget Science & 
Technology (S&T) request includes $65.1 million for rent, security and 
utilities. Prior to FY 2007 direct laboratory rent, security and 
utilities for S&T-funded personnel were paid for through the 
Environmental Programs and Management (EPM) appropriation. Starting in 
the FY 2007 budget, EPA proposed shifting these resources from EPM to 
S&T to more accurately account for the overall costs for S&T personnel. 
EPA's overall funding is not changed, nor are any S&T programs reduced 
by this change. The restructuring is being phased in the FY 2007 
Enacted budget ($23.6 million) and would be fully implemented in the FY 
2008.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q7.  The National Academy of Sciences' report, Assessing the Human 
Health Risks of Trichlorethylene: Key Scientific Issues, was released 
in July 2006. The Committee found: ``. . .Thus the committee recommends 
that federal agencies finalize their risk assessment with currently 
available data so that risk management decisions can be made 
expeditiously.'' [emphasis added]

     It has been nearly one year since the NAS issued this report.

     When is EPA going to issue new health-protective standards for 
trichloroethylene under the Safe Drinking Water Act and other 
appropriate statutes that mandate containment and clean up of toxic 
substances?

A7. Pursuant to requirements in the Safe Drinking Water Act, EPA is 
currently reviewing existing national primary drinking water 
regulations for TCE and 72 other regulated contaminants. As part of 
this review, EPA analyzes new scientific and technological data and 
information on health effects associated with each regulated 
contaminant. If the Agency identifies a potential health or 
technological basis for a revision to the drinking water regulation, 
this would necessitate a series of follow-up analyses for potential 
regulatory revision. For example, EPA would need to conduct occurrence 
and exposure analysis, and evaluate available economic information to 
determine if changes to the standard are needed. EPA currently 
anticipates completing this review after the final revised risk 
assessment for TCE is complete.
    The final revised risk assessment for TCE represents a key piece of 
information that is needed for the Agency to complete its review of the 
drinking water regulation. EPA is considering the NAS report, along 
with previously submitted Science Advisory Board (SAB) and public 
comments and newly published research, to prepare a new draft TCE 
assessment. This draft assessment will be released for peer review as 
well as additional public review and comment and then finalized.

INTEGRATED RISK INFORMATION SYSTEM REVIEW PROCESS

Q8.  During the hearing Dr. Sass indicated that finalizing chemical 
assessments for inclusion in the Integrated Risk Information System 
(IRIS) data base was very slow and that it has become slower due to 
additional review procedures.

Q8a.  Please provide the current procedure for informal and formal 
reviews of a chemical assessment from the point where the initial DRAFT 
assessment is produced until the assessment is finalized. Include all 
opportunities for internal, external (e.g., formal peer review and 
public comment), and interagency reviews that are now part of this 
process.

A8a. EPA's current process for developing chemical health assessments 
that ultimately are posted to EPA's IRIS database consists of: (1) an 
annual Federal Register announcement of EPA's IRIS agenda and call for 
scientific information from the public on selected chemical substances; 
(2) a comprehensive search of the current scientific literature; (3) 
development of draft IRIS health assessments utilizing EPA's risk 
assessment guidelines and state-of-the-art scientific methods; (4) 
review within EPA; (5) interagency review; (6) independent external 
peer review and public review and comment; (7) public external peer 
review meeting; (8) preparation of final IRIS documents based on 
independent expert review and public comment; (9) interagency review; 
(10) final EPA review and clearance; and (11) posting of completed IRIS 
assessments on to the database.
    EPA is continuing to build and update the IRIS database by 
addressing the foremost user needs, as expressed within EPA, by other 
federal agencies, and by the public. EPA will also work toward updating 
the assessments in the IRIS database where new scientific information 
is sufficient.

Q8b.  Indicate which of the steps is constrained to a specific time 
period (e.g., public comments for 60 days).

A8b. At this time, the only step in the health assessment development 
process that is constrained to a specific time period is public review 
and comment. EPA's current process calls for at least one opportunity 
for public review and comment on each draft health assessment. This 
comment period, which is announced to the public via a Federal Register 
notice, ranges from 30 days to 60 days depending on the complexity of 
the assessment and the level of stakeholder interest in what is 
recognized as a high profile assessment. Generally, EPA times the end 
of the public comment period so that it ends one to two weeks prior to 
the peer review meeting. Then, prior to the peer review meeting, all 
comments submitted to the Agency by the close of the public comment 
period are provided to the members of the peer review panel for their 
pre-meeting review.

Q8c.  Indicate the agencies that are involved in any interagency review 
process and the nature of their role in the process.

A8c. The agencies involved in any interagency review process for any 
particular chemical depends on the chemical itself and an individual 
agency's interest in that chemical. The Office of Management and Budget 
(OMB) coordinates and participates in the interagency review process. 
The interagency group may consist of representatives from the: Office 
of Science and Technology Policy (OSTP), Council on Environmental 
Quality, Department of Health and Human Services (HHS) [including 
representation from the Agency for Toxic Substances and Disease 
Registry (ATSDR), Centers for Disease Control and Prevention (CDC), 
National Institutes of Health (NIH), National Institute for 
Environmental Health Sciences (NIEHS), National Institute for 
Occupational Safety and Health (NIOSH) and Food and Drug Administration 
(FDA)], Department of Defense (DOD), Department of the Interior (DOI), 
Department of Labor (DOL), National Air and Space Administration 
(NASA), Department of Energy (DOE), Department of Transportation (DOT) 
[including representation from the Federal Aviation Administration 
(FAA)], Department of Agriculture (USDA), and the Consumer Product 
Safety Commission (CPSC).

Q8d.  Indicate the points in this process that the Office of Management 
and Budget, the Office of Science and Technology Policy, and any other 
White House office or committee are involved in the formal or informal 
review of the assessment and the nature of their role in the process.

A8d. OMB is involved in steps 5 and 9 of the review process described 
in the response to question (a) above. In step 5, EPA provides to OMB 
the draft health assessment and the draft charge to the external peer 
reviewers. OMB distributes these draft documents to the others in the 
interagency group for review and comment. EPA then revises the draft 
health assessment and charge, as appropriate, to respond to the 
comments. After interagency review is completed, the draft assessment 
is released for public comment and begins independent peer review. In 
step 9, after peer review is complete and EPA has addressed comments 
from the independent peer reviewers and the public, OMB and the other 
federal agencies are again provided the draft assessment for review. 
This provides an opportunity for OMB and the other federal agencies to 
review any changes by EPA arising from external peer review comments. 
After step 9 is completed, the final assessment is publicly released by 
inclusion on IRIS.

Q8e.  What is the maximum, minimum, and average time required to 
complete this review process for a chemical assessment?

A8e. EPA, in cooperation with an interagency group, is reviewing the 
Agency's development process for health assessments that will be posted 
on IRIS. Thus, the review process is evolving. The current process, 
however, as described above, in which EPA sends draft health 
assessments for interagency review at two points in the process [prior 
to external peer review (Step 5) and before posting on IRIS (Step 9)] 
has been followed for over a year. As this review process has 
developed, several assessments (e.g., toluene, n-hexane, and phosgene) 
were completed and posted on IRIS. EPA will be happy to provide updated 
information as more assessments are finalized. In addition, the Agency 
has developed annual goals of completing 16 health hazard assessments 
of high priority chemicals for interagency review or external peer 
review and posting eight finalized assessments on the Internet.

HUMAN HEALTH

Q9.  The Agency's proposed budget in FY 2008 for human health risks of 
susceptible populations is reduced by $4.7 million as compared to the 
FY06 enacted funding. What specific research projects or activities 
will be eliminated to accommodate the proposed reduction in funding for 
research in this area?

A9. The reduction includes a redirection of some resources to support 
higher priority research in several areas, such as Clean Air, Human 
Health Risk Assessment (HHRA), and Sustainability. While no major 
programs will be eliminated by the reduction, some lower priority 
research will be impacted. EPA will continue to fund critical core 
research to address health risks of susceptible sub-populations, (such 
as mechanistic work, aggregate and cumulative risk assessments, and the 
Children's Environmental Health Centers) and will meet critical 
performance commitments.

INTEGRATED RISK INFORMATION SYSTEM

Q10.  In her testimony, Dr. Sass listed several types of information 
that are not being included in the current postings of chemical 
assessments on the IRIS data base listed within the past year or two: 
acute risk values and summaries of the assessments. Dr. Sass also 
indicated that EPA's supplemental cancer guidelines providing for 
consideration of children's exposure has not been applied to the posted 
assessment on ethylene oxide. Dr. Sass attributes these features of 
recently posted chemical assessments on the IRIS data base to decisions 
of the Office of Management and Budget.

Q10a.  Why have acute risk values been excluded from the recent IRIS 
assessments?

A10a. Acute risk values have not been part of traditional IRIS 
assessments. The IRIS database is focused on health effects from 
longer-term exposures. Other federal agencies, such as the Agency for 
Toxic Substances and Disease Registry (ATSDR), develop values for less-
than-lifetime exposures. EPA also supports the development of Acute 
Exposure Guidance Levels or AEGLs (http://www.epa.gov/opptintr/aegl/
pubs/process.htm) and Provisional Assessment Levels or PALs (http://
www.epa.gov/NHSRC/news/news062906.html) for short-term exposures. 
Additionally, EPA began a pilot effort in 2003 to evaluate the 
application of methods, procedures, and resource needs for deriving 
less-than-lifetime exposure duration values. This effort focused on 
some ``pilot'' chemical as part of this methods development effort.

Q10b.  Why don't the recently posted chemical assessments on the IRIS 
data base contain summaries?

A10b. When an IRIS assessment is completed, EPA's practice is to post 
the final toxicological review document and IRIS summary after external 
peer review is completed.
    In addition, EPA is in the process of enhancing the IRIS system by 
employing new electronic technologies, making the system more useful to 
users. The current format for IRIS is dated and relies heavily on text 
instead of an integrated and interactive approach to displaying the 
risk information in IRIS. The direction we're heading is to move the 
IRIS database into the 21st century by revising the format of the 
summaries to utilize hot links to the appropriate discussions in the 
toxicological review documents. This will enhance the information 
transfer to users and eliminate redundancy in the current system.

Q10c.  Have the supplemental cancer guidelines providing for 
consideration of children's exposure been followed in the preparation 
of the IRIS listing for ethylene oxide in the toxicological review and 
in the summary assessment? If not, why not?

A10c. The external review draft of the Evaluation of the 
Carcinogenicity of Ethylene Oxide (EPA, August 2006) follows the 
Agency's 2005 Supplemental Guidance for Assessing Susceptibility from 
Early-Life Exposure to Carcinogens. The assessment draft concludes that 
``Because the weight of the evidence supports a mutagenic mode of 
action for EtO carcinogenicity, and in the absence of chemical-specific 
data on early-life susceptibility, increased early-life susceptibility 
should be assumed and, if there is early-life exposure, the age-
dependent adjustment factors (ADAFs) should be applied, as appropriate, 
in accordance with EPA's Supplemental Guidance for Assessing 
Susceptibility from Early-Life Exposure to Carcinogens. . .'' (p. 2, 
line 18-23).

Q10d.  What information does the Agency use to decide when and how the 
supplemental cancer guidelines providing for consideration of 
children's exposure will be applied in the development of chemical 
assessments posted on the IRIS data base?

A10d. The Agency considers chemical-specific data (from humans or 
animals) demonstrating increased early-life susceptibility to cancer. 
If no such data are available but the chemical has been determined to 
be carcinogenic by a mutagenic mode of action, then the default factors 
supplied in the Supplemental Guidance are used to estimate risk 
corresponding to children's exposure.

Q10e.  What role has OMB played in determining the type and scope of 
information to be included in chemical assessments included in the IRIS 
data base?

A10e. EPA is the author of chemical assessments included in the IRIS 
data base and EPA determines the type and scope of information that 
will be included in the assessments. However, EPA does make revisions 
to draft documents based on public comments, peer review comments, and 
comments from interagency review, including comments from OMB.

Questions submitted by Representative Ralph M. Hall

BOARD OF SCIENTIFIC COUNSELORS

Q1.  I understand that in addition to working with the Science Advisory 
Board (SAB) you also work closely with the Board of Scientific 
Counselors (BOSC). Please describe the BOSC and how it assists with 
improving the efficiency of your efforts.

A1. The BOSC was established by the U.S. Environmental Protection 
Agency (EPA) in 1996 to provide advice and recommendations about the 
Office of Research and Development (ORD) research program. It is one of 
approximately 25 Federal Advisory Committees at EPA. Since the BOSC is 
a Federal Advisory Committee, it must comply with the Federal Advisory 
Committee Act (FACA) (5 U.S.C. App. C) and related regulations. 
Consequently, the BOSC has an approved charter, which must be renewed 
biennially, announces its meetings in the Federal Register, opens its 
meetings to the public, and provides opportunities for public comment 
on issues before the Board.
    The BOSC members constitute a distinguished body of scientists and 
engineers who are recognized experts in their respective fields. The 
BOSC currently has 14 members, and they meet three to five times each 
year. BOSC members are Special Government Employees (SGEs), and are 
required to complete ethics training and an extensive confidential 
disclosure form (3110-48) that is reviewed for potential conflicts of 
interest, and approved by the Designated Federal Officer (DFO) and 
Designated Agency Ethics Official prior to commencing any work for the 
BOSC. The BOSC provides advice and recommendations to ORD on:

        <bullet>  science and engineering research, programs and plans, 
        laboratories, and research-management practices of ORD

        <bullet>  ORD's program development and progress, ORD's 
        research planning process, and research program balance

        <bullet>  peer review, including evaluation of ORD's peer 
        review policies, and review of ORD Offices, National 
        Laboratories and Centers, and research plans and products

        <bullet>  human resources planning, such as scientist career 
        development and rotational assignment programs, and the 
        appropriate scope and design of training programs for 
        environmental research professionals.

    With the approval of EPA, the BOSC Executive Committee establishes 
subcommittees for any purpose consistent with the BOSC's charter. 
Subcommittees have no authority to make decisions on behalf of the 
BOSC, nor can they report directly to EPA. Subcommittees may not work 
independently of the chartered Executive Committee, and must report 
their recommendations and advice to the BOSC Executive Committee for 
full deliberation and discussion. ORD has been implementing periodic 
independent expert retrospective/prospective reviews of the relevance, 
structure, performance, quality, scientific leadership, coordination 
and communication, and outcomes of each of its research programs since 
2004, and is using BOSC subcommittees as the independent expert review 
mechanism for these reviews.
    An ORD representative serves as the DFO for the BOSC Executive 
Committee and each Subcommittee, coordinating all of their activities 
and related administrative activities. Current BOSC members, 
activities, and copies of BOSC meeting minutes and reports are 
available at www.epa.gov/osp/bosc.
    Although the ``efficiency'' of ORD research is not explicitly 
addressed by the BOSC reviews of ORD programs, it is implicitly 
addressed by asking the BOSC to comment on whether ORD is doing the 
right science, doing the science right, satisfying client/stakeholder 
needs, and achieving needed outcomes in its reviews. The BOSC 
recommendations help ORD to: plan, implement, and strengthen its 
programs; compare the program under review with programs designed to 
achieve similar outcomes in other parts of EPA and in other federal 
agencies; make research investment decisions over the next five years; 
prepare EPA's performance and accountability reports to Congress under 
the Government Performance and Results Act; and respond to evaluations 
of federal research, such as the Performance Assessment Rating Tool.
    Between 2004 and 2006 the BOSC conducted program reviews and issued 
reports for the following ORD research programs: drinking water, 
particulate matter and ozone, ecology, human health, endocrine 
disrupting chemicals, water quality, land, and global change. Each of 
these reviews has provided valuable advice for improving ORD research. 
ORD plans to continue periodic retrospective/prospective analysis of 
its research programs at intervals of four to five years, and sees the 
BOSC reviews as an important feedback mechanism for how well ORD is 
conducting its research, responding to client needs, and achieving 
outcomes.

NEAR ROAD ENVIRONMENT RESEARCH

Q2.  You mentioned in your testimony vehicle emissions in the near road 
environment. What are your plans with near road environment research 
and how do you plan on reducing public exposure to air pollution?

A2. A growing number of health studies have identified an increase in 
the occurrence of adverse health effects, including respiratory 
disease, cancer, and even mortality, for populations living near major 
roads.\1\ These initial reports have raised concerns about the siting 
of schools near roadways, the quality of indoor air in existing schools 
near roadways, and the general health impacts on people living near 
roads. Additionally, recent studies assessing the health impacts of 
airborne particulate matter have shown a source signal (e.g., copper, 
nitrogen oxides, or engine or brake metals) associated with roadway 
traffic.
---------------------------------------------------------------------------
    \1\ For more details, see:

  Peters A, von Klot S, Heier M, Trentinaglia I, Hormann A, Wichmann 
HE, Lowel H. (2004). Exposure to traffic and the onset of myocardial 
---------------------------------------------------------------------------
infarction. N Engl J Med. 351(17):1721-30.

  Kim JJ, Smorodinsky S, Lipsett M, Singer BC, Hogdson AT, Ostro B. 
(2004) Traffic-related air pollution near busy roads: the East Bay 
Children's Respiratory Health Study. American Journal of Respiratory 
Critical Care Medicine 170:520-526.

  Gauderman WJ, Avol E, Lurmann F, Kuenzli N, Gilliland F, Peters J, 
McConnell R. (2005) Childhood asthma and exposure to traffic and 
nitrogen dioxide. Epidemiology 16(6):737-743.
    EPA plans to evaluate the impact of roadways on health risk by 
conducting research following the paradigm of ``source to ambient air 
to exposure to health outcome'' in an attempt to rank this medium in 
the hierarchy of emission sources associated with air pollution. 
Comprehensive studies are planned in collaboration with the Federal 
Highway Administration over the next four years in Las Vegas, Detroit 
and Raleigh--each representing distinct, representative meteorological 
and topographical environments and traffic situations. Initial studies 
will include: near-road emissions (diesel and gasoline), distance from 
road measurements, development of local-environment dispersion models, 
and assessment of low-cost mitigation strategies in indoor school 
environments. This effort will expand beginning in Detroit to include 
the broader significance of near-road emissions in the context of 
multiple other sources and more specific personal exposure assessments 
on people and potential health impacts. In addition to assessment of 
roadway exposures as a health risk, specific information as to 
potential measures for mitigation of exposures (through the use of 
barriers and horticulture, changes in building ventilation, etc.) and 
tools for addressing the problem (through models that suggest altered 
traffic flow or road and urban design) will be developed.

EPA Libraries

Q3.  In her testimony, Dr. Sass, from the Natural Resources Defense 
Council, mentioned that EPA had not finalized digitizing documents 
housed in EPA libraries on schedule. Please clarify the current 
situation in regard to the libraries and digitizing of documents. Also, 
please describe any plans (including timelines) EPA has for closing its 
libraries.

A3. The Agency has met its commitment to digitize all unique EPA 
documents held by the Regions 5, 6, and 7 libraries and the OEI-run 
Headquarters Library by January 31, 2007.
    EPA plans to complete digitization of unique EPA documents in other 
libraries by the end of fiscal year 2008.
    EPA has no plans to close other libraries.

Questions submitted by Representative Daniel Lipinski

Q1.  The Administration's FY 2008 budget request for the Great Lakes 
Legacy program represents a reduction of $14 million from FY 2006 
enacted funding (from $49.6 million to $35 million). I believe this 
cutback will hamper efforts to address persistent high concentrations 
of contaminants in the bottom sediments of rivers and harbors that 
represent a risk to aquatic organisms, wildlife, and humans. Two of 
these ``areas of concern'' (AOCs) are located near the Chicagoland area 
and my district. What degree of contaminated sediment remediation has 
been accomplished by this program since it became law five years ago? 
What is the anticipated date that remediation of these areas will be 
completed? How will the program be impacted by this proposed budget 
cut? What activities will be discontinued to achieve the $14 million 
reduction in funding for this program?

Q1a.  What degree of contaminated sediment remediation has been 
accomplished by this program since it became a law five years ago?

A1a. The program first received funding in FY 2004. Since then, the 
program has remediated 250,000 cubic yards of contaminated sediments at 
three completed sites in three Areas of Concern. Project Agreements 
have been signed for two additional sediment remediation projects which 
are expected to remediate an additional 640,000 cubic yards of 
contaminated sediments (Ashtabula River, Ohio, and Tannery Bay, Sault 
Ste. Marie, Michigan). These two projects are underway and are 
scheduled to be completed by the end of 2007.

Q1b.  What is the anticipated date that remediation of these areas will 
be completed?

A1b. U.S.EPA has received proposals for Legacy Act funding for 
remediation of sites within Waukegan Harbor and Grand Calumet River 
Areas of Concern. We will be able to estimate a remediation date for 
projects in these Areas of Concern if the projects score favorably and 
are selected for funding, in accordance with the Great Lakes Legacy Act 
implementation rule. The Great Lakes Program works with the full gamut 
of enforcement and regulatory programs in the 30 remaining Areas of 
Concern (including the Waukegan and Grand Calumet AOCs), along with the 
Great Lakes Legacy Act to find solutions to addressing the remaining 
problems in the AOCs. Specifically, we are working closely with the 
Illinois EPA, the Illinois DNR, the Indiana Department of Environmental 
Management, and the Indiana DNR to find solutions to the remaining 
problems at Waukegan and the Grand Calumet River.

Q1c.  How will the program be impacted by this proposed budget cut?

A1c. If the President's budget is enacted, the Legacy Act program will 
actually receive an increase of about $5 million over the FY06 enacted 
level, for a total of $35 million.

Q1d.  What activities will be discontinued to achieve the $14 million 
reduction in funding for this program?

A1d. See #1c. If the President's budget in enacted, no activities will 
be discontinued.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions

Responses by M. Granger Morgan, Chair, Environmental Protection Agency 
        Science Advisory Board

Questions submitted by Chairman Nick Lampson

Q1.  You indicated in your testimony and in response to subsequent 
questions that EPA's proposal for increased research on nanomaterials 
was improved and that a focus on fate and transport research is 
important. Last year the Wilson Center released a report indicating 
that there are already a number of products on the market that contain 
nanomaterials, and EPA has made some determinations under the Toxic 
Substances Control Act (TSCA) that several nanomaterials are 
substantially similar to existing chemicals and therefore has not 
required testing of these substances. Did the SAB evaluate the 
nanomaterials research program in relation to its ability to deliver 
information to support decisions that EPA is now making under TSCA and 
future decisions the Agency may be required to make under other 
environmental statutes? Is the proposed level of funding and the scope 
of the program sufficient to support both EPA's regulatory mission and 
an exploration of future questions that may arise related to 
nanomaterials?

A1. As indicated in my testimony, and our written report on this issue, 
this year, the SAB focused on a strategic review of ORD's research 
program. Thus, we did not look at the details of each ORD research 
program, for example, the nanotechnology research program in relation 
to TSCA. Thus, our responses reflect what I believe to be strategic 
advice to EPA on its research programs, especially as its program 
components relate to each other and become parts of an integrated 
overall research program. My response to this question, and the other 
questions below, should be considered in recognition of this larger 
view.
    It is tempting to think of nanomaterials as just another form of 
chemical substance that needs to be evaluated with classic 
toxicological testing before it is used in settings that might involve 
exposure to people or the environment. However, for several reasons it 
is not appropriate to think about most nanomaterials in this way.
    Nanoparticles may undergo substantial transformations once they 
have been introduced into the environment. For example very small (sub-
micron) particles rather quickly stick to larger particles. In addition 
one must ask:

        --  What sorts of chemical and physical transformations might 
        the material undergo?

        --  What will happen to any ``external coatings'' that may be 
        applied?

        --  What will be the degradation processes and what sorts of 
        other materials will result from those processes?

        --  How will the electrical properties of some particles impact 
        living cells?

    When we said we were pleased to see EPA/ORD undertaking research on 
fate as well as physical and chemical transformation in the environment 
(and presumably in the future in living organisms), it was because 
without an adequate understanding of the answers to such questions, it 
will be difficult for EPA to develop an appropriate science-based 
approach to the regulation of these materials.
    However, if the agency were to apply classical toxicological 
testing to evaluate nanomaterials it seems likely that those classic 
toxicological testing procedures would rapidly become overwhelmed. 
Existing laboratory capacity is already over-taxed by such testing for 
chemicals and the situation for nanomaterials could be far worse. For 
example, it is entirely possible that without changing the chemical 
properties of a particle, minor topological changes (for example, 
whether a specific string of molecules protrudes on the left or right 
side) could have profound toxicological or other effects.
    I believe that in addition to its work on fate and transport, we 
face an urgent need to develop new thinking about how to approach the 
task of regulating such materials. To date, there has been little 
progress made by EPA, or anyone else, on this issue. The problem is 
probably best addressed by broadly engaging the thinking of many smart 
people both inside, and especially outside, the Agency.
    You specifically asked:

        --  Did the SAB evaluate the nanomaterials research program in 
        relation to its ability to deliver information to support 
        decisions that EPA is now making under TSCA and future 
        decisions the Agency may be required to make under other 
        environmental statutes?

        --  Is the proposed level of funding and the scope of the 
        program sufficient to support both EPA's regulatory mission and 
        an exploration of future questions that may arise related to 
        nanomaterials?

    The answer to the first part of your question is that with the 
program's very limited scope and funds, even if it were to focus 
entirely on assessing the toxicity of specific new products or 
materials now under regulatory review, as is the common practice under 
TSCA, it would never be able to develop the more fundamental insights 
and understanding needed to support development of efficient science-
based regulation in the longer-term. If one wants the program in ORD to 
do both, then a substantially expanded level of support will be needed.
    The answer to the second part of this question is ``no.'' While the 
current funding supports a modest program of research to improve our 
understanding of the fate, as well as the physical and chemical 
transformation of these materials in the environment, it is far too 
small to address all the important issues, and it does not currently 
support the broader extramural effort I suggest above that is needed to 
develop new and efficient ways to address the regulatory challenges 
these materials pose.

Q2.  Dr. Morgan, was the SAB briefed by the Agency on any plans to 
study, reduce funding for, or consolidate EPA's laboratory personnel, 
operations or infrastructure? Was the SAB ever asked by EPA to consider 
or evaluate their plan to consolidate EPA's libraries and restructure 
their service delivery to Agency employees and the public?

A2. The SAB was not briefed on any plans to consolidate EPA's 
laboratory infrastructure. However, it has been clear for over 20 years 
that EPA's research funding was at best flat and as I stated in my 
testimony this year and last, the EPA research budget is now being 
significantly decreased. The Agency has been open about these cuts but 
has maintained, as it must in budgeting, that it can still do important 
research. Our current and past comments recognize that continuing cuts 
to research resources, coupled with a desire to maintain an intramural 
staff of EPA experts, will diminish the resources associated with those 
things actually needed to conduct research (i.e., equipment, supplies, 
and appropriate laboratory facilities).
    The SAB was not briefed on EPA's library plans, though the issue 
was raised by SAB members during the FY 2007 research budget review 
meeting. ORD representatives noted at that time that libraries were 
managed outside their office and thus were not in their control.

Q3.  In your testimony you state that it is important to consider land 
use, soil and water issues related to development of biomass as an 
energy source. Is EPA factoring these considerations into their 
research on biomass energy?

A3. The materials provided to the SAB to support its review of EPA's 
strategic research directions and the EPA FY 2008 research budget 
suggest that biomass energy is just beginning to make its way onto the 
research agenda. The SAB stated on page 8 of its report of March 13, 
2007:

         ``Many of the responses to global change may also have impacts 
        that should be studied so that they can be understood and plans 
        can be made to manage them appropriately before they arise. For 
        example, while biomass fuel holds the potential to drastically 
        limit future net CO<INF>2</INF> emissions to the atmosphere, it 
        will require vast amounts of land and may have important 
        impacts on ecosystems, on soil degradation, and on water 
        quality and water demand. These fuels can also yield different 
        combustion products that will present changing concerns for air 
        quality. While some of these issues now appear to be on the 
        agenda of the new sustainability initiative, they have yet to 
        be addressed in a serious way, or integrated with the global 
        change research program.''

Q4.  The FY 2008 Budget again proposes to eliminate funding for its 
technology verification programs, the Superfund Innovative Technology 
Evaluation (SITE) program and the Environmental Technology Verification 
(ETV) program at EPA. Should EPA continue to have these programs or is 
this something the private sector can do on its own as Dr. Gray 
suggested in his testimony?

A4. Dr. Gray's assessment of the need for future federal support of 
these programs seems to reflect the difficult choices that ORD must 
make in allocating scarce and declining resources to develop the 
scientific knowledge to support EPA's mission. I have consulted on this 
issue with Dr. Michael McFarland, Chair of the SAB's Environmental 
Engineering Committee, and we offer the following personal opinion 
based on what we know of SITE and ETV.
    The Agency plays a critical role as an honest broker in both the 
SITE and ETV programs. Environmental technology evaluation and 
verification can, in principle, be conducted within the private sector. 
However, results from these activities are often fraught with consumer 
concerns including the possibility of technical inaccuracies, 
unbalanced testing methods, inadvertent or deliberate bias and possibly 
even outright fraud.
    The overt presence of the Agency within the technology evaluation/
verification process lends an important degree of credibility to the 
marketplace. In other words, we believe that consumer confidence is 
much higher when the Agency is known to be involved with the 
development, implementation and assessment of environmental technology 
evaluation processes. It is important to recognize that the Agency does 
not choose technology winners or losers in either the SITE or the ETV 
programs. The Agency merely provides the marketplace with the assurance 
that the technology evaluation process was conducted as advertised.
    The appropriate level of Agency involvement with the development, 
implementation and assessment of technology evaluation processes (and 
methods) is arguably the most relevant question and, of course, how 
those activities should be financially supported. From our evaluation 
of the SITE and ETV programs, we would strongly argue that the Agency 
needs to maintain an explicit (and transparent) role in SITE and ETV to 
ensure that the processes (and methods) used to evaluate environmental 
technologies are scientifically sound and applied in a balanced way.
    Although the private sector has a clear interest in financially 
supporting environmental technology evaluation and verification 
processes, it is not entirely obvious how competing demands on private 
sector resources will influence the development, implementation and/or 
assessment of technology testing procedures. Explicit Agency 
involvement provides a means of ensuring vital standardization in 
technology testing.
    Of course, with declining federal budgets, it is clear that 
increasing financial support for the SITE and ETV programs will be 
difficult to achieve. However, consideration should be given to 
maintaining these programs at a level sufficient for them to engage in 
meaningful discussions with private trade groups and testing 
organizations (e.g., American Society of Testing Materials--ASTM) to 
assure the marketplace and the general public that environmental 
technology claims are supported by scientifically sound and fully 
documented procedures.

                   Answers to Post-Hearing Questions

Responses by Jennifer Sass, Senior Scientist, Health and Environment 
        Program, Natural Resource Defense Council

Questions submitted by Chairman Nick Lampson

International Life Sciences Institute (ILSI) contracts and projects 
                    with EPA

Q1.  Was NRDC or any other public interest group invited to participate 
or observe any of the workshops or meetings funded under these 
contracts?

A1. No. However, if NRDC or any other public interest group had been 
invited to participate, this would have still left the public interest 
overwhelmingly under-represented in a highly technical debate. The 
public relies on its publicly-supported federal agencies to represent 
the public interests, and expects its products to be available for 
public scrutiny by all interested parties. It would be unreasonable to 
expect the public and public interest groups to provide adequate 
technical representation during a long, drawn-out process of workshop 
proceedings. Rather, we expect the final products of such events to be 
disclosed as corporate/industry work products, submitted to federal 
agencies during appropriate stages in the regulatory process, available 
for public scrutiny, and treated with the same consideration, and no 
more, as all public submissions.

Q2.  What is the nature of NRDC's concern about these workshops and 
meetings?

A2. The ILSI, like any trade group or industry, has the right, and is 
even encouraged to conduct scientific inquiries (research or analysis) 
regarding the risks associated with its member's products. Such 
inquiries should be welcomed as submissions to the regulatory agencies 
for their review and consideration. When conducted through the proper 
channels, such submissions are available for public scrutiny, and are 
submitted to the agencies during appropriate times in the regulatory 
process. For example, pesticide registrants are required to submit 
safety data on their products as a prerequisite for registration\1\, 
and are required to submit adverse effects information as it becomes 
evident during the products commercial use.\2\ While the registration 
of new chemicals does not require safety data, all chemical 
manufacturers, importers, processors and distributors are required to 
submit all available information on the risks of their products.\3\ The 
difference between these industry-submissions and the ILSI-EPA 
activities is that the latter are conducted in a manner that parallels, 
manipulates, and even co-opts the Agency's activities, so that a final 
work product represents the corporate response to regulatory needs, but 
without the disclosure that it is a corporate work product, without the 
limitations placed on a public submission, and without the 
participation of public advocacy groups. ILSI describes itself as, 
``bringing together scientists from academia, government, and 
industry.'' \4\ While it is expected that ILSI will sponsor research, 
conferences, workshops, and publications to increase awareness of its 
scientific research and viewpoints, it is of great concern that 
government officials from regulatory agencies participate in and even 
sponsor many of these efforts, influencing government policy positions 
while by-passing federal requirements for balance of perspectives and 
transparency such as those embodied in the Federal Advisory Committee 
Act (FACA).\5\
---------------------------------------------------------------------------
    \1\ The data requirements for registration of pesticides are 
intended to generate data and information necessary to for EPA to 
assess the identity, composition, potential adverse effects and 
environmental fate of each pesticide. EPA's requirements for data are 
listed in the Code of Federal Regulations, Chapter 40, Part 158. http:/
/www.epa.gov/pesticides/regulating/data.htm
    \2\ Section 6(a)(2) of the Federal Insecticide, Fungicide and 
Rodenticide Act (FIFRA) requires pesticide product registrants to 
submit adverse effects information about their products to the EPA. 
http://www.epa.gov/pesticides/fifra6a2/
    \3\ Section 8(e) of the Toxic Substances Control Act (TSCA) 
requires U.S. chemical manufacturers, importers, processors and 
distributors to notify EPA within 30 calendar days of new, unpublished 
information on their chemicals that may lead to a conclusion of 
substantial risk to human health or to the environment. http://
www.epa.gov/opptintr/tsca8e/
    \4\ http://www.ilsi.org/AboutILSI/
    \5\ 5 U.S.C. Appendix 2.
---------------------------------------------------------------------------
    For the reasons above, at a meeting in January, 2006, the World 
Health Organization (WHO) took action to limit the participation of 
ILSI in its activities, specifically preventing ILSI from participating 
in ``normative activities,'' defined as setting chemical or contaminant 
levels for food and water. This decision followed a public letter from 
NRDC, Environmental Working Group, United Steelworkers of America and 
15 other health, environmental and union groups calling on the WHO to 
sever all official ties with ILSI. In response to the WHO decision, an 
e-mail from Craig Barrow of Dow Chemical to ILSI leadership pledges the 
support of Dow to, ``work with ILSI to develop and implement a 
proactive strategy'' to prevent ``further discredit to industry and 
ILSI in the U.S.'' \6\ As the Dow e-mail demonstrates, the interests of 
ILSI are the interests of its corporate members.
---------------------------------------------------------------------------
    \6\ E-mail from Barrow, Craig (CS). Sent: Monday, January 30, 2006 
8:32 AM. To: Holsapple Mike (Holsapple, Mike); Gibson Jim (work), 
(Gibson, Jim (work)); Goodman Jay (Goodman, Jay). Cc: Bus, Jim (JS). 
Subject: WHO Bans ILSI Participation
---------------------------------------------------------------------------
    Many ILSI workshops result in recommendations for more scientific 
study by raising uncertainty and doubt regarding existing science. This 
technique often serves to stave off liability and health-protective 
regulations, as described in the now-famous 1969 tobacco memo as 
follows: ``Doubt is our product since it is the best means of competing 
with the `body of fact' that exists in the mind of the general 
public.'' \7\ Similar misinformation campaigns have been used by ILSI 
members representing asbestos, beryllium, lead, mercury, vinyl 
chloride, chromium, benzene, and other toxic chemical and 
pharmaceutical agents.\8\<SUP>,</SUP>\9\ This strategy (calling for 
more research while avoiding meaningful action) also has been the 
hallmark of global warming opponents, who have misrepresented the 
scientific consensus, resulting in a decades-long delay in U.S. efforts 
to curb global warming emissions; a delay that may prove costly indeed 
for the American people.\10\
---------------------------------------------------------------------------
    \7\ Burgard, JW. Executive at Brown and Williams. August, 1969. 
Available at the Legacy Tobacco Documents Library, University of 
California, San Francisco. Bates number 680559702. Available at http://
legacy.library.ucsf.edu/tid/wjh13f00
    \8\ Michaels, David. Doubt is their product. Scientific American 
June, 2005. pp. 96-101
    \9\ Special Issue. The Corporate Corruption of Science. Eds. D 
Egilman, S Rankin-Bohme. Int J Occup Env Health, Vol II, No 4. October-
December, 2005. http://www.ijoeh.com/
    \10\ White house white-washes global warming data. June 8, 2005. A 
top White House environmental official--and former oil industry 
lobbyist--repeatedly manipulated government reports to downplay the 
threat of global warming. Available at NRDC Bush Record: http://
www.nrdc.org/bushrecord/2005<INF>-</INF>06.asp
---------------------------------------------------------------------------
    EPA is finding itself spiraling into an increasingly weaker 
scientific state. It has been dealt a decreasing budget for providing 
scientific infrastructure and resources, despite an increasing need for 
robust data to support human health and environmental protective 
policies and regulations. The result is that EPA is increasingly under 
pressure to make regulatory and policy decisions with no data, 
inadequate data, or poor-quality data. NRDC recommends that EPA support 
and expand its use of in-house scientific and technical experts. These 
people represent the Nation's brain-trust, and their work products 
should be publicly available. The Agency's own technical experts have 
to be enabled to investigate and disclose what dangers we truly face 
from environmental pollutants, despite myriad influences of business 
interests. With the current cuts to the EPA budget, and under current 
EPA leadership, grievous and irreversible damage is being done to this 
Agency's capacity to protect human health and the environment.

Questions submitted by Representative Daniel Lipinski

Nanotechnology

Q1.  What is your opinion of the EPA's current research agenda 
regarding nanotech?

A1. While it focuses on collecting much needed information about 
nanomaterial toxicity, it fails to either take advantage of existing 
authority to require the generation and submission of certain 
information or to explain how this information will inform or support 
regulatory action, and the nature of regulatory action that EPA plans 
to take. Thus, EPA's current agenda is missing a vitally important 
element: a commitment to ``develop and enforce regulations that 
implement environmental laws enacted by Congress'' \11\ to protect 
human health and the environment. EPA should use existing authorities 
to require safety testing of nanomaterials and to prevent exposure to 
or release of untested or unsafe nanomaterials. In short, EPA is 
failing to develop new regulations, or amend existing regulations, to 
adequately address the dangers that potentially toxic nanomaterials may 
pose to human and the environmental.
---------------------------------------------------------------------------
    \11\ http://www.epa.gov/epahome/aboutepa.htm (statement and 
explanation of EPA's mission).

Q2.  What is your opinion of the efficacy of the EPA voluntary pilot 
---------------------------------------------------------------------------
program on nanotech?

A2. A voluntary pilot program now under consideration by the EPA will 
request that industry participants submit data on material 
characterization, toxicity, exposure potential, and risk management 
practices.\12\ While this program may help to fill the regulatory 
breech, it will only involve those companies that volunteer to 
participate, and will gather data regarding only those products that 
participating companies choose to disclose. Companies with the riskiest 
products, as well as those with poor business ethics--that is, those 
most likely to need government oversight--are least likely to 
participate. A coalition of more than 20 public interest groups 
including NRDC, Friends of the Earth, Greenpeace, Sierra Club, and ETC 
Group insist that a voluntary program without a mandatory regulatory 
component will not be able to address potential risks.\13\
---------------------------------------------------------------------------
    \12\ National Pollution Prevention and Toxics Advisory Committee 
(NPPTAC). Interim Ad Hoc Work Group on Nanoscale Materials, Overview of 
Issues for public discussion and consideration by NPPTAC. U.S. 
Environmental Protection Agency, September 21, 2005.
    \13\ J. Sass, NRDC comments on EPA proposed voluntary pilot program 
for nanomaterials, July 20, 2005, Docket: EPA-OPPT-2004-0122-0013.
---------------------------------------------------------------------------
    As a result, the pilot program may generate some useful data, but 
it falls well short of what is need to ensure that we can identify and 
address significant potential health threats before they cause 
widespread damage.
    Despite its shortcomings, the Toxic Substances Control Act (TSCA), 
enacted by Congress in 1976 to gather information about chemical 
substances and control those deemed dangerous to the public or the 
environment, is the most obvious candidate for regulating 
nanomaterials. NRDC and other public interest groups urged the EPA to 
identify all engineered nanomaterials as ``new chemical substances'' 
under TSCA because they meet the standard of ``organic or inorganic 
substance[s] of a particular molecular identity.'' \14\ This would 
trigger TSCA section 5 pre-manufacture notice (``PMN'') reporting 
requirements prior to the commercial manufacture or import of 
nanomaterials.\15\ The U.S. Patent and Trademark Office issued more 
than 8,600 nanotechnology-related patents in 2003, suggesting that at 
least one arm of the government already considers these materials to be 
new.
---------------------------------------------------------------------------
    \14\ Toxic Substances Control Act (``TSCA'')  3(2)(A); 42 U.S.C.  
2602(2)(A).
    \15\ TSCA  5 authorizes the EPA to review activities associated 
with the manufacture, processing, use, distribution in commerce, and 
disposal of any new chemical substance before it enters commerce, and 
requiring pre-manufacture notice (``PMN'') reporting prior to 
commercial manufacture or import under  5 and 42 U.S.C.  2604.
---------------------------------------------------------------------------
    In addition to pre-manufacture (PMN) reporting, the EPA has 
authority to issue test rules under TSCA section 4, and may waive the 
regulatory production volume thresholds that otherwise would not be 
triggered by the miniscule product volume of most nanomaterials.\16\ 
EPA also has authority under TSCA section 6 to prohibit or limit anyone 
manufacturing, importing, processing, distributing in commerce, using, 
or disposing of a chemical if there is a reasonable basis to conclude 
the chemical presents, or will present, an ``unreasonable risk of 
injury to health or the environment.'' EPA has not taken advantage of 
these authorities to address the risks that nanomaterials pose. Indeed, 
the EPA has failed to regulate any new chemical using the TSCA's 
section 6 authority since that provision was gutted by the U.S. Court 
of Appeals for the Fifth Circuit in the 1991 case Corrosion Proof 
Fittings v. EPA, rejecting the EPA's application of the TSCA's section 
6 to asbestos).\17\ The court's decision and subsequent problematic EPA 
interpretations of that decision make it extraordinarily difficult for 
the agency to adopt regulations under TSCA's section 6.
---------------------------------------------------------------------------
    \16\ TSCA  4(a) states that where there are insufficient data to 
assess the effects of the manufacture, distribution, processing, use or 
disposal of a chemical substance, and testing is necessary to develop 
such data, the TSCA provides that the EPA shall promulgate regulations 
requiring manufacturers and/or processors of such substances to develop 
new data that are needed to assess potential risks to human health and 
the environmental if the administrator finds: (1) that manufacture, 
distribution, use, and disposal practices may present an unreasonable 
risk of injury ( 4(a)(1)(A)(i)); or (2) that the chemical will be 
produced in substantial quantities and that it enters or may be 
reasonably anticipated to enter the environment in substantial 
quantities or that there is or may be significant or substantial human 
exposure to the substance,  4(a)(1)(B)(i)).
    \17\ Corrosion Proof Fittings v. EPA, 947 F.2d 1201 (5th Cir. 
1991).
---------------------------------------------------------------------------
    In the end, EPA's current agenda leaves the American public 
virtually unprotected, the de facto guinea pigs of the nanotechnology 
industry. While NRDC believes that requiring pre-manufacture notice, 
issuing test rules, and promulgating regulations under TSCA may 
ultimately be insufficient to protect public health and the 
environment, EPA's current agenda fails even to identify how it will 
use these authorities reduce the risk associated with nanomaterials. As 
a result, legislative action by Congress, the states, and potentially 
the courts will be necessary to ensure that concerns regarding 
nanomaterials are adequately addressed.

Q3.  Is the EPA research plan designed to support Agency decisions and 
key questions about potential risks?

A3. This is an important question, and one that is difficult to answer, 
since the EPA research strategy is not clearly coordinated with 
identified regulatory needs. In other words, the research does not 
identify what question it is designed to answer, and what regulatory 
action may be associated with that answer. For example, Section 3.3.5 
of the White Paper (Feb 2007; EPA 100/B-07/001) provides some general 
discussion of the important issue of ``bioavailability and 
bioaccumulation of nanomaterials,'' and then later in Section 5.1.3, 
identifies the need for research on the extent that nanomaterials used 
in environmental remediation may themselves be persistent, 
bioaccumulative, and/or toxic. This extremely limited view fails to 
identify the critical need for this research on all nanomaterials, 
whether in remediation applications, commercial products, or industrial 
processes. Moreover, the White Paper fails to make recommendations 
about regulatory actions based on this information. If a nanomaterial 
is shown to be persistent, bioaccumulative, and toxic, what is EPA to 
do? The failure of our regulatory agencies to identify and regulate 
persistent bioaccumulative toxics represents a failure of public health 
prevention, and an abdication of responsibility from our publicly-
entrusted federal agencies to the private realm via voluntary 
agreements.
    An array of good stewardship approaches to nanotechnology 
development would increase public confidence and market stability. In 
public comments on the EPA external review draft nanotechnology white 
paper, NRDC and other public interest groups and public health experts 
requested that EPA do the following:\18\
---------------------------------------------------------------------------
    \18\ NRDC comments on the US EPA external review draft 
nanotechnology white paper. January, 2006. Docket ID: EPA-HQ-ORD-2005-
0504

        <bullet>  take immediate action to prevent uses of 
        nanomaterials that may result in human exposures or 
        environmental releases, unless reasonable assurances of safety 
---------------------------------------------------------------------------
        are demonstrated beforehand;

        <bullet>  label products that contain nanomaterials, or are 
        made with processes that use nanomaterial;

        <bullet>  publicly disclose information on potential risks;

        <bullet>  include toxicity information on nanomaterials for 
        worker protection on material safety data sheets;

        <bullet>  increase safety testing conducted by independent or 
        government laboratories subject to ``sunshine laws'' that allow 
        public access;

        <bullet>  conduct comprehensive assessment of the environmental 
        and human health concerns that may arise across the life-
        cycle--including production, use, and disposal--of nanotech 
        products.

    The potential of nanotechnologies to transform the global social, 
economic, and political landscape makes it essential that the public 
participate in the decision-making regarding the introduction and 
management of these new technologies to ensure that public values and 
preferences inform the development of this transformative new 
technology. It is essential that such public participation directly 
inform public policy development and nanotechnology decision-making, 
rather than limiting public `engagement' to a one way process in which 
government and the scientific community `educate' the public. Public 
preferences should also inform the allocation of public funding for 
nanotechnologies' research and development; commercially-oriented 
research should not be at the expense of public interest research. 
Consideration of nanotechnology's broader social implications and 
ethical issues should occur at each stage of the development process. 
Social impact and ethical assessment, alongside the expression of 
community preference, should guide the allocation of public funding for 
research; new nano-products should be subject to a social impact and 
ethical assessment process as part of the regulatory approval process 
prior to their commercialization; and social science analysis of 
nanotechnology's implications should take place in real time alongside 
that of the toxicological sciences. Meaningful public participation 
will require transparency of both scientific and social issues, and 
will require rapid public access to credible information.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

               Statement of the American Chemical Society

    The American Chemical Society (ACS) would like to thank Chairman 
Bart Gordon and Ranking Member Ralph Hall for the opportunity to submit 
testimony for the record on the Environmental Protection Agency (EPA) 
science and technology programs for fiscal year 2008.
    ACS is a non-profit scientific and educational organization, 
chartered by Congress, representing more than 160,000 individual 
chemical scientists and engineers. The world's largest scientific 
society, ACS advances the chemical enterprise, increases public 
understanding of chemistry, and brings its expertise to bear on State, 
national, and international matters.
    As Congress and the Administration consider funding priorities for 
FY 2008 in a tight budgetary environment, ACS urges policy-makers to 
support the important work carried out by the Environmental Protection 
Agency's Science and Technology Program. In reviewing the President's 
budget request, ACS has identified four areas of focus for EPA:

        1.  Growing the EPA Science & Technology account and increasing 
        support for scientific research supported by the Agency, 
        particularly through the Office of Research and Development 
        (ORD).

        2.  Restoring important programs that build the talent pipeline 
        for the environmental sciences, such as the Science To Achieve 
        Results (STAR) fellowships.

        3.  Increasing support for green chemistry and engineering 
        programs and reversing the short-sighted decision to eliminate 
        the Technology for Sustainable Environment research program.

        4.  Reforming the management structure for science at EPA.

    We look to science to understand environmental challenges and to 
develop more intelligent, less burdensome solutions. Over the past two 
decades, demand for more scientific evidence--whether it's to set or 
improve regulations--has grown substantially. The amount of research 
envisioned in EPA-related authorizations also has increased. 
Nevertheless, appropriations for EPA science programs have not kept 
pace with the need for more and better science.
    Over the last 20 years, the EPA S&T account, which includes the ORD 
and research programs in other EPA Offices, has fluctuated between 
seven and ten percent of the Agency's total budget. In order for EPA 
set science-based national environmental standards, conduct research 
and environmental monitoring, and provide technical assistance to 
states, local governments, and businesses, the S&T account needs to 
increase as a percentage of the Agency's total budget, ultimately to a 
stable ten percent level. The President's budget request is $755 
million, a roughly 3.3 percent increase over FY 2006 (final FY 2007 
spending levels from H.J. Res. 20 are not available); however, with the 
expiration of the Superfund tax, previously funded Superfund support 
activities now come out of the S&T account and cancel out any nominal 
increase in account funding. ACS recognizes the tight fiscal situation 
the country faces, but strongly believes that substantial constant-
dollar decreases in funding for the S&T account will only hinder the 
ability of EPA to achieve its mission.
    For FY 2008, ACS recommends the ORD account should receive $646 
million, consistent with its 2004 funding high point. This represents 
an increase of 8.6 percent relative to FY 2006 funding levels. ACS 
recommends that the additional funds be applied to the following 
priority areas:

        <bullet>  Provide $10 million for the STAR fellowships.

        <bullet>  Increase overall STAR programmatic funding to $110 
        million.

        <bullet>  Increase funding of green chemistry and engineering 
        to advance the development and use of innovative, 
        environmentally benign products and processes.

        <bullet>  Invest in EPA's ability to recruit, develop, and 
        retain an effective scientific workforce.

        <bullet>  Continue investing in federal research and technology 
        development to reduce or avoid greenhouse gas emissions and 
        address the potential impacts of global climate change.

        <bullet>  Support innovative and high-risk research that may 
        help identify and explore future environmental problems and 
        develop new sets of technologies to solve existing problems.

    The FY 2008 budget request continues a pattern of declining support 
for science at EPA for the Office of Research & Development, which is 
the largest part of the S&T account. The Administration requested $540 
million for ORD for FY 2008. This represents a minus nine percent cut 
in ORD resources over FY 2006. The $55 million decrease in ORD accounts 
from FY 2006 threatens ORD's mission to carry out world class 
environmental research, further damaging the government's ability to 
provide top notch research on behalf of the American taxpayer and 
ensure America's policy-makers use sound scientific advice in decision-
making.
    The Administration's proposal to continue the dramatic reductions 
in the STAR fellowship program is a good case in point. This program is 
the only federal program dedicated to graduate study in environmental 
sciences at colleges and universities across the country. The STAR 
fellowships are part of a cohesive effort to characterize critical or 
emerging environmental problems and create solutions to address them. 
EPA designed this extramural research grant program to work in 
cooperation with a fellowship program. Together, they provide ideas, 
information, new discoveries, and new researchers. Today's STAR fellows 
will become tomorrow's environmental experts working for industry, 
government agencies like EPA, and academic institutions. The loss of 
this program's resources will further erode the Agency's capability to 
attract an excellent workforce and will reduce the amount of scientific 
information available to inform agency decisions.
    ACS supports increased funding for green chemistry and engineering 
programs to advance the development and use of innovative products and 
process, reducing or eliminating the use of hazardous substances. 
Because chemistry and chemical products fuel the economy of every 
industrialized nation, the tools and strategies chemists and chemical 
engineers develop will be instrumental in meeting the dual challenges 
of protecting the environment and strengthening the economy. The 
elimination of the Technology for Sustainable Environment research 
program under STAR was an unfortunate decision that hobbles the 
Agency's ability to work creatively with industry and others to carry 
out the mission through cost-effective technology substitution as 
opposed regulatory burdens.
    Finally, ACS remains concerned about broader management issues 
raised by the long-term decline in support for EPA science and 
technology programs. ACS understands the often confrontational nature 
of the regulatory process; however, EPA's organizational structure 
reinforces this tension by housing the Agency's main scientific 
functions in an office that is:

        <bullet>  Inadequately funded;

        <bullet>  Not budgeted independently or separately by-lined in 
        the annual appropriations process;

        <bullet>  Not often given specific authorizing legislation;

        <bullet>  Forced to compete with its own internal offices--its 
        principal customers--for attention and resources; and

        <bullet>  Often criticized for the quality of its science and 
        its inability to apply this science to environmental decisions.

    In previous Congresses, the Science Committee passed legislation 
addressing many of these issues; unfortunately the situation today is 
even more important and urgent. The ability of the government to 
marshal scientific expertise and resources in the wake of the terrorist 
attacks has been tested severely. New issues also have arisen, such as 
the need to assure that access to government information does not 
provide tools to terrorists and the need for stronger data quality 
standards within government agencies. ACS endorses the creation of a 
Deputy Administrator for Science and Technology, as suggested by the 
National Research Council's report in 2000, Strengthening Science at 
the U.S. Environmental Protection Agency. A Deputy Administrator for 
Science and Technology would add considerably to an effective and 
efficient EPA response to these challenges.
    ACS is a long-term advocate for increased attention to research 
programs at EPA, both in budgetary and in management terms, and our 
enthusiasm for these programs remain strong. We also appreciate the 
Science Committee's support for EPA Science and Technology programs and 
look forward to working with the Committee, Congress, and the 
Administration to ensure their future vitality. ACS thanks the 
Committee for this opportunity to submit testimony and would be happy 
to answer any questions.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
